<html>
<title> - LINES CROSSED: SEPARATION OF CHURCH AND STATE. HAS THE OBAMA ADMINISTRATION TRAMPLED ON FREEDOM OF RELIGION AND FREEDOM OF CONSCIENCE?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
     LINES CROSSED: SEPARATION OF CHURCH AND STATE. HAS THE OBAMA 
     ADMINISTRATION TRAMPLED ON FREEDOM OF RELIGION AND FREEDOM OF 
                              CONSCIENCE?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2012

                               __________

                           Serial No. 112-122

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
73-614                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 16, 2012................................     1
Statement of:
    Garvey, John H., president, the Catholic University of 
      America; William K. Thierfelder, president, Belmont Abbey 
      College; Samuel W. ``Dub'' Oliver, president, East Texas 
      Baptist University; Allison Dabbs Garrett, senior vice 
      president for Academic Affairs, Oklahoma Christian 
      University; and Laura Champion, M.D., medical director, 
      Calvin College Health Services.............................   116
        Champion, Laura..........................................   153
        Garrett, Allison Dabbs...................................   147
        Garvey, John H...........................................   116
        Oliver, Samuel W. ``Dub''................................   141
        Thierfelder, William K...................................   134
    Lori, Reverend William E., Roman Catholic Bishop of 
      Bridgeport, CT, chairman, Ad Hoc Committee for Religious 
      Liberty, U.S. Conference of Catholic Bishops; Reverend Dr. 
      Matthew C. Harrison, president, the Lutheran Church, 
      Missouri Synod; C. Ben Mitchell, Ph.D., Graves professor of 
      moral philosophy, Union University; Rabbi Meir Soloveichik, 
      director, Straus Center for Torah and Western Thought, 
      Yeshiva University, Associate Rabbi, Congregation Kehilath 
      Jeshurun; and Craig Mitchell, Ph.D., associate professor of 
      ethics, Chair, Ethics Department, associate director of the 
      Richard Land Center for Cultural Engagement, Southwestern 
      Baptist Theological Seminary...............................    38
        Harrison, Reverend Dr. Matthew C.........................    44
        Lori, Reverend William E.................................    38
        Mitchell, C. Ben.........................................    48
        Mitchell, Craig..........................................    58
        Soloveichik, Rabbi Meir..................................    52
Letters, statements, etc., submitted for the record by:
    Champion, Laura, M.D., medical director, Calvin College 
      Health Services, prepared statement of.....................   155
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, information concerning Catholic 
      Institutions that provide contraceptive coverage...........   127
    Garrett, Allison Dabbs, senior vice president for Academic 
      Affairs, Oklahoma Christian University, prepared statement 
      of.........................................................   149
    Garvey, John H., president, the Catholic University of 
      America, prepared statement of.............................   119
    Harrison, Reverend Dr. Matthew C., president, the Lutheran 
      Church, Missouri Synod, prepared statement of..............    46
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California:
    Information conerning Catholic Charities USA.................     6
    Letter dated Februay 15, 2012................................     8
    Record of dialog.............................................    34
    Lori, Reverend William E., Roman Catholic Bishop of 
      Bridgeport, CT, chairman, Ad Hoc Committee for Religious 
      Liberty, U.S. Conference of Catholic Bishops, prepared 
      statement of...............................................    41
    Mitchell, C. Ben, Ph.D., Graves professor of moral 
      philosophy, Union University, prepared statement of........    50
    Mitchell, Craig, Ph.D., associate professor of ethics, Chair, 
      Ethics Department, associate director of the Richard Land 
      Center for Cultural Engagement, Southwestern Baptist 
      Theological Seminary, prepared statement of................    60
    Oliver, Samuel W. ``Dub'', president, East Texas Baptist 
      University, prepared statement of..........................   143
    Quigley, Hon. Mike, a Representative in Congress from the 
      State of Illinois, information concerning JFK's speech on 
      his religion...............................................    86
    Soloveichik, Rabbi Meir, director, Straus Center for Torah 
      and Western Thought, Yeshiva University, Associate Rabbi, 
      Congregation Kehilath Jeshurun, prepared statement of......    54
    Thierfelder, William K., president, Belmont Abbey College, 
      prepared statement of......................................   137
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of Maryland, prepared statement of the National 
      Health Law Program.........................................    69


     LINES CROSSED: SEPARATION OF CHURCH AND STATE. HAS THE OBAMA 
     ADMINISTRATION TRAMPLED ON FREEDOM OF RELIGION AND FREEDOM OF 
                              CONSCIENCE?

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2012

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room 2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, Burton, Turner, McHenry, 
Jordan, Chaffetz, Walberg, Lankford, Amash, Buerkle, Gosar, 
DesJarlais, Walsh, Gowdy, Ross, Farenthold, Kelly, Cummings, 
Towns, Maloney, Norton, Kucinich, Tierney, Clay, Connolly, 
Quigley, Davis, and Murphy.
    Also present: Representatives Mulvaney and DeLauro.
    Staff present: Ali Ahmad, communications advisor; Alexia 
Ardolina, Will L. Boyington, Drew Colliatie, and Nadia A. 
Zahran, staff assistants; Kurt Bardella, senior policy advisor; 
Brien A. Beattie, Brian Blase, and Ryan Little, professional 
staff members; Michael R. Bebeau and Gwen D'Luzansky, assistant 
clerks; Robert Borden, general counsel; Molly Boyl, 
parliamentarian; Lawrence J. Brady, staff director; Sharon 
Casey, senior assistant clerk; John Cuaderes, deputy staff 
director; Adam P. Fromm, director of Member services and 
committee operations; Linda Good, chief clerk; Justin LoFranco, 
deputy director of digital strategy; Mark D. Marin, director of 
oversight; Ashok M. Pinto, deputy chief counsel, 
investigations; Laura L. Rush, deputy chief clerk; Rebecca 
Watkins, press secretary; Kevin Corbin, minority deputy clerk; 
Ashley Etienne, minority director of communications; Susanne 
Sachsman Grooms, minority chief counsel; Jennifer Hoffman, 
minority press secretary; Carla Hultberg, minority chief clerk; 
Adam Koshkin, minority staff assistant; Una Lee, Brian Quinn, 
and Ellen Zeng, minority counsels; Suzanne Owen, minority 
health policy advisor; Dave Rapallo, minority staff director; 
and Mark Stephenson, minority director of legislation.
    Chairman Issa. The committee will come to order.
    The Oversight Committee exists to secure two fundamental 
principles. First, America has a right to know that the money 
Washington takes from them is well spent; and, second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights. Our solemn responsibility 
is to hold government accountable to taxpayers, because 
taxpayers have a right to know what they get from their 
government. Our responsibility is to work tirelessly in 
partnership with citizen watchdogs to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy.
    Today's hearing is a solemn one. It involves freedom of 
conscience. Ultimately, without the first pillar of our 
freedoms, the freedoms that we did not give up to our 
government, the American democracy and the experiment that has 
lasted over 200 years falls for no purpose. The architects of 
our Constitution believed our country would be a place that 
would accommodate all religions. In fact, they could not agree 
on religion more than anything else.
    Our Founding Fathers came from different religions, and 
they did not trust that one religious order would not 
circumvent another, for, in fact, many came from a country in 
which they were of one religion and had to change to another on 
a government edict.
    Many looked at establishment of religion as all it is 
about, but ultimately our Founding Fathers, including Thomas 
Jefferson, including George Washington and others, all 
understood that, in fact, their conscience was their guide, and 
their conscience came overwhelmingly from their religious 
convictions, and therefore time and time again they made it 
clear that a man's conscience, particularly if it flowed from 
his faith, had a special role in our freedoms.
    I might note, not for a subject that many would bring up 
today, but that, in fact, since our founding, men primarily, 
and now men and women, can refuse to serve under arms for 
reasons of personal conviction stemming from their faith. There 
is no greater obligation than to serve your country in time of 
war, but, in fact, our country for hundreds of years has 
understood that faith comes first, and that no man or woman 
should ever be forced to betray that faith.
    Many will frame today not as First Amendment, but about the 
particular issue that comes before us related to the Obama 
health care plan. This is not about that. In fact, if it is 
about that, we should be over in the Energy and Commerce 
Committee or some committee dealing with health or other 
issues. This committee wants to fully vet with the most 
knowledgeable of both clergy and lay people that we could find 
the real questions of where does faith begin, and where does it 
end; where does government's ability to influence decisions 
made by people of faith begin, and where does it end. These 
basic questions go to the heart of the Constitution.
    I recognize that there will be people who do not like the 
outcome of any decision involving the Constitution, whether it 
is the Miranda warning related to self-incrimination, whether 
it is, in fact, a free press able to denounce people in 
government or others; whether it is one after another of the 
Bill of Rights or other items so entrenched in the 
Constitution. Many of them are objectionable to others. But let 
us understand, inalienable rights flow from all of us, whether 
we are in the majority or an incredibly small minority. That 
ultimately is what we are going to discuss today.
    I expect that we will hear from people who have spent their 
entire life pondering these very questions of faith and 
conscience. I expect we will meet in the second panel 
particularly from people who must execute both faith and often 
education and other responsibilities that have fallen to church 
and churchlike groups since our founding.
    I take this as very solemn. I know that all of us on the 
panel do. The tone today is about learning and listening, and I 
certainly hope all of us who came here, including the students 
who are in the audience today, recognize how important this 
juncture in our democracy is.
    With that, I recognize the ranking member for his opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    As the son of two Pentecostal ministers from a small church 
in Baltimore, I understand the position of the religious 
community on this issue. I know both through my faith and my 
legal training that we have an obligation as a Nation to make 
accommodations when appropriate to avoid undue interference 
with the practice of religion.
    But there is another core interest we must consider, and 
that is the interest of women. The pill has a profound impact 
on their well-being, far more than any man in this room can 
possibly know. It has allowed women to control their lives and 
make very personal decisions about how many children to have 
and when to have them.
    I think everyone understands what is going on here today. 
The chairman is promoting a conspiracy theory that the Federal 
Government is conducting a war against religion. He stacked the 
hearing with witnesses who agree with his position. He has not 
invited Catholic Health Association, Catholic Charities, 
Catholics United or a host of other Catholic groups that praise 
the White House for making the accommodation they made last 
week. He also has refused to allow a minority witness to 
testify about the interests of women who want safe and 
affordable coverage for basic preventive health care, including 
contraception.
    In my opinion, this committee commits a massive injustice 
by trying to pretend that the views of millions of women across 
this country are meaningless or worthless or irrelevant to the 
debate. For these reasons I yield the rest of my time to the 
Congresswoman from New York, Carolyn Maloney.
    Mrs. Maloney. Thank you, Elijah. I know firsthand of your 
deep faith, and I know you place tremendous value on your faith 
and on open dialog, so I appreciate your efforts to get a more 
balanced hearing today.
    What I want to know is where are the women? When I look at 
this panel, I don't see one single woman representing the tens 
of millions of women across the country who want and need 
insurance coverage for basic preventive health care services, 
including family planning. Where are the women?
    Mr. Chairman, I was deeply disturbed that you rejected our 
request to hear from a woman, a third-year student at 
Georgetown Law School named Sandra Fluke. She hoped to tell 
this committee about a classmate of hers who was diagnosed with 
a syndrome that causes ovarian cysts. Her doctor prescribed a 
pill to treat this disease, but her student insurance did not 
cover it. Over several months, she paid out hundreds of dollars 
in out-of-pocket costs until she could no longer afford her 
medication, and she eventually ended up losing her ovary. Your 
staff told us you personally rejected Ms. Fluke's testimony, 
saying, ``The hearing is not about reproductive rights and 
contraception.''
    Of course this hearing is about rights, contraception and 
birth control. It is about the fact that women want to have 
access to basic health services, family planning through their 
health insurance plan. But some would prevent them from having 
it by using lawsuits and ballot initiatives in dozens of States 
to roll back the fundamental rights of women to a time when the 
government thought what happened in the bedroom was their 
business and contraceptives were illegal. Tens of millions of 
us who are following these hearings lived through those times, 
and I can tell you with great certainty we will not be forced 
back to that dark and primitive era.
    This is why last week the administration announced a 
commonsense accommodation. Churches do not have to provide 
insurance coverage for contraceptives. They do not have to 
approve them. They do not have to prescribe them, dispense them 
or use them. But women will have the right to access them. 
Women who work at nonprofit religious entities like hospitals 
and universities will be able to obtain coverage directly from 
their insurance companies; not from religious organizations, 
but from independent insurance companies. Medical and health 
experts support this policy, economists support it, and a host 
of Catholic groups that were conspicuously not invited to 
testify today.
    The vast majority of women, including women of faith, use 
some form of birth control at some point in their lives, 
whether to plan the number or spacing of their children or to 
address significant medical conditions. With all due respect to 
religious leaders, though you have every right to follow your 
conscience and honor the dictates of your faith, no one should 
have the power to impose their faith on others, to bend them to 
your will, simply because they happen to work for you. That in 
itself is an assault on the fundamental freedoms enshrined in 
our Constitution.
    I ask, Mr. Chairman, for an additional 30 seconds.
    Chairman Issa. I apologize, but the gentleman's time has 
expired that he yielded to you.
    Mrs. Maloney. Okay. Thank you.
    Chairman Issa. I would ask unanimous consent that the 
gentlelady be allowed to speak out of order for an additional 
30 seconds.
    Without objection, so ordered.
    Mrs. Maloney. Thank you, Mr. Chairman, and I am using this 
to urge you once again to let Ms. Fluke testify. Let one woman 
speak for the panel right now on this all-male panel. She is 
here in the audience today. She is steps away. Even if you 
think you will disagree with everything she says, don't we owe 
it to the tens of millions of American women whose lives will 
be affected to let just one, just one woman speak on their 
behalf today on this panel as requested by the Democratic 
minority?
    Chairman Issa. I thank the gentlelady.
    I now ask unanimous consent that the statements, including 
the Web site--there we go. That is better. I now ask unanimous 
consent that both the Web site image and the statement by the 
Catholic Charities be accepted into the record, in which they 
say, ``In response to a great number of mischaracterizations in 
media, Catholic Charities USA wants to make two things very 
clear: We have not endorsed the accommodations of the HHS 
mandate that was announced by the administration last Friday; 
and, second, we unequivocally share the goal of the U.S. 
Catholic bishops to uphold religious liberty and will continue 
to work with the Catholic bishops toward that goal. Any 
representation to the contrary is false.''
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.001
    
    Chairman Issa. Additionally, I ask unanimous consent that 
the letter dated February 15, 2012, entitled ``Unacceptable'' 
be placed in the record. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.002
    
    [GRAPHIC] [TIFF OMITTED] T3614.003
    
    [GRAPHIC] [TIFF OMITTED] T3614.004
    
    [GRAPHIC] [TIFF OMITTED] T3614.005
    
    [GRAPHIC] [TIFF OMITTED] T3614.006
    
    [GRAPHIC] [TIFF OMITTED] T3614.007
    
    [GRAPHIC] [TIFF OMITTED] T3614.008
    
    [GRAPHIC] [TIFF OMITTED] T3614.009
    
    [GRAPHIC] [TIFF OMITTED] T3614.010
    
    [GRAPHIC] [TIFF OMITTED] T3614.011
    
    [GRAPHIC] [TIFF OMITTED] T3614.012
    
    [GRAPHIC] [TIFF OMITTED] T3614.013
    
    [GRAPHIC] [TIFF OMITTED] T3614.014
    
    [GRAPHIC] [TIFF OMITTED] T3614.015
    
    [GRAPHIC] [TIFF OMITTED] T3614.016
    
    [GRAPHIC] [TIFF OMITTED] T3614.017
    
    [GRAPHIC] [TIFF OMITTED] T3614.018
    
    [GRAPHIC] [TIFF OMITTED] T3614.019
    
    [GRAPHIC] [TIFF OMITTED] T3614.020
    
    [GRAPHIC] [TIFF OMITTED] T3614.021
    
    [GRAPHIC] [TIFF OMITTED] T3614.022
    
    [GRAPHIC] [TIFF OMITTED] T3614.023
    
    [GRAPHIC] [TIFF OMITTED] T3614.024
    
    [GRAPHIC] [TIFF OMITTED] T3614.025
    
    [GRAPHIC] [TIFF OMITTED] T3614.026
    
    Chairman Issa. I will note that the letter is in response 
to the President's announcement that the government compromised 
and is signed by over 300 individuals and groups, including 
universities, professors, religious leaders, journalists, 
independent scholars, lawyers and think tanks.
    Ms. Norton. Mr. Chairman----
    Chairman Issa. For what purpose does the gentlelady seek 
recognition?
    Ms. Norton. Mr. Chairman, could I make an inquiry? The 
gentlelady from New York asked a direct question of the chair, 
and I did not hear an answer. She asked that the witness----
    Chairman Issa. I understand, and I was prepared the next 
item to respond to both the ranking member and the gentlelady.
    This House takes very seriously the committee rules. It is 
a tradition, but not a rule, of the committee that the minority 
have a witness. It is a tradition that the minority have one 
witness. Just yesterday, the minority asked for and received 
two witnesses, one on each panel. They were both qualified, one 
being a U.S. Senator, but yet qualified.
    The second, today, we received, not 3 days in advance or 2 
days or even a full day in advance as is the committee's 
requirement, but yesterday beginning at 1:30 there was a 
dialog, and I would ask unanimous consent that the record of 
that dialog by email be placed in the record. Without 
objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.027
    
    Chairman Issa. In that--I will give it to you in a second. 
In that dialog, beginning only at 10:45 a.m., and going through 
4:59, there was an exchange of requests. The initial request by 
the minority was for two witnesses, the one who has been 
mentioned, and Barry Lynn. Barry Lynn is a well-known, I 
understand, ordained minister, who has spoken on the issues of 
religious freedom; has entered into both civil and, in fact, 
legal proceedings for many, many years; is well regarded and 
well known, even if I disagree.
    When asked about the two witness request, I asked, what are 
their qualifications? Additionally, I recognized immediately 
Barry Lynn as the executive director of Americans United for 
Separation of Church and State. He was, in fact, both because 
of his religious background and because of his position and 
because of his longstanding on that issue, he was fully 
qualified, and I accepted him.
    During the intervening time outlined here, there was a 
retraction when we said there would only be one, and instead 
the minority chose the witness we had not found to be 
appropriate or qualified. Now, ``appropriate and qualified'' is 
a decision I have to make. I asked our staff what is her 
background, what has she done? They did the usual that we do 
when we are not provided the 3 days and the forms to go with 
it. They did a Google search. They looked and found that she 
was, in fact, and is a college student, who appears to have 
become energized over this issue and participated in 
approximately a 45-minute press conference, which is video 
available. For that reason I have asked my staff to post her 
entire--the link to the 45-minute press conference so that the 
public can see her opinion.
    I cannot and will not arbitrarily take a majority or 
minority witness if they do not have the appropriate 
credentials, both for a hearing at the full committee of the 
U.S. House of Representatives and if we cannot vet them in a 
timely fashion.
    I believe that you did suggest two witnesses. One was 
clearly appropriate and qualified. And I might note in closing 
that if you had asked for a representative of Catholic 
Charities or some other group, in other words if you had asked 
for two fully qualified individuals, and particularly if you 
asked for three or four but done it on Monday when we began 
saying, where are your witnesses, we would likely have had one 
on each panel.
    So today we will have Barry Lynn. If he comes in time for 
the second panel, we will include him, and you will not have a 
witness otherwise. But understand for all the folks that have 
made this point, you did not ask for it in a timely fashion, 
not accepting the one of the two that you asked for that we 
accepted makes it very difficult beginning yesterday and going 
through the afternoon.
    Does that fully answer the gentlelady's question?
    Mrs. Maloney.
    Mrs. Maloney. Ms. Fluke is a student at a well-respected 
Catholic university. She is affected by these policies. Why in 
the world is she not qualified?
    Chairman Issa. I appreciate the gentlelady's question. We 
are not having a hearing on the policies or the details related 
to the single issue of ObamaCare and this particular mandate. 
This hearing is about religious freedom. As you will note, the 
men that you have noted on the panel come from denominations 
other than Roman Catholic. They are, in fact, here to speak 
about a broad question.
    If this hearing were more broadly about health care or 
ObamaCare, it would likely be--and the President's now legal 
thing, which we often call ObamaCare--the fact is it probably 
would be a Ways and Means Committee hearing or an Energy and 
Commerce. We are here looking at government's bounds of, in 
fact, not is it a good idea, not does it save or cost money, 
but, in fact, how does it impact religious organizations and 
people of conscience and faith. That is the limit of this 
hearing today, and we have chosen and informed the minority in 
an appropriate time, starting a week ago, we have said this is 
the type of people we are going to have and why, and that is 
hopefully what we will all understand.
    Why does the gentleman from Illinois seek recognition?
    Mr. Quigley. Mr. Chairman, if I could just address this 
point with you for a moment?
    Chairman Issa. Please.
    Mr. Quigley. You and I have always worked well together. 
While not always agreeing on issues, we formed the Transparency 
Caucus together. You know there have been several times when I 
have crossed party lines to work with you on issues. I just----
    Chairman Issa. Will today be one of those times?
    Mr. Quigley. I am betting not. But with all due respect, I 
think the American public has a funny way of deciding what the 
core issue is when something happens before this committee. All 
I am suggesting with the greatest respect is for you to decide 
what the issue is. Others look at the same points of fact and 
say the issue is really this. And I think if you talk about 
liberties and expression, I think freedom of thought is as 
important as any that you have discussed, and I think that--and 
I say this without trying to raise your hackle, is that is 
suppressing that freedom of thought.
    It is this notion that one person, as fair as you might be 
attempting to be, is unilaterally deciding what the issue is. 
And the core here is--and that is why there is so much 
controversy on this matter--is people see it in a different 
way. Until we get past that point, we are going to have 
problems.
    Chairman Issa. Well, I appreciate the gentleman's--I will 
take this as the last comment, if you don't mind. The fact is 
it is the obligation of the majority to set the agenda. When 
Mr. Towns was chairman, he set the agenda. On occasions he gave 
me no option for a witness. When Mr. Waxman was, in fact, the 
chairman, including the staff director who is now whispering in 
your ear, they gave us one witness on a third panel, and, by 
the way, we had to have it in a timely fashion.
    So I appreciate your comments. The fact is we will now go 
to our first panel of witnesses. With that, for what purpose 
does Mr. Turner seek a limited time?
    Mr. Turner. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    Chairman Issa. The gentleman is recognized for 1 minute.
    Mr. Turner. I would like to welcome to this hearing Dr. 
Conroy's advanced placement U.S. Government class. Among the 25 
high school seniors that we have with us from Georgetown 
Visitation Preparatory High School includes my daughter 
Carolyn, and I appreciate your willingness to allow me to 
recognize them today.
    This is a government class. They, of course, study the 
issue of the Constitution, the issue of freedom of religion, 
the issues of freedom of State. This is a hearing that will be 
very important to them. I appreciate and welcome them on a 
bipartisan basis to this hearing.
    Chairman Issa. I thank the gentleman.
    Ms. Norton. Mr. Chairman, I have a parliamentary inquiry.
    Chairman Issa. The gentlelady will state her parliamentary 
inquiry.
    Ms. Norton. You have just made an interpretation of the 
rules, and I stress the word ``interpretation,'' because it is 
precisely that.
    Chairman Issa. The gentleman will state her parliamentary 
inquiry.
    Ms. Norton. I ask the staff to get me the rules, Mr. 
Chairman. And one thing, Mr. Chairman, we have been denied the 
right to have a witness. I am going to have the right to make a 
parliamentary inquiry.
    Chairman Issa. Then state your parliamentary inquiry.
    Ms. Norton. The rule that I am citing, Mr. Chairman, is a 
rule of the committee, rule 2, and it states, ``that every 
member of the committee shall be provided with a memorandum at 
least 3 calendar days before each meeting or hearing explaining 
the names, titles, background and reasons for the appearance of 
any witnesses.''
    Last night at 4:59 p.m., committee members were sent a 
notice that invited two additional Republican witnesses for 
today's hearing. This notice was less than 24 hours before this 
morning's hearings, and therefore your actions have violated 
rule 2, which requires a minimum of 3 days' notice to give 
committee members adequate time to prepare for the hearing.
    Now, of course, under normal circumstances if there had 
been any deference to the minority, I would not even raise this 
procedural matter. But you yourself have raised the rules, and 
in light of that fact, and particularly in light of the fact--
--
    Chairman Issa. The gentlelady's inquiry is noted. The 
gentlelady's inquiry is noted. The chairman is prepared to 
respond. That same rule 2 says, unless there are unusual 
circumstances. Since you might be aware that one of the two 
witnesses was Barry Lynn, and since only yesterday, 2 days 
after what would be the appropriate time for the minority to 
name their witness request, we were given it. With the short 
notice, final schedule was determined based on the unusual 
circumstances of the minority not in a timely fashion 
submitting any valid request for any witnesses, even though on 
a daily basis, actually multiple times per day, the majority 
requested that.
    With that, the chair will now welcome our first panel of 
witnesses.
    Ms. Norton. Mr. Chairman, I ask for a vote on my inquiry.
    Chairman Issa. That we now welcome the Reverend William 
Lori, Roman Catholic Bishop, of Bridgeport, CT. He is chairman 
of the Ad Hoc Committee for Religious Liberty of the U.S. 
Conference of Catholic Bishops; in other words, the go-to on 
this issue.
    The Reverend Matthew Harrison is president of the Lutheran 
Church, Missouri Synod.
    We have two Dr. Mitchells, so this is going to be an 
interesting day. Dr. C. Ben Mitchell is the Graves Professor of 
Moral Philosophy at Union University.
    Rabbi Meir Soloveichik--close? You are the only rabbi, this 
will make it a little easier--is director of the Straus Center 
for Torah and Western Thought at Yeshiva University and 
associate rabbi of the Congregation--that one you are going to 
have to help us with.
    Rabbi Soloveichik. Congregation Kehilath Jeshurun.
    Chairman Issa. So it will be.
    And Dr. Craig Mitchell is associate professor of ethics, 
chair of the ethics department, and associate director of the 
Richard Land Center of Cultural Engagement at Southwestern 
Baptist Theological Seminary.
    I know you are clergy, I know you are sworn to God, but 
this committee has a rule that you will also be sworn here. 
Will you please rise to take the oath. Raise your right hands, 
please.
    [Witnesses sworn.]
    Chairman Issa. Let the record reflect that all witnesses 
answered in the affirmative.
    Thank you. Please be seated.
    Today is a large panel on the first and the second panel, 
so your entire statements and extraneous information you would 
like to supplement within 5 days will be placed in the record. 
So I would ask you as close as possible to observe the lights 
or the timers in front of you and stay as close as you can to 5 
minutes, recognizing that there are no sermons here today.
    With that, Bishop Lori is recognized.

 STATEMENTS OF REVEREND WILLIAM E. LORI, ROMAN CATHOLIC BISHOP 
  OF BRIDGEPORT, CT, CHAIRMAN, AD HOC COMMITTEE FOR RELIGIOUS 
  LIBERTY, U.S. CONFERENCE OF CATHOLIC BISHOPS; REVEREND DR. 
 MATTHEW C. HARRISON, PRESIDENT, THE LUTHERAN CHURCH, MISSOURI 
   SYNOD; C. BEN MITCHELL, PH.D., GRAVES PROFESSOR OF MORAL 
PHILOSOPHY, UNION UNIVERSITY; RABBI MEIR SOLOVEICHIK, DIRECTOR, 
     STRAUS CENTER FOR TORAH AND WESTERN THOUGHT, YESHIVA 
 UNIVERSITY, ASSOCIATE RABBI, CONGREGATION KEHILATH JESHURUN; 
   AND CRAIG MITCHELL, PH.D., ASSOCIATE PROFESSOR OF ETHICS, 
  CHAIR, ETHICS DEPARTMENT, ASSOCIATE DIRECTOR OF THE RICHARD 
   LAND CENTER FOR CULTURAL ENGAGEMENT, SOUTHWESTERN BAPTIST 
                      THEOLOGICAL SEMINARY

              STATEMENT OF BISHOP WILLIAM E. LORI

    Bishop Lori. Thank you very much, Mr. Chairman, 
distinguished members of the committee, for the opportunity to 
testify today.
    For my testimony today, I would like to tell a story. Let's 
call it the parable of the kosher deli. Once upon a time, a new 
law was proposed so that any business that serves food must 
serve pork. There is a narrow exception for kosher catering 
halls attached to synagogues since they serve mostly members of 
that synagog, but kosher delicatessens are still subject to the 
mandate.
    The Orthodox Jewish community, whose members run kosher 
delis and many other restaurants and groceries besides, 
expresses its outrage at the new government mandate, and they 
are joined by others who have no problem with eating pork, not 
just the many Jews who eat pork, but people of all faiths, 
because these others recognize the threat to the principle of 
religious liberty. They recognize as well the practical impact 
of the damage to that principle. They know that if the mandate 
stands, they might be the next ones to be forced under the 
threat of government sanction to violate their most deeply held 
beliefs, especially their unpopular beliefs.
    Meanwhile, those who support the mandate respond, ``But 
pork is good for you.'' Other supporters add, ``So many Jews 
eat pork, and those who don't should just get with the times.'' 
Still others say, ``Those orthodox are just trying to impose 
their beliefs on everyone else.''
    But in our hypothetical, those arguments fail in the public 
debate, because people widely recognize the following points. 
First, although people may reasonably debate whether pork is 
good for you, that is not the question posed by the nationwide 
pork mandate. Instead, the mandate generates this question; 
whether people who believe, even if they believe in error, that 
pork is not good for you should be forced by government to 
serve pork within their very own institutions. In a Nation 
committed to religious liberty and diversity, the answer, of 
course, is no.
    Second, the fact that some Jews eat pork is simply 
irrelevant. The fact remains that some Jews do not, and they do 
not do so out of their most deeply held religious convictions. 
Does the fact that large majorities in society, even large 
majorities within protesting religious communities, the fact 
that they reject a particular religious belief, does that make 
it permissible for the government to weigh in on one side of 
the dispute? Does it allow government to punish that minority 
belief with coercive power? In a Nation committed to religious 
liberty and diversity, the answer, of course, is no.
    Third, the charge that the Orthodox Jews are imposing their 
beliefs on others has it exactly backward. Again, the question 
generated by government mandate is whether the government will 
impose its belief that eating pork is good on objecting 
Orthodox Jews. Meanwhile, there is no imposition on the freedom 
of those who want to eat pork; that is, they are subject to no 
government interference at all in their choice to eat pork, and 
pork is ubiquitous and cheap and available at the overwhelming 
majority of restaurants and grocers. Indeed, some pork 
producers and retailers, even the government itself, are so 
eager to promote the eating of pork that they sometimes give it 
a way for free.
    In this context, the question is this: Can a customer come 
to a kosher deli, demand to be served a ham sandwich, and, if 
refused, bring down severe government sanction on the deli? In 
a Nation committed to religious liberty and diversity, the 
answer is no. So in our hypothetical story, because the 
hypothetical nation is committed to religious liberty and 
diversity, these arguments carry the day.
    Now, in response, those proposing the new law claim to hear 
and understand the concerns of kosher deli owners and offer 
them a new accommodation. You are free to call yourself a 
kosher deli. You are free not to place ham sandwiches on your 
menu. You are free not to be the person to prepare the sandwich 
and hand it over the counter to the customer. But we will force 
your meat supplier to set up a kiosk on your premises and 
offer, prepare and serve ham sandwiches to all your customers 
free of charge, and when you get your monthly bill from your 
meat supplier, it will include the cost of any of the free ham 
sandwiches your customers may have accepted, and you will be 
required to pay the bill.
    Now, some who supported the deli owners initially began to 
celebrate the fact that ham sandwiches didn't need to be on the 
menu and didn't need to be prepared or served by the deli 
itself. But on closer examination, they noticed three troubling 
things. First, all kosher delis will still be forced to pay for 
the ham sandwiches; second, many of the kosher delis' meat 
suppliers themselves are forbidden in conscience from offering, 
preparing or serving pork to anyone; and, third, there are many 
kosher delis that are their own meat supplier, so the mandate 
to prepare, offer and serve ham sandwiches still falls on them.
    Well, the story has a happy ending. The government 
recognized that it is absurd for someone to come into a kosher 
deli and demand a ham sandwich, that it is beyond absurd for 
that private demand to be backed up with the coercive power of 
the State, and downright surreal to apply this coercive power, 
when the government can get the same sandwich cheaply or even 
free just a few doors down.
    The question before the U.S. Government right now is 
whether the story of our own church institutions that serve the 
public and that are threatened by the HHS mandate will end 
happily, too. Will our Nation continue to be----
    Chairman Issa. Bishop Lori, could you wrap up? I will ask 
for 15 additional seconds.
    Bishop Lori. Thank you.
    Will our Nation continue to be one committed to religious 
liberty and diversity? We urge in the strongest possible terms 
that the answer must be yes. We urge you in the strongest 
possible terms to answer in the same way.
    Thank you for your attention.
    Chairman Issa. I thank you.
    [The prepared statement of Bishop Lori follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.028
    
    [GRAPHIC] [TIFF OMITTED] T3614.029
    
    [GRAPHIC] [TIFF OMITTED] T3614.030
    
    Chairman Issa. I will note for the record that witnesses 
swore or affirmed, depending upon their faith.
    With that, we go to Reverend Harrison.

          STATEMENT OF REVEREND DR. MATHEW C. HARRISON

    Rev. Harrison. Thank you, Mr. Chairman. It is a pleasure to 
be here.
    The Lutheran Church, Missouri Synod, is a body of some 
6,200 congregations and 2.3 million members across the United 
States. We don't distribute voters list. We don't have a 
Washington office. We are studiously nonpartisan, so much so 
that we are often criticized for being quietistic. I would 
rather not be here, frankly. Our task is to proclaim in the 
words of the blessed apostle St. John: ``The blood of Jesus 
Christ, God's son, cleanses us from all our sin.'' And we care 
for the needy.
    We haven't the slightest intent to Christianize the 
government. Martin Luther famously quipped one time, ``I would 
rather have a smart Turk than a stupid Christian governing 
me.''
    We confess there are two realms, the church and the state. 
They shouldn't be mixed. The church is governed by the word of 
God; the state by natural law and reason, the Constitution. We 
have 1,000 grade schools and high schools, 1,300 early 
childhood centers, 10 colleges and universities. We are a 
machine which produces good citizens for this country at a 
tremendous personal cost.
    We have the Nation's only Historic Black Lutheran College 
in Concordia-Selma. Many of our people were alive today and 
walked with Dr. King 50 years ago in the march from Selma to 
Montgomery. We put up the first million dollars and have 
continued to provide finance for the Nehemiah Project in New 
York as it has continued over the years to provide 
homeownership for thousands of families, many of them headed by 
single women. Our agency in New Orleans, Camp Restore, rebuilt 
over 4,000 homes after Katrina, through the blood, sweat and 
tears of our volunteers.
    Our Lutheran Malaria Initiative, barely begun, has touched 
the lives of 1.6 million people in East Africa, especially 
those affected by disease, women and children, and this is just 
the tip, the very tip, of the charitable iceberg.
    I am here to express our deepest distress over the HHS 
provisions. We are religiously opposed to supporting abortion-
causing drugs. That is in part why we maintain our own health 
plan. While we are grandfathered under the very narrow 
provisions of the HHS policy, we are deeply concerned that our 
consciences may soon be martyred by a few strokes on the 
keyboard as this administration moves us all into a single-
payer system. Our direct experience in the Hosanna-Tabor case 
with one of our congregations gives us no comfort that this 
administration will be concerned to guard our free-exercise 
rights.
    We self-insure 50,000 people. We do it well. Our workers 
make an average of $43,000 a year; 17,000 teachers make much 
less on average. Our health plan was preparing to take 
significant cost-saving measures to be passed on to our workers 
just as this health care legislation was passed. We elected not 
to make those changes, incur great costs, lest we fall out of 
the narrow provisions of the requirement required for the 
grandfather clause.
    While we are opposed in principle not to all forms of birth 
control, but only abortion-causing drugs, we stand with our 
friends in the Catholic Church and all others, Christian or 
non-Christian, under the free exercise and conscience 
provisions of the U.S. Constitution. Religious people determine 
what violates their consciences, not the Federal Government.
    The conscience is a sacred thing. Our church exists because 
overzealous governments in northern Europe made decisions which 
trampled the religious convictions of our forebears. I have 
ancestors who served in the Revolutionary War. I have ancestors 
who were on the Lewis and Clark Expedition. I have ancestors 
who served in the War of 1812, who fought for the North in the 
Civil War. My 88-year-old father-in-law has recounted to me in 
tears many times the horrors of the Battle of the Bulge. In 
fact, Bud Day, the most highly decorated veteran alive, is a 
member of the Lutheran Church, Missouri Synod. We fought for a 
free conscience in this country, and we won't give it up 
without a fight.
    To paraphrase Martin Luther, the heart and conscience has 
room only for God, not for God and the Federal Government. The 
bed is too narrow; the blanket is too short. We must obey God 
rather than men, and we will. Please get the Federal 
Government, Mr. Chairman, out of our consciences. Thank you.
    Chairman Issa. Thank you.
    [The prepared statement of Rev. Harrison follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.031
    
    [GRAPHIC] [TIFF OMITTED] T3614.032
    
    Chairman Issa. We now go to Dr. Mitchell.
    Before you begin, pursuant to the tradition of this 
committee, I ask unanimous consent that Mr. Mulvaney and other 
Members who may join us not of this committee be allowed to sit 
on the dais, and, if time permits, ask questions after all 
members of the committee have asked. Without objection, so 
ordered.
    Dr. Mitchell.

                  STATEMENT OF C. BEN MITCHELL

    Mr. C. Ben Mitchell. Good morning, Mr. Chairman and members 
of the committee. As the chairman said, I am C. Ben Mitchell, 
Graves Professor of Moral Philosophy at Union University, a 
Christian liberal arts university in Jackson, TN. I am also an 
ordained minister in the Southern Baptist Convention and serve 
as a consultant on biomedical and life issues for the Ethics 
and Religious Liberty Commission of the Southern Baptist 
Convention.
    I am both honored and humbled to testify in support of the 
protection of religious freedom and liberty of conscience. I am 
honored because I have the opportunity and privilege of 
following in the legacy of my Baptist forebears, who were such 
stalwart defenders of religious freedom, and I am humbled 
because many of those forebears suffered and died so that you 
and I could live in a Nation with religious freedom from State 
coercion.
    I stand in the rich legacy of individuals like Roger 
Williams, a one-time Baptist and founder of Providence 
Plantation, which became the State of Rhode Island, who 
declared in no uncertain terms that the violation of a person's 
religious conscience was nothing less than the rape of the 
soul. Williams understood that forcing a person through the 
power of the State to violate his or her own conscience is a 
monstrous harm.
    Moreover, every American is a legatee of the freedoms 
secured in our Constitution partly through the influence of the 
Reverend John Leland, who was a Baptist minister in 
Massachusetts and Virginia, and who became a friend of James 
Madison, Thomas Jefferson and other American Founders. It was 
Leland who helped frame the free exercise clause of our First 
Amendment.
    In a sermon Leland preached in 1791, he proclaimed, Every 
man must give an account of himself to God, and therefore every 
man ought to be at liberty to serve God in a way that he can 
best reconcile to his conscience. If government can answer in 
religious matters for individuals on the day of judgment, then 
let men be controlled by government. Otherwise, let men be 
free. He continued, Religion is a matter between God and 
individuals, religious opinions of men not being the objects of 
civil government nor any way under its control.
    And finally, I must appeal to a 20th century colorful Texas 
Baptist minister, George W. Truitt, pastor of the historic 
First Baptist Church of Dallas. In a sermon preached from the 
steps of the U.S. Capitol on May 16, 1920, Reverend Truitt 
recounted a discussion at a London dinner between an American 
statesman, Dr. J.L. Curry, and a Member of the British House of 
Commons, John Bright. Mr. Bright asked Dr. Curry, ``What 
distinct contribution has your America made to the science of 
government?'' Curry responded immediately, ``The doctrine of 
religious liberty.'' After a moment's reflection, Mr. Bright 
offered a reply, It is a tremendous contribution.
    I have two reasons for citing these historical examples. On 
the one hand, it is to remind us that what American University 
law professor Daniel Dreisbach and his coeditor Mark David Hall 
have called the sacred rights of conscience which we Americans 
enjoy were secured at an extraordinary cost. Our forebears were 
beaten, imprisoned, and some died for the cause of religious 
freedom from State coercion. On the other hand, it is to remind 
us that, as Truitt said later in his sermon at the Capitol, 
religious liberty was at least largely a Baptist achievement, 
and I would add, for the common good.
    Every American is a beneficiary of this legacy. We are all 
freeloading on their sacrifice. That is why I am here to decry 
the contraception, abortifacient and sterilization mandate 
issued by the Department of Health and Human Services on 
January 20, 2012. The policy is an unconscionable intrusion by 
the State into the consciences of American citizens.
    And contrary to portrayals in some of the popular media, 
this is not just a Catholic issue. All people of faith, and 
even those who claim no faith, have a stake in whether or not 
the government can violate the consciences of its citizenry.
    Religious liberty and the freedom to obey's one's 
conscience is also not just a Baptist issue; it is an American 
issue, enshrined in our founding documents. The Obama 
administration's most recent so-called accommodation for 
religious organizations is no accommodation at all. It is a 
bait-and-switch scheme, in my view, of the most egregious sort.
    Thank you for this opportunity.
    Chairman Issa. Thank you, Dr. Mitchell.
    [The prepared statement of Mr. C. Ben Mitchell follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.033
    
    [GRAPHIC] [TIFF OMITTED] T3614.034
    
    Chairman Issa. Rabbi, if you are going to do anything on 
Catholic rules, just do it as well as Bishop Lori did.
    Rabbi Soloveichik. No, I will stay out of that, thank you. 
I am also very concerned about the pork being produced here in 
Washington actually.
    Chairman Issa. You know, we all say we are concerned, but 
when it comes time to actually not serve it, it seems like it 
comes out.
    The gentleman is recognized.

              STATEMENT OF RABBI MEIR SOLOVEICHIK

    Rabbi Soloveichik. Thank you, Chairman Issa, members of the 
committee.
    In August of 1790, Moses Seixas, a leading member of the 
Hebrew Congregation of Newport, RI, composed a letter to then-
President George Washington, who was visiting Newport. In his 
letter Seixas gave voice to his people's love of America and 
its liberties. ``Deprived as we heretofore have been of the 
invaluable rise of free citizens,'' wrote Seixas, we now, with 
a deep sense of gratitude to the Almighty behold a government 
which to bigotry gives no sanction, to persecution no 
assistance.''
    Washington responded with sentiments that Jews hold dear to 
this day. ``The citizens of the United States of America have a 
right to applaud themselves,'' wrote Washington, ``for giving 
to mankind a policy worthy of imitation. All possess alike 
liberty of conscience and immunities of citizenship.''
    On Friday, in an op-ed in the Wall Street Journal, I joined 
Catholic and Protestant leaders in protesting a violation of 
religious freedom stemming from the Department of Health and 
Human Services new directive obligating religious organizations 
employing or serving members of other faiths to facilitate acts 
that those religious organizations consider violations of their 
religious tradition. Later that same day the administration 
announced what it called an accommodation. Not religious 
organizations, but rather insurance companies would be the ones 
paying for the prescriptions and procedures that a faith 
community may find violative of its religious tenets.
    This punitive accommodation is, however, no accommodation 
at all. The religious organizations would still be obligated to 
provide employees with an insurance policy that facilitates 
acts violating the organization's religious tenets. Although 
the religious leaders of the American Catholic community 
communicated this on Friday evening, the administration has 
refused to change its position, thereby insisting that a faith 
community must either violate a tenet of its faith or be 
penalized.
    What I wish to focus on this morning in my very brief 
remarks is the exemption to the new insurance policy 
requirements that the administration did carve out from the 
outset; to wit, exempting from the new insurance policy 
applications religious organizations that do not employ or 
serve members of other faiths. From this exemption carved out 
by the administration at least two important corollaries 
follow. First, by carving out an exemption, however narrow, the 
administration implicitly acknowledges that forcing employers 
to purchase these insurance policies may involve a violation of 
religious freedom. Second, the administration implicitly 
assumed that those who employ or help others of a different 
religion are no longer acting in a religious capacity and as 
such are not entitled to the protection of the First Amendment.
    This betrays a complete misunderstanding of the nature of 
religion. For Orthodox Jews, religion and tradition govern not 
only praying in a synagogue, or studying Torah in a Beit 
Midrash, or wrapping oneself in the blatant trappings of 
religious observance such as phylacteries. Religion and 
tradition also inform our conduct in the less obvious 
manifestations of religious belief, from feeding the hungry, to 
assessing medical ethics, to a million and one things in 
between.
    Maimonides, one of Judaism's greatest Talmudic scholars and 
philosophers, and also a physician of considerable repute, 
stresses in his Code of Jewish Law that the commandment to love 
the Lord your God with all your heart is achieved not through 
cerebral contemplation only, but also requires study of the 
sciences and engagement in the natural world as this inspires 
true appreciation of the wisdom of the Almighty.
    In refusing to extend religious liberty beyond the 
parameters of what the administration chooses to deem religious 
conduct, the administration denies people of faith the ability 
to define their religious activity. Therefore, not only does 
the new regulation threaten religious liberty in the narrow 
sense in requiring Catholic and other Christian communities to 
violate their religious tenets, also the administration impedes 
religious liberty by unilaterally redefining what it means to 
be religious.
    Washington concluded his missive to the Hebrew Congregation 
of Newport by saying, ``May the children of the stock of 
Abraham who dwell in this land continue to merit and enjoy the 
goodwill of the other inhabitants, while every one shall sit in 
safety under his own vine and fig tree and there shall be none 
to make him afraid.''
    Benefiting from two centuries of First Amendment 
protections in the United States, the Jewish ``children of the 
stock of Abraham'' must speak up when the liberties of 
conscience afforded their fellow Americans are threatened and 
when the definition of religion itself is being redefined by 
bureaucratic fiat. Thank you for the opportunity to do so this 
morning.
    Chairman Issa. Thank you, Rabbi.
    [The prepared statement of Rabbi Soloveichik follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.035
    
    [GRAPHIC] [TIFF OMITTED] T3614.036
    
    [GRAPHIC] [TIFF OMITTED] T3614.037
    
    [GRAPHIC] [TIFF OMITTED] T3614.038
    
    Chairman Issa. And now the second Dr. Mitchell is 
recognized for 5 minutes.

                  STATEMENT OF CRAIG MITCHELL

    Mr. Craig Mitchell. I have come to you today to express my 
concerns not as a religious leader, but as an American. My 
father served for 20 years in the----
    Chairman Issa. Dr. Mitchell, you have a great voice, but I 
think your mic isn't on.
    Mr. Craig Mitchell. Okay.
    Chairman Issa. You were doing well without it, but not for 
the folks that have to record. Thank you.
    Mr. Craig Mitchell. I come to you today to express my 
concerns not an a religious leader, but as an American. My 
father served for 20 years in the U.S. Air Force. My stepfather 
served for 20 years in the U.S. Air Force also. I served for 12 
years as an Air Force officer and obtained the rank of major in 
the Reserves. I swore my brother in when he became an Active 
Duty second lieutenant. So with all this, I have a very strong 
view of what it means to be an American.
    I do not object to this mandate upon health care only 
because it is not consistent with my faith. No, I object to 
this mandate because it is not good for America. To be an 
American means that we stand for the Constitution of the United 
States. The more that we find out about this health care bill, 
the more we find out that our Constitution has been violated.
    I and many others swore to defend this Constitution against 
all enemies, foreign and domestic, yet our elected officials 
have created this health care nightmare that requires every 
citizen to buy medical insurance, whether they want it or not. 
It is as if the commerce clause did not even exist.
    To be an American means that we stand for religious 
freedom. This mandate is contrary to everything that I and 
every other person who wore the uniform stands for regardless 
of what their faith was. This is true of people who have no 
faith. It is inconceivable to me and many others that such a 
bald-faced attempt to step on the Constitution of this great 
country was even proposed. It is for this reason that I 
traveled here today to make my objections known.
    I am a Southern Baptist minister and a professor of 
Christian ethics. As such, I know the Baptists have stood at 
the forefront of religious liberty. This goes all the way to 
Isaac Backus, Hezekiah Smith and others who pushed for the 
freedom of religion.
    When Thomas Jefferson talked about a wall of separation 
between church and state, he was opposing persecution of people 
for their beliefs, but that is exactly what this mandate does. 
This mandate in the name of health care seems designed to 
offend those who have religiously informed moral sensibilities.
    Simply put, this mandate forces people to violate their 
consciences. A government that will force its citizens to 
violate their consciences has overstepped a critical boundary. 
If the purpose of government is to serve its people, then this 
rule is wrong. The arguments used to defend this mandate are no 
different from the old argument that says we had to destroy the 
village in order to save it.
    It is the church that was responsible for the creation of 
hospitals. The church is also responsible for much of the 
development of health care. With this kind of history, it is 
ironic that religious organizations should have their rights 
crushed in the name of health care. If this is allowed to 
stand, then there is nothing that the U.S. Government cannot 
compel its citizens to do.
    Explain to me how all of this is consistent with the 
American ideal. On Friday, the President made some changes to 
the mandate by having insurance companies pay for 
contraceptives and abortions. As an economist, I know that a 
tax liability on either the buyer or seller of a good will 
still be felt by the other. Consequently, the requirement for 
insurance companies to pay for this mandate will still be paid 
by their customers. In other words, this solution does not in 
any significant way dodge the religious liberty problems 
associated with this mandate because those in religious 
institutions will still have to foot at least part of the bill. 
As such, my religious freedoms are still being violated. If the 
President is allowed to have his way, I and every other 
American will have no recourse to address this egregious act.
    As an economist, I also know that when the tax incidence is 
on the supplier, that the cost of the good or service 
increases. The President's health care bill was sold with the 
idea it would cut costs. We are finding thus far that it is 
becoming far more expensive than it was originally planned to 
be. This latest wrinkle only adds to the cost. In effect, it 
adds insult to injury, especially when you consider that most 
religious institutions are self-insured.
    In conclusion, this rule is wrong not just for religious 
conservatives, it is wrong for all Americans, because it takes 
away the freedom of the citizens while emboldening the Federal 
Government to do whatever it wants. It is wrong because it 
violates the Constitution. It is wrong because it violates 
religious liberty. It is wrong because it forces people to 
violate their consciences. It is wrong because it is more 
expensive. This ruling is just plain wrong for America.
    Chairman Issa. I thank the gentleman.
    [The prepared statement of Mr. Craig Mitchell follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.039
    
    [GRAPHIC] [TIFF OMITTED] T3614.040
    
    Chairman Issa. I will note that we are now joined by the 
gentlelady from the Third District of Connecticut, Ms. DeLauro, 
who also will be allowed to ask questions after all others.
    I will note for the record that I don't expect that to be 
able to happen on the first panel, but we will certainly, at a 
minimum, make it available on the second panel.
    Thank you. Pleasure having you.
    I now recognize myself for 5 minutes for a round of 
questioning.
    Both in a letter I received yesterday and in his opening 
statement, the ranking member read or paraphrased the following 
paragraph: ``As the son of two ministers from a small church in 
Baltimore, I completely understand the position of the faith-
based community on this issue. I know both through my faith and 
my legal training that we have an obligation as a Nation to 
make accommodations''--I will now pause. He goes on to say, 
``where appropriate, to avoid undue interference with the 
practice of religion in this country.''
    For each of you, if I simply strike from this paragraph 
``where appropriate,'' obviously determined by the government, 
and ``undue,'' obviously determined by the government, and I 
read, ``to make accommodations to avoid interference with the 
practice of religion in this country,'' is that paragraph and 
that statement consistent with each of your views?
    I see all yeses. So is it fair to say, then, that what we 
are debating here is government's decision that it can 
determine on behalf of people of faith and conscience the 
question of ``where appropriate'' and what is ``undue?''
    Seeing also yeses, if, in fact, this stands--would you put 
that poster up? Would you bring out the poster of our President 
John F. Kennedy?
    John F. Kennedy said, ``I would not look with favor upon a 
President working to subvert the First Amendment's guarantee of 
religious liberty.''
    For each of you, or any of you, do you believe that, in 
fact, we have a President's administration, not him personally, 
who is working to subvert the guarantees of religious liberty?
    Rabbi.
    Rabbi Soloveichik. Yes, absolutely, that is what the 
current policy does, in effect. What their motivation is, I 
can't speak for that, but there is no question that the current 
policy and intent announced by the Department of Health and 
Human Services does restrict and does effectively damage 
religious liberty in this country.
    Chairman Issa. Let me ask a question, because each of you 
has expressed either opposition to the rule on the merits of 
what it does or opposition because of how it affects future 
decisions of religious freedom. Let me go briefly into the 
question of the actual health items it affects.
    I was brought up to believe that government in this country 
is separate, clearly separate, from our faith and that often 
government does things which in our faith we object to, but 
that that is, in fact, the part of ``give Caesar his due'' that 
we all grew up being taught in one way or another.
    So, in fact, if government were to provide these services 
over our personal objections, if government were to take our 
tax money and fund that, something that we have a heated 
discussion about all the time, would you change your position, 
not from objecting to the particular funding, but to the 
question of whether or not it is, in fact, impinging on or 
infringing your liberty and your ability to teach your faith 
and to practice it?
    Yes, Bishop.
    Bishop Lori. Government already does supply those things 
with our tax dollars, but what we are objecting to is that 
government is now reaching into the internal governance of our 
religious bodies and requiring us, directly or indirectly, to 
use our own resources for it. Because there is no such thing as 
free.
    Chairman Issa. So, for all of you--and when you get to lead 
this off, it is sometimes easy and sometimes hard, but I want 
to set the stage, I think, for both sides.
    The fact is, today, what many of the members of the 
minority talked about--you know, women's rights, reproductive 
rights, safety, health--the fact is the government spends your 
tax dollars involuntarily in many cases to do things that are 
along these lines, either for the poor and indigent or for 
others, and although religiously you may object to it, you 
recognize that that is separate from telling you you must 
participate directly through your activities.
    Is that really what we are talking about here today?
    Mr. C. Ben Mitchell. Definitely.
    Chairman Issa. Reverend Harrison.
    Rev. Harrison. Precisely. And it has been said that Caesar 
must be given no less than what is Caesar's, but no more 
either. And you hit the nail right on the head. We participate 
by paying our taxes in every aspect of society. We participate 
communally, etc. But this provision is draconian, in that it 
invades the realm of our conscience, and it becomes impossible 
for us.
    Chairman Issa. Thank you.
    My time has expired, but, Dr. Mitchell, you may answer 
briefly.
    Mr. Craig Mitchell. Yeah, especially when you consider that 
most religious organizations are self-insured, we have our own 
insurance agencies. And forcing us to use our own money to do 
this? That is really getting into it.
    Chairman Issa. Rabbi, did you have anything to add?
    Rabbi Soloveichik. I think that is exactly right, Chairman 
Issa. And the President's spokesman recently, when speaking 
about this subject, said that what their concern is is that 
they don't want religious employers or organizations 
restricting access to specific prescriptions, etc. But, of 
course, those who have a religious objection are not seeking in 
America to restrict their access to it. What they are seeking 
is the freedom in their own right not to facilitate something 
that violates the tenets of their own faith.
    Chairman Issa. Thank you.
    The gentleman from--the ranking member is recognized for 5 
minutes.
    Mr. Cummings. Bishop Lori, I want to thank you--I want to 
thank all of you for being here. And let me say that I am very 
thankful for the service of your organization and other 
Catholic groups that provide so much help to the poorest among 
us. So I thank you.
    On today's topic, I would like to ask about all the other 
Catholic entities that praised the administration for their 
decision last week to allow them to operate consistently with 
their faith and the law, because people are becoming confused. 
Some still have questions such as how entities that self-insure 
will be treated, but they all commended the administration. 
Unlike you, they believe these remaining issues can be worked 
out.
    For example, the Catholic Health Association represents the 
largest group of nonprofit health care providers. They stated 
that they were, ``very pleased with the White House 
announcement that a resolution has been reached that protects 
the religious liberty and conscience rights of Catholic 
institutions.''
    Similarly, Catholic Charities USA, the largest private 
network of social service organizations in the United States, 
stated that it, ``welcomes the administration's attempt to meet 
the concerns of the religious community.''
    Catholics United is a nonprofit organization dedicated to 
promoting the Catholic social tradition. They called the White 
House plan, ``a win-win solution,'' and stated that, 
``President Obama has shown us that he is willing to rise above 
the partisan fray to deliver an actual policy solution that 
both meets the health care needs of all employees and respects 
the religious liberty of Catholic institutions.''
    And I know we can all differ in our opinions, but, Bishop 
Lori, do you disagree with all of these other Catholic leaders 
who believe the administration has struck the right balance?
    Bishop Lori. Well, thank you very much for the opportunity 
to comment on that.
    First of all, when the announcement was made last Friday, 
it came upon certainly the Bishops' Conference of a sudden. 
There was no prior consultation, it was not given to us in 
writing, and it was told to us not long before it was 
announced. When we first heard it ourselves, we wondered if 
there might not also be a glimmer of hope, but upon further 
analysis within that same day we immediately began to see 
problems.
    Catholic Health Association put out its own statement, for 
which it is responsible. Catholic Health Association does not 
speak for the Church as a whole. The Catholic Bishops speak for 
the Church as a whole. It is a lobbying group, it is a trade 
association, it is not the Catholic Church as such. And it is 
instructive that as time has passed on and there has been 
further opportunity for analysis, both at the level of morality 
and at the level of policy, there are questions that Catholic 
Health Association itself is now rightfully asking.
    Catholic Charities USA is in the same position. While it 
initially offered a positive statement, it would seem as time 
goes on it has also recognized that there are very serious 
problems at the level of principle and at the level of 
practicality, and they have issued a statement indicating their 
solidarity with the Bishops.
    I don't know much about Catholic United except it doesn't 
have any particular standing in the Church.
    Mr. Cummings. A few minutes ago, the chairman asked a 
question like--I think I got it right--did you all believe that 
the Obama administration was truly--do you really believe that 
it is trying to subvert religion?
    I think the rabbi did answer that. Did you answer that? Do 
you really believe that?
    Chairman Issa. Will the gentleman yield?
    Mr. Cummings. Yes.
    Rabbi Soloveichik. The word ``subvert''----
    Mr. Cummings. Well, why don't you correct me? Tell me what 
you asked. You held up the sign. Just tell me what you asked. I 
just want to ask the question that you asked. I am asking him 
specifically.
    Chairman Issa. We will ask unanimous consent for an 
additional 1 minute.
    Mr. Cummings. I am not--I said very clearly--I wasn't 
trying to confuse anybody. The rabbi answered the question.
    Do you remember, Rabbi? What was the question?
    Chairman Issa. Just for the record, Rabbi, I said that 
President John F. Kennedy said, ``I would not look with favor 
upon a President working to subvert the First Amendment's 
guarantee of religious liberty.'' And then I asked all about 
John F. Kennedy's statement. And the gentleman was closer to 
right than I remembered.
    Mr. Cummings. Okay.
    Rabbi Soloveichik. If I could just speak to that for one 
moment, and I just--I did not say, Congressman Cummings, that 
the President or the administration is trying to subvert 
religious freedom. What I said was that the policy, in effect, 
damages religious freedom. I made no statement at all about 
what they are intending to do. That is not--I am not saying 
anything about that.
    Mr. Cummings. And what about you, Rabbi? I mean, do you 
really believe that?
    Bishop Lori. You mean myself, Congressman?
    Mr. Cummings. Yeah, you. Yes, sir.
    Bishop Lori. I believe there are serious challenges, not 
just with the HHS rule, but also we saw serious challenges with 
Hosanna-Tabor and we saw serious challenges in an attempt by 
HHS to deny contracts to Migration and Refugee Services and 
Catholic Relief Services because those organizations, in 
fidelity to the Church, would not provide the so-called full 
range of reproductive services.
    We have an ad hoc committee on religious liberty that is 
part of the Bishop' Conference because we have massive concerns 
about religious liberty at the State and Federal level--massive 
concerns.
    Mr. Cummings. If I remember, we had a hearing on that, on 
these contracts that you just talked about, and it showed 
that--in the hearing, it came out that the Catholic Church--I 
guess I am saying this right--received millions upon millions 
of dollars in all kinds of contracts. You are familiar with 
that, right?
    Bishop Lori. Mr. Congressman, we don't get a handout.
    Mr. Cummings. I never said that.
    Bishop Lori. We contract for services, and we deliver, and 
we bring to those services some moral convictions. And we 
shouldn't be at a disadvantage because we bring some moral 
convictions to the table. We also bring the generosity of the 
Catholic people and we bring volunteers. When you contract with 
the Church, you get a bang for your buck.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Issa. Thank you.
    We now recognize the gentleman from North Carolina, Mr. 
McHenry, for 5 minutes.
    Mr. McHenry. I thank you, Mr. Chairman.
    This is a very simple and broad question for the whole 
panel. It is a very simple question. Is this ruling by HHS--do 
you view this as an issue of contraception and abortifacients 
or an issue of religious freedom and conscience protections?
    Bishop Lori? And we will certainly go down the row.
    Bishop Lori. We view it as an issue of religious liberty. 
We view it first of all and primarily at the level of 
principle. It is a question of government reaching in to the 
internal governance of religious bodies and making a 
requirement contrary to church teaching.
    Mr. McHenry. Thank you, sir.
    Reverend Harrison.
    Rev. Harrison. Yes, we view it completely as a matter of 
religious freedom. We have never gone on record opposing all 
forms of birth control. We have only gone on record saying that 
we have moral objections to abortifacients, abortion-causing 
medications.
    So we are deeply concerned that this is a conscience issue. 
If we are forced in situations at our universities and other 
institutions to act in ways fundamentally contrary to our 
religious convictions, it has a disparaging effect on our 
institutions. It denudes us of the very faith that has driven 
us into those situations where we care for people in need.
    Mr. McHenry. Thank you.
    Dr. Mitchell.
    Mr. C. Ben Mitchell. It is completely a religious-liberty 
issue for us, a freedom-of-conscience issue for us. There is an 
erosion of trust, I must say, among Baptists, or many Baptists, 
and the administration. And as we now are sort of experiencing 
the warm winds of an Arab Spring in the Middle East, we worry 
seriously--it is a solemn issue for us--we worry seriously that 
we may be entering thefirst chilling days of our winter of 
discontent.
    Mr. McHenry. Rabbi.
    Rabbi Soloveichik. Yes, Congressman, this is absolutely an 
issue of religious freedom and only of religious freedom.
    If there are members of this committee or of Congress or of 
the executive branch who are concerned about access to 
contraception, they can seek through legislation or otherwise 
to ensure greater access to that. That can be debated in 
Congress, the Members of Congress can vote on that, etc. And 
they are absolutely entitled and able to do that as Members of 
Congress under the powers granted to them by the Constitution.
    What they cannot do--and that is why we are here today--is 
to achieve this end by trampling on the religious freedoms and 
the liberty of conscience of Americans. And they can't do that 
because that would be a violation of the Constitution that both 
Members of Congress and of the executive branch have sworn to 
uphold and protect.
    Mr. McHenry. Thank you, sir.
    Dr. Mitchell.
    Mr. Craig Mitchell. Yes, this is clearly an issue of 
religious liberty, and it is one that I couldn't have imagined 
coming. And I think to see it as anything else is to completely 
miss the real importance of this issue. And so that is why I am 
here.
    Mr. McHenry. Thank you.
    Thank you for answering that question. A lot of folks, when 
I pose this as a question of access to contraception, it is a 
deeper question of conscience protection and compelling an 
individual not simply to not do something, but compelling an 
individual to purchase something which they find morally 
objectionable and using the force of the State to compel them 
to do that.
    There is an additional question. You know, there is a 
distinction within this rule about whether or not you are a 
religious institution primarily, serving people only of your 
faith, or are you open to others.
    So, Bishop Lori, there is a significant amount that the 
Catholic Church does not just in Washington, DC, or Connecticut 
but across the country, so why does--does the Catholic Church 
only serve Catholics?
    Bishop Lori. No, it does not. It is----
    Mr. McHenry. Why?
    Bishop Lori. We serve----
    Mr. McHenry. And with all due respect. I am Catholic, and 
for me to----
    Bishop Lori. Oh, no.
    Mr. McHenry [continuing]. Speak to a bishop like this is a 
little bit of a challenge.
    Chairman Issa. It is your immortal soul you are risking.
    Bishop Lori. Well----
    Rev. Harrison. There is room over here.
    Mr. McHenry. Thank you, Reverend.
    Bishop Lori. You know, it all started when the Lord said, 
``Go and baptise all nations,'' and that kind of put us on a 
course of being out there. We serve people of all faiths and 
none, not because they are Catholic but because we are Catholic 
and because our faith prompts us to do it. It flows from what 
we believe, how we worship, and how we are to live. And so, we 
regard, for example, our Catholic Charities as really an 
outgrowth of our discipleship of the Lord and our communion 
with another in the Lord, not a side business.
    Mr. McHenry. Thank you.
    And thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    I might note, just to be ecumenical, that Beth Israel 
provides Sunday food for Father Joe Carroll's food bank in San 
Diego, just to make sure that all days are covered.
    With that, we recognize the former chairman of the full 
committee, Mr. Towns, for 5 minutes.
    Mr. Towns. Thank you very much, Mr. Chairman.
    I would like to ask unanimous consent that I be allowed to 
submit testimony from the National Health Law Program for the 
record.
    Chairman Issa. I am reserving--you said testimony. Is it a 
written statement?
    Mr. Towns. It is a written statement, yes.
    Chairman Issa. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.041
    
    [GRAPHIC] [TIFF OMITTED] T3614.042
    
    [GRAPHIC] [TIFF OMITTED] T3614.043
    
    [GRAPHIC] [TIFF OMITTED] T3614.044
    
    [GRAPHIC] [TIFF OMITTED] T3614.045
    
    [GRAPHIC] [TIFF OMITTED] T3614.046
    
    [GRAPHIC] [TIFF OMITTED] T3614.047
    
    [GRAPHIC] [TIFF OMITTED] T3614.048
    
    [GRAPHIC] [TIFF OMITTED] T3614.049
    
    [GRAPHIC] [TIFF OMITTED] T3614.050
    
    [GRAPHIC] [TIFF OMITTED] T3614.051
    
    [GRAPHIC] [TIFF OMITTED] T3614.052
    
    Mr. Towns. Let me begin by--and, first of all, you know, I 
must say that I am concerned--and I know it has been expressed 
earlier--that we have before us five distinguished men but no 
women. And I must admit that, being an ordained minister 
myself, I must say that even in spite of all of that, I am a 
little nervous over the fact that we have five men and no 
women. It sure would have been nice to at least have that kind 
of dialog, because I really think that that is very, very 
important.
    And with that on the record, let me just move forward by 
saying, it is my understanding--I guess, Bishop Lori, I will go 
to you--that Georgetown University, a very prestigious 
university here in our city, offers health insurance that 
covers contraception for its faculty but not for its students. 
Is that correct?
    Bishop Lori. I am not familiar with the insurance plan of 
Georgetown University.
    Mr. Towns. Well, let me ask you, if that is the case, do 
you believe Georgetown students should be offered the same 
health insurance benefit as the faculty? Do you believe that 
should happen?
    Bishop Lori. Again, I don't think I would be qualified to 
answer specifics about what kind of coverage provided to 
students and faculty.
    Mr. Towns. Well, let's deal with generalities then.
    Bishop Lori. All right.
    Chairman Issa. Would the gentleman yield?
    Mr. Towns. I would be delighted to yield to the chair.
    Chairman Issa. Just briefly, we will have representatives 
of Catholic University, Abbey College, Baptist University, and 
Oklahoma Christian. So I think these are great questions, but 
we will get it answered for you on the second panel.
    Mr. Towns. Well, you know, I think what I am trying to do, 
before the Bishop departs, I am trying to understand exactly 
what problems the Bishops have with the administration's 
policy. That is what I am really trying to understand. It is 
not clear to me.
    Bishop Lori. Yes, well, the problems are at the level of 
principle and at the level of practicality.
    The principle is the government's reaching in and forcing 
us to do something. We might disagree inside of the Church, we 
might have our problems inside of the Church, but it is not for 
the government to weigh in and be the arbiter of those things.
    And, second, many church entities, such as the Diocese of 
Bridgeport, which I can certainly speak about, they are self-
insured. And so, as a result, I am not only the employer but 
also the insurer. And so, certainly at the level of 
practicality, the new rule does nothing to help.
    And also there are many--there are religious insurers. 
There are individuals who have conscientious objections, and 
the rules do nothing for them.
    So we have problems on all of those levels.
    Mr. Towns. Right. Well, let me ask you this then. What if a 
Catholic entity decides that it wants to obtain insurance for 
its employees from outside that covers contraceptives? Does 
that violate Catholic doctrine?
    Bishop Lori. So, if you--your question is, if a Catholic 
entity wishes or goes ahead and purchases coverage for 
contraception or an abortifacient?
    Mr. Cummings. Yes.
    Bishop Lori. We would say it does, yes.
    Mr. Towns. Anyone else, does it violate your doctrine? Very 
quickly because I am running out of time.
    Rev. Harrison. More specifically, only in the case of those 
drugs which specifically cause abortion.
    Mr. C. Ben Mitchell. And within the Southern Baptist 
Convention, we have a resolutions process in our denomination 
that, time after time after time, has passed resolutions 
against any abortifacient drugs.
    Rabbi Soloveichik. My concern here, Congressman, is not 
what one particular Jewish organization might say about a 
particular prescription or procedure or whether their tenets 
are violated when they are forced to provide that. My concern 
is when Congress or the administration comes in and says, 
``Well, I see that there are some members of one faith who say 
this, some members of faith who say this, so we are going to 
unilaterally side with these people and force everyone, even 
over their objections, to violate their conscience.''
    In general, a religious community and a religious 
organization should be free to define what the tenets of their 
faith are, and they should be listened to when they are told 
that a particular demand or mandate by the Federal Government 
violates those liberties.
    Rev. Harrison. Mr. Chairman, I would like to say ``amen'' 
to the rabbi because I have never had the chance to do that 
before.
    Chairman Issa. The gentleman's time has expired.
    Mr. Towns. Could I give Dr. Mitchell just one----
    Chairman Issa. Of course. The gentleman can answer if he 
would like.
    Mr. Craig Mitchell. Yes, the Southern Baptist Convention, 
there is no one statement that speaks for all of us, but I 
think if you were to poll all the professors at our Southern 
Baptist seminaries, what you would find is that we stand 
solidly against abortion and we believe that it is contrary to 
Christian faith and practice.
    Mr. Towns. You know, the reason I asked this question, 
being an ordained minister myself, you know, I still feel that 
the woman's right to choose is something that we should just 
not ignore. And, of course, as I indicated early on, you know, 
it sure would be nice and make me feel a lot more comfortable 
if we had a couple of females on this panel.
    I yield back, Mr. Chairman.
    Chairman Issa. I thank the gentleman for yielding back.
    I might note that the Reverend Barry Lynn was not a female, 
and that was who you requested that would have been on this 
panel.
    With that, we go to the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And I would yield for 
such time as needed.
    Chairman Issa. Thank you.
    I just want to be very brief. Gandhi said, ``In matters of 
conscience, the law of the majority has no place.'' Rabbi, in 
this case, where you have no faith-specific objections to what 
is in HHS, isn't that essentially why you are here, that all of 
us, as minorities, must stand together to say, there but for us 
goes someone else the next time?
    Rabbi Soloveichik. Well, the concern of the Founding 
Fathers was not only the democratic rights of the majority to 
engage in self-governance; their major concern in constructing 
the Constitution was the rights of minority, what they called 
other factions or groups, in this country.
    And when I see the religious leaders of one pretty large 
religious community in this country say that this government 
mandate will force us--or is seeking to force us to violate a 
tenet of our faith, and to see then the administration say, 
``Well, that's too bad,'' then smaller denominations or faiths 
in this country begin to wonder, well, not only is this an 
outrageous violation of one particular faith's religious 
freedom, it is quite frightening to all of us who care about 
our own religious freedom.
    Chairman Issa. Thank you.
    I thank the gentleman for yielding.
    Mr. Walberg. Thank you, Mr. Chairman.
    And I thank the panel for being here today. Thank you for 
your voice that you have stated very clearly.
    In the Declaration of Independence, it refers to 
``unalienable rights.'' How do you understand ``unalienable 
rights?'' What is the meaning to you?
    Please.
    Bishop Lori. Thank you.
    ``Unalienable'' means that they are inherent in the human 
person, and they are inherent in the human person because they 
have been put there by the Creator, and that they are, as John 
F. Kennedy said in his inaugural, they are not given by the 
generosity of the State but by the hand of God.
    Mr. Walberg. I assume all the rest of you would agree to 
that?
    Let me ask a followup question. Should your parishioners, 
speaking especially of those of you, Bishop Lori, as well as 
Reverend Harrison, should your parishioners who are body shop 
owners or lawyers, whatever, have First Amendment rights of 
conscience?
    Bishop Lori. They most definitely should----
    Mr. Walberg. Regardless of being an institution or not.
    Bishop Lori. Yes. Institutional rights rest on the 
foundation of individual rights. And it is clearly the teaching 
of the church in its declaration on religious liberty that we 
begin, really, with individual rights. And so it ought to be 
possible in this country, if one wishes, to have a business, 
let's say, run on Christian principles, where people agree to 
work in such a business and where insurers and employers and 
employees all come together and agree how that is all going to 
work.
    Mr. Walberg. Reverend Harrison.
    Rev. Harrison. I agree completely.
    It is surreal, this whole conversation is utterly surreal. 
If the Supreme Court can uphold the rights of a tiny sect to 
use a hallucinogenic drug in its religious rights, how is it 
that our fundamental rights of conscience over long-established 
moral principle, virtually unchanging in the history of 
Christianity, is somehow dismantled?
    And I find it totally offensive that we are subject to 
accommodations and grandfather clauses. You can't accommodate 
and you can't grandfather-clause the First Amendment. It is our 
right.
    Mr. Walberg. Martin Luther would express appreciation for 
your intensity of position on that.
    In recent weeks, I have had the dubious privilege of 
sitting in hearings where I have heard the Constitution being 
attacked, being denigrated. When I have heard people at that 
table speak about ``constitutional niceties'' not dealing with 
the real world of today, when I have heard a Justice of the 
Supreme Court refer to the fact that new-forming-constitution 
nations ought to look away from our Constitution and ought to 
look to some other constitutions, it is unbelievable. And then 
we come to this time, when, in fact, constitutional liberties 
are being stepped upon, trounced upon, not only for 
institutions but for individuals, as you very clearly stated, 
in the area of religion and conscience.
    I am a minister. I was formerly a pastor. I am glad to see 
you gentlemen here. I would encourage you, with great respect, 
to speak with clarity, to call for your congregations to 
understand the power of freedom and liberty. And as Jonathan 
Witherspoon, who happened to be a Member of Congress and a 
signer of the Declaration of Independence and a signer of the 
Constitution, stated very clearly: ``A republic once equally 
poised must either preserve its virtue or lose its liberty.'' 
And John Adams followed, saying that, ``Liberty once lost is 
liberty lost forever.''
    And let me finish my one statement, and I would ask for----
    Chairman Issa. The gentleman can have an additional 15 
seconds.
    Mr. Walberg. Thank you----
    Chairman Issa. Only.
    Mr. Walberg [continuing]. Mr. Chairman.
    I don't normally quote from Joseph Stalin, but today he 
said something appropriate about liberty. He said, ``America is 
like a healthy body, and its resistance is threefold: its 
patriotism, its morality, its spiritual life. If we can 
undermine these three areas, America will collapse from 
within.''
    I would encourage the Church, I would encourage Congress, I 
would encourage our administration to fight back strongly 
against what Stalin understood and against what his principles, 
if he would have carried them out, would have accomplished 
through these--
    Chairman Issa. The gentleman's time has expired.
    Mr. Walberg. Thank you.
    Chairman Issa. I presume the gentleman brought Stalin up 
only to put him down.
    Mr. Walberg. Absolutely. And I think I brought him up--
    Chairman Issa. I thank the gentleman.
    We now recognize the gentleman from Illinois, Mr. Quigley, 
for 5 minutes.
    Mr. Quigley. Thank you, Mr. Chairman.
    Yeah, I was waiting for the picture of Stalin to appear 
before us.
    But one of the things I enjoy about this place is that we 
quote Reagan to counter your arguments and you sometimes quote 
Kennedy to counter ours. So I did find the--
    Chairman Issa. I have Martin Luther King ready, too.
    Mr. Quigley. I know, I am sure.
    What we did was we found the actual speech that President 
Kennedy as a candidate gave before the Greater Houston 
Ministerial Association, September 12, 1960. He said, ``Because 
I am Catholic and no Catholic has ever been elected President, 
the real issues in this campaign have been obscured, perhaps 
deliberately.'' Comes to mind what is happening today. ``I 
believe in an America that is officially neither Catholic, 
Protestant, nor Jewish, where no pubic official either requests 
or accepts instructions on public policy from the Pope, the 
National Council of Churches, or any ecclesiastical source.''
    He also says, ``I do not speak for my church on public 
matters, and the church does not speak for me. Whatever issue 
may come before me as President, on birth control, divorce, 
censorship, gambling, or any other subject, I will make my 
decision in accordance with these views and in accordance with 
what my conscience tells me to be the national interest and 
without regard to outside religious pressures or dictates. And 
no power or threat of punishment could cause me to decide 
otherwise.'' Just to give the full context of that.
    And I would ask, without objection, if this transcript 
could be included in the record?
    Chairman Issa. Without objection, so ordered. I am pleased.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.053
    
    [GRAPHIC] [TIFF OMITTED] T3614.054
    
    [GRAPHIC] [TIFF OMITTED] T3614.055
    
    Chairman Issa. Would the gentleman yield, briefly?
    Mr. Quigley. Sure.
    Chairman Issa. Thank you. I couldn't agree with you more 
that we need to put it all into context of what government 
might consider at government expense.
    I thank the gentleman for yielding.
    Mr. Quigley. Thank you, Mr. Chairman.
    Bishop--and I ask these questions, as I recognize Members 
on the other side were concerned, with the greatest respect, 
but it helps us understand how far this can go. Because, for 
me, the question sometimes comes to, where does the conscience 
decision lie? Does it lie with a group of men, as the panel 
today or the Council of Bishops? I mean, who does it lie with? 
Does it lie with the individual woman to make those decisions?
    And, also, do you support this same policy that you have as 
it relates to the private sector? In other words, do you think 
that a fast-food restaurant person can, because of his moral 
objection, say to his employees, ``I am not going to provide 
birth control, as well,'' or a larger corporation?
    Bishop Lori. You know, if there is real religious liberty 
in our country, then churches, even if there is disagreement 
within those churches, have the God-given right to run their 
own institutions and their own internal affairs according to 
their teachings. And if there should be discussion within that 
church or even dissent within that church, it is not for the 
government to reach in and to decide or to weigh in on one side 
or the other.
    The fact of the matter is that a lot of people like to work 
for the Catholic Church--that is the one I can speak for--
because they like to work for mission. They understand that 
when they sign up to work for a diocese or a Catholic school or 
for Catholic Charities what the teaching is. We have an 
organized magisterium with the Pope and the bishops, and that 
sometimes people agree with it, sometimes they don't, but they 
love the mission and they come and work. We have no trouble 
retaining and attracting people to work for us.
    We provide great health-care plans. But, you know, under 
these rules, we might have the best health-care plan in the 
world, but if even one of these so-called preventive services 
were not in our plan, we would be fined $2,000 per employee.
    Mr. Quigley. But--
    Ms. Buerkle. Would the gentleman yield?
    Mr. Quigley. I am sorry. I am just so short on time.
    Bishop, getting to the question, do you believe that a 
private-sector company, if the owner or the board had moral 
objections, the same moral objections you do, which I respect, 
do you think that they have a right to deny offering 
contraceptive services?
    Bishop Lori. I think that that freedom obtains right now. 
It already obtains. They can already do that.
    Mr. Quigley. But we are talking about legislation, Bishop--
    Bishop Lori. Right.
    Mr. Quigley [continuing]. And there is legislation also 
proposed right now that would extend this to the private 
sector.
    Bishop Lori. We are saying that this legislation should not 
do so. We have been able to have that freedom now, and the 
world has not fallen in upon itself.
    Chairman Issa. The gentleman's time has expired.
    We now recognize the gentleman from Ohio--we have the 
gentlelady from New York, Ms. Buerkle, for 5 minutes.
    Ms. Buerkle. Thank you very much, Mr. Chairman.
    And let me begin by saying what an honor it is to have you 
here before us this morning and to hear your profound defense 
of First Amendment rights in a time when there is so much 
discussion and debate about this. It is so uplifting for me to 
listen to so many different denominations talk about religious 
freedom, because I believe that is the reason, as was so 
clearly stated by many of you, why people came to this country 
and why they continue to come to this country, because we offer 
a freedom of exercising your religion. So thank you very much 
for being here this morning.
    I am a nurse. I have spent most of my professional career 
both as a nurse and a health-care attorney. I am a mother. I 
have been blessed with 6 children and soon to be 13 
grandchildren. So I feel like I can speak to this issue.
    And I really find it so objectionable that my colleagues on 
the other side of the aisle would characterize this as an issue 
as narrow as contraceptives or abortion or sterilization. This 
is a fundamental assault on one's conscience. And folks who 
don't believe in God or folks who do believe in God or believe 
in a certain--it is an affront to each and every American's 
conscience.
    So to try to narrow this down into a contraceptive or a 
women's health issue, I am so appalled that that is the 
approach. This is a fundamental assault on our First Amendment 
rights. And we have to challenge the media and, as my colleague 
mentioned, challenge the churches to articulate, this is the 
issue; this is a First Amendment assault, and we need to defend 
our Constitution.
    So I thank all of you very much for being here.
    I want to just briefly talk--I think we have established 
that you feel that this is a violation of conscience. I would 
like to just quickly go down the panel and ask each one of you, 
how do you perceive this new rule?
    And I want to clarify, first of all, before I ask you my 
question, the HHS rule was not changed. Do you agree with that?
    Okay. So let's establish that for the record, that, despite 
this accommodation, the rule hasn't been changed. And it was a 
verbal, as you mentioned--nothing was put in writing, which is 
always of concern.
    But I want to now ask each one of you, how would you see 
this rule that has not been changed that violates conscience 
rights, how do you see that affecting the missions of each one 
of your churches?
    Bishop, we can begin with you.
    Bishop Lori. First of all, it does not remove the mandate, 
and, as a result, it is still a great intrusion into the 
freedom of our churches. And besides that, we think it violates 
the Religious Freedom Restoration Act because it substantially 
burdens our religious freedom by forcing us, indirectly but 
nonetheless forcing us, to provide the so-called preventive 
services in violation of our teaching.
    And it also is simply unworkable, because many religious 
entities are self-insured, and as a result, we are not only the 
employer but the insurer. And so then it directly involves us 
in providing the prescribed services.
    Ms. Buerkle. Thank you, Bishop.
    And for the remaining members of the panel, do you 
anticipate that there will be fines or penalties that you will 
have to face because of this?
    Rev. Harrison. Well, the penalties are variegated and 
applied over time, but we could face multimillion, tens of 
millions of dollars of fines, according to what our preliminary 
research has shown, should we fall out of the grandfather 
clause in some fashion.
    Aside from that, this entire thing has already cost us a 
lot of money because we were not able to take the steps, cost-
savings steps. We had to freeze everything already, when the 
health legislation was on the table and passed.
    Ms. Buerkle. And, Dr. Mitchell, do you anticipate that it 
will affect the mission of all of the institutions and the 
mission going forward?
    Mr. C. Ben Mitchell. Yes, ma'am, I do. Southern Baptist, my 
own denomination, is a free church. That is to say, we are not 
unlike our Catholic friends. We are not--we don't have a 
magisterium. Every church is an autonomous body--16.8 or 17 
million members and 5,000 or so denominations.
    I can tell you this. Because we are a free church and 
because we are so committed to a free state, because, as I 
tried to indicate in my comments, our genesis in America was 
committed to that freedom of conscience and liberty of 
religious expression, tens of thousands of us, maybe hundreds 
of thousands of us, would be very willing to spend nights in 
jail for the sake of the preservation of religious liberty.
    Ms. Buerkle. Thank you.
    Mr. C. Ben Mitchell. It is not just our coffers that are at 
risk, it is our very freedom.
    Ms. Buerkle. Thank you.
    Rabbi, I am over time. If we could just ask for two quick 
answers, so we can get you in the record.
    Rabbi Soloveichik. My concerning, Congresswoman, is both 
for the objective religious-freedom rights of everyone in this 
country, but I am also quite worried about the long-term 
implications when I see an administration feeling free to say, 
first of all, what a religious denomination's tenets require 
and do not require. And I am also greatly concerned about the 
long-term implications when an administration declares that a 
particular organization is not a religious organization 
precisely because they are motivated--in a situation where that 
organization is motivated by its faith to reach out to people 
beyond their faith.
    Ms. Buerkle. Thank you.
    Dr. Mitchell.
    Mr. Craig Mitchell. The thing that concerns me is that, if 
they don't see this as a religious-liberty issue, what do they 
see as a religious-liberty issue? And where do they stop? What 
I see here is a hollowing out of what the concept of religious 
liberty is, almost to the point where eventually it will be 
nonexistent.
    Ms. Buerkle. I thank you all very much.
    And I yield back. Thank you.
    Mr. Lankford [presiding]. Thank you.
    The chair recognizes Mrs. Maloney for 5 minutes.
    Mrs. Maloney. Thank you.
    And I thank all of you for your work and for being here 
today.
    I have serious concerns that the issue we are focusing on 
today, whether women should have access to contraceptives in 
their insurance coverage, is only a very small part of a 
broader campaign to attack the use of contraceptives generally 
for women across this country.
    For example, right now, in 14 States in this country, in 
this year, activists have been pushing initiatives to amend 
State constitutions to define an embryo as a person from the 
second of fertilization. Voters have already rejected 
fertilization personhood laws three times--twice in Colorado 
and once in Mississippi. The effect of these initiatives would 
be to criminalize certain birth control methods.
    So my question to the panelists is a general question, is 
whether you agree that we should outlaw any form of 
contraception starting at the moment of fertilization.
    And if I could get a brief answer from Bishop Lori and then 
Reverend Harrison and all down the line.
    Bishop Lori. The pointed issue here is whether or not a 
church that teaches the sacredness of life from the beginning 
or opposes contraception or sterilization on moral grounds 
should be forced to pay for it, not whether or not it should be 
illegal.
    Mrs. Maloney. But do you consider birth control pills to 
fall in that category? In other words, would you favor making 
the use of birth control pills illegal in this country?
    Reverend Harrison.
    Rev. Harrison. No, I would not. But neither do we include 
birth--do we include those abortion-producing medications as 
birth control.
    Mrs. Maloney. When you say ``abortion-inducing 
medications,'' what are you referring to?
    Rev. Harrison. I am referring to those medications that can 
cause a fertilized egg or an embryo to be aborted.
    Mrs. Maloney. Is that so-called Plan B?
    Rev. Harrison. Yes, Ella and Plan B.
    Mrs. Maloney. Well, what about IUDs, Dr. Mitchell? Do you 
believe that they should be illegal?
    Mr. C. Ben Mitchell. We believe that they are contrary to 
our view of the sanctity of human life because they allow 
fertilization but they prevent implantation, and we believe 
that human life begins at conception, not at implantation.
    Mrs. Maloney. Well, what I understand from the 
administration's proposal and what I understand from the public 
comment in opposition to his proposal was that you do not want 
to pay for these services. And under its proposal, you would 
not pay for these services. They would be absolutely separate 
in an insurance plan.
    Now it seems that you are saying that no women should have 
access to them and that they should be criminal. And what are 
your comments on that?
    I mean, I support religious freedom. I support every type 
of religion in America. But I do not support imposing my 
religious beliefs or anybody else's on anybody else.
    Bishop Lori. In fact, the cost of providing those services 
are borne someplace, either in the premiums that religious 
entities pay, or they are borne because our plans are self-
insured and therefore we are the insurer as well as the 
employer, or because we have religious insurers. In other 
words, these so-called accommodations were made without 
reference to the real world that the Church operates in, and, 
as a result, they still entail us in cooperating with this and 
in paying for it.
    Mrs. Maloney. But I would say, with all respect, that in a 
pluralistic society where we all have different beliefs--I, for 
one, am opposed to the war in Afghanistan, but my tax dollars 
are supporting the war in Afghanistan.
    Bishop Lori. Congressman--
    Mrs. Maloney. May I continue, please, sir?
    I support--I am opposed to--many Americans are opposed to 
capital punishment, yet their dollars are supporting capital 
punishment. So, in many ways, when we live in America, and it 
is a total society, then we are all a part of it. And I believe 
that the President bent over backward, or rather the 
administration, to make this separate.
    And I would just like to conclude by saying that, although 
I respect your right to have your own opinions about birth 
control, I really do believe and think that the majority of 
Americans do not share them. And they should be entitled to 
have their beliefs, too.
    I yield back.
    Mr. Lankford. Thank you.
    With that, I yield to Mr. Jordan.
    Mr. Jordan. I thank the chairman.
    I want to thank our witnesses for coming today.
    Doesn't this just get, this ruling, get to the very heart, 
the very foundation of what America is about? You think about 
this country, this experiment in freedom we call America. 
People came here because in Europe they said, ``You have to 
practice your faith a certain way,'' and they said, ``No, we 
don't. We are going to go to America where we can do it the way 
we think the good Lord wants us to do it.'' And that very fact 
is fundamental to what we call this great Nation of America.
    So this gets right at the heart of what we are as a 
country, what we are as a people, what the Founders envisioned 
this Nation would offer its citizens. Isn't that what--forget 
all of this other talk we have been hearing from the other 
side. This is fundamentally what is at stake here, the heart 
and soul of what America is about.
    Bishop Lori. Certainly, that is the glory of our country. 
Religious freedom is the first of the freedoms in the Bill of 
Rights, and it is really the source--
    Mr. Jordan. But I would say even before the First 
Amendment, the citizens of this country understood this is what 
America was going to be about. Yes or no, Bishop?
    Bishop Lori. Oh, yes, absolutely.
    Mr. Jordan. Reverend.
    Rev. Harrison. In my position over the last 10 years, I 
have had to travel all over the world, 40 or 50 countries or 
more. And every time I return home, I want to kneel down and 
kiss the ground--
    Mr. Jordan. Thank the good Lord you live here, yep.
    Rev. Harrison. --because of the blessings that we enjoy in 
this country. And I will stand, personally, for and fight for 
the rights of every single citizen in this country to believe 
and act--
    Mr. Jordan. And this administration is putting that very 
principle in jeopardy.
    Rev. Harrison. I will fight for, give my sons up to fight 
for--I have two sons, no daughters--and sacrifice everything I 
have for the sake of guaranteeing the rights of every single--
    Mr. Jordan. Well said.
    Rev. Harrison [continuing]. Citizen in this country.
    Mr. Jordan. Thank you.
    Dr. Mitchell, yes or no?
    Mr. C. Ben Mitchell. I think this issue does focus very, 
very clearly the issue of religious liberty--
    Mr. Jordan. Yep.
    Rabbi.
    Mr. C. Ben Mitchell [continuing]. Whatever the other issues 
may be.
    Mr. Jordan. Thank you.
    Rabbi.
    Rabbi Soloveichik. That is right, Congressman. This is an 
issue of religious liberty, and only an issue of religious 
liberty, that brings us here today.
    Mr. Jordan. Yep.
    Dr. Mitchell.
    Mr. Craig Mitchell. This is what America is about. And if 
we let this go, we are in trouble.
    Mr. Jordan. Okay. I want to play a tape for you. Let me 
just change gears a little bit. I am going to play a tape of 
what the President said, and I want to see if you think he has 
kept his promise and honored what he said he was going to do 
with the overall ObamaCare legislation.
    Play the tape, if you would, please.
    [Audio played.]
    Mr. Jordan. Bishop, do you think, in light of what HHS has 
ruled, do you think the President has kept his word?
    Bishop Lori. I think right from the beginning we bishops 
have been very concerned that conscience protection be built 
into any form of health-care reform that would emerge--
    Mr. Jordan. And because it isn't, there is no way that 
statement that the President made can actually be true.
    Bishop Lori. We feel that--
    Mr. Jordan. As it applies to you.
    Bishop Lori. We feel that we have good relationships and we 
have exercised our freedoms wisely, and therefore it has not 
been broken and shouldn't be fixed in the way it is so-called 
fixed.
    Mr. Jordan. Reverend, did the President--
    Rev. Harrison. As a church body, we have no official 
position on the rightness or wrongness of the President's--
    Mr. Jordan. The President said if you like--
    Rev. Harrison [continuing]. Health plan.
    Mr. Jordan. The President said if you like your plan, you 
can keep it. Is that true?
    Rev. Harrison. All I would like to say is that we are here, 
I am here today because we are deeply concerned about the 
religious-liberties provision.
    Mr. Jordan. Will you be able to keep the same plan if this 
rule is in place?
    Rev. Harrison. We are hanging on by a fingernail. And, as I 
said in my opening statement, I believe a couple of strikes of 
a keyboard could eliminate our freedoms very easily.
    Mr. Jordan. Doctor, did the President honor his promise?
    Mr. C. Ben Mitchell. I think it is very ironic that he used 
the word several times ``trust'' and predicated his comments on 
the word ``trust.'' I am not from Missouri. I have lived there 
before, but I am not from Missouri. I have to say that any 
future rulings from the HHS I will have to see to believe.
    Mr. Jordan. Yeah. Will you be able to keep the plan that 
you offer?
    Mr. C. Ben Mitchell. Well, we have--yes.
    Mr. Jordan. Rabbi.
    Rabbi Soloveichik. I am not here to represent an 
institution that offers a plan or does not offer a plan.
    Mr. Jordan. Right. Got it. You are here--
    Rabbi Soloveichik. What brings me here is great concern 
when an administration or HHS claims the power in a mandate to 
define what is a violation of religious belief and what is not 
a violation of religious belief.
    Mr. Jordan. Finally, if I could, Dr. Mitchell, do you think 
the President kept his word with the clip you saw?
    Mr. Craig Mitchell. I don't think that he did. I think that 
rather than fix what is broken, he has broken what was already 
working.
    Mr. Jordan. Okay.
    I yield back. Thanks.
    Chairman Issa [presiding]. I thank the gentleman.
    We now go back to the gentleman from Illinois, Mr. Davis, 
for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    And I want to thank all of our witnesses for being here.
    As I listened, this is a very serious discussion, and I 
think all of America is really watching and listening to what 
it is that we have to say.
    I, first of all, want to associate myself with the comments 
made by the former chairman of the full committee, Mr. Towns, 
and my colleague from Illinois, Mr. Quigley, relative to the 
absence of women on this particular panel.
    With that said, it seems to me that we have not talked a 
great deal about the health-care benefits of the discussion, of 
the issue. And given the fact that the discussion emanated from 
implementation of provisions of the Affordable Care Act, let me 
ask if either one of you gentlemen have a health background, in 
terms of any kind of health delivery to individuals?
    No? All right.
    Let me just--obviously, there are many well-known benefits 
for women to be able to control their own lives and to plan 
their pregnancies, including by using contraception to 
determine whether or when they get pregnant.
    But that is merely the contraceptive use. A significant 
proportion of women, 1.5 million, use the pill exclusively for 
medical purposes other than contraception. They use 
contraceptives to treat severe menstrual pain, migraines, 
uterine fibroids, and endometriosis. Oral contraceptives also 
help prevent ovarian cancer. One study found that oral 
contraceptives have prevented 200,000 ovarian cancers and 
100,000 deaths from the disease.
    Is it your understanding that--or do your religious 
teachings prohibit the use of contraception for health-related 
purposes such as treating ovarian cancer?
    Bishop, perhaps we could start with you.
    Bishop Lori. I think Catholic moral theology is very 
nuanced. It recognizes that the same drug can operate in 
different ways and accomplish different things. If it is used 
to prevent birth, it is against our teaching. And so we have 
operated with a considerable--with a lot more nuance than we 
are usually given credit for.
    I would also observe, by the way, that 90 percent of all 
private health-care plans give access to contraception. We are 
talking about a very narrow band and for very specific purposes 
here.
    Mr. Davis. Anyone else?
    Rev. Harrison. We are all for medicine for women. In fact, 
I have spent years of my life working with relief and 
development and charitable organizations providing specifically 
services to women. So we are all for medications that help 
women. We are just not for using certain medications to end 
pregnancies.
    Mr. Davis. I think the--
    Mr. C. Ben Mitchell. I was just going to add, in our 
setting, because we are a free church, the use of 
contraception, the contraceptive pill for instance, is a matter 
of Christian liberty. So that is, the use of the pill is a 
matter of Christian liberty.
    Mr. Davis. I think there are perhaps some people who get a 
bit confused when they try and sort out what the most rational, 
logical approach might be, especially if we are trying to 
improve health care and if we are trying to provide the best 
health-care delivery system. And so we see numerous health 
experts who recommend the use of family planning as part of 
preventive care for women: the American College of 
Gynecologists, the American Academy of Family Physicians, the 
American Academy of Pediatrics--
    Chairman Issa. I would ask that the gentleman have an 
additional 15 seconds.
    Mr. Davis [continuing]. And the American Public Health 
Association.
    So my 15-second question is, if a woman who worked for one 
of the institutions that you might be associated with had need 
for these services as a health measure, what would your 
position be? Should she receive them? Should she get them?
    Chairman Issa. You can answer briefly. Anyone who wants to 
answer can answer briefly. Time has expired.
    Rabbi Soloveichik. Congressman, if you as a legislator or 
the administration or Health and Human Services sought to 
provide greater preventive care, seeking in an initiative to 
prevent illnesses among women or men, and that was the focus, 
none of us would be here today. We are not here because we wish 
to in any way hurt preventive care of anybody. And you 
absolutely could have done that, and the administration could 
have done that.
    We are here today because the administration is showing 
insensitivity to the liberties of conscience of some faith 
communities in America, not necessarily in this case, my faith 
community, but that is the insensitivity being shown here. And 
that is why we are all here today.
    Mr. Davis. Thank you very much.
    And thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    And, with that, we go to the gentleman from Pennsylvania, 
Mr. Kelly, for 5 minutes.
    Mr. Kelly. I thank the chairman.
    And I would like to just yield 15 seconds or so to Ms. 
Buerkle.
    Ms. Buerkle. I thank the gentleman from Pennsylvania.
    Just briefly, because it was just raised, the issue of 
access to health care, on Monday of this past week I toured a 
very prominent, wonderful Catholic hospital in my district and 
talked with administrators. And they are a self-insured 
program. And she said to me, ``If this rule continues to be 
enforced, we will have to drop our self-insurance. All of our 
employees will have to go into contract with an insurance 
company, and it will dramatically raise their costs.'' So I 
think that is one of the unintended consequences of this rule.
    I yield back, and I thank you.
    Mr. Kelly. I thank the lady.
    And, all of you, thanks for being here today, because this 
is a difficult situation for a lot of people across the 
country. And I think it was Dr. Mitchell that talked about 
trust and truth. And I have a habit every time I get into these 
meetings anymore of going to get some definitions of what 
``truth'' and ``trust'' are. ``Truth'' is nothing more than 
sincerity in action, character, and utterance. ``Trust'' has to 
do with assured reliance on the character, ability, strength, 
or truth of someone or something.
    And this hearing today is about freedom of speech, freedom 
of religion, and a government that continues to intrude on our 
private lives in ways that we may not agree with and certainly 
don't agree with in many, many ways, shapes, and forms.
    In the area of the country where I am from, there is an old 
saying that goes something like this: Fool me once, shame on 
you; fool me twice--no--shame on me. And I think we have 
reached that point in the most transparent administration that 
we have ever seen.
    There is one thing that is very clear to me: Transparency 
has nothing to do with any of this. We take bad policies and 
when we can't shove it down the public's throat, we take the 
package back, re-wrap it in a little different color paper, put 
a little different bow on it, and say, ``Do you like me better 
now?''
    So I have a very difficult time sitting here in these 
hearings and getting beyond what it is we are talking about. We 
are talking about the Constitution, and we are talking about a 
President whose former job at the University of Chicago, he was 
a professor of constitutional law. So I find it difficult to 
understand how the Constitution only has relevance on certain 
days and at certain times and only if it really appeals to 
something I am trying to push that day.
    So we have come to ``constitutional niceties'' and 
``constitutional convenience,'' and what we have done, we have 
turned our back on freedom of religion, freedom of speech, and, 
again, a government that is too overbearing.
    So, in light of all that--and, Your Excellence, if we could 
start with you, any of you. Because of the transparency--let me 
ask you, did anybody in the White House or Secretary Sebelius 
or anybody from the Department of Health and Human Services 
ever seek your input in any of this language? Your Excellency?
    Bishop Lori. Not on this latest rounds of rules, no.
    Mr. Kelly. Okay. Previously?
    Bishop Lori. We certainly had the opportunity to comment. 
When the interim final rule by HHS came out in August 2011, we 
had the opportunity to comment. Massive numbers of comments 
were sent in. As is well known, the President met with 
Cardinal-designate Dolan, and so there was certainly a meeting 
at that level. But then before the final rule came out last 
Friday, there was no prior consultation.
    Chairman Issa. Would the gentleman yield?
    Mr. Kelly. Yes, I will.
    Chairman Issa. But on the earlier promotion of what now is 
known often as ObamaCare, you were well consulted. There was an 
outreach to get support for that, wasn't there?
    Bishop Lori. When the underlying bill itself was being 
debated, we certainly had the opportunity to weigh in, and we 
did.
    Chairman Issa. I thank the gentleman.
    Mr. Kelly. Okay.
    Any other Members of the panel?
    I mean, I really am concerned, because we talk all the time 
about this transparency and collecting from around the country 
from the best minds available. And then it seems to me, we sit 
back and say, ``Well, you know, we talked to them. You know 
what? They don't agree with us, so we are going to kind of 
dismiss that and we will go forward.'' And that is the thing 
that I think is more disturbing than anything else. I, for one, 
as just a regular American citizen, am trying to figure out--
and I think I know the answer. And I said earlier, fool me 
once, shame on you; fool me twice, shame on me. I am not going 
to be fooled anymore.
    Reverend or Rabbi, anybody that wants to weigh in on this, 
because if any of you had any input or are aware of any input 
that was taken seriously and not just given some kind of a 
massage?
    Mr. C. Ben Mitchell. I am not aware of any input other than 
what the average citizen would have.
    But I also have to say that those closing comments in my 
statement, that the administration's accommodation was no 
accommodation at all, were written several days ago before I 
learned that on Friday the final rule had no accommodation. 
That seems to me not to reflect good-faith efforts and trust.
    Mr. Kelly. Rabbi.
    Rabbi Soloveichik. I would just refer, Congressman, to a 
series of questionings that took place on the other side of the 
Hill. When Senator Hatch asked Secretary Sebelius about not 
only whether they had originally, in designing these 
guidelines, looked into the concerns of religious communities 
but also to the constitutional and legal issues of religious 
freedom, and the answer was quite remarkable.
    Mr. Kelly. Dr. Mitchell.
    Mr. Craig Mitchell. I am not aware of anybody asking about 
this, but, you know, when you consider that the President 
taught constitutional law at the University of Chicago, you 
would kind of think that this would have been the first thing 
he would have considered.
    Mr. Kelly. Yeah. Well, like you, I am tired of being gamed.
    I want to thank you all for being here. I want to thank you 
for speaking.
    And also, my bishop, Bishop Zubik in Pittsburgh, and Bishop 
Trautman in Erie have been very clear about how they feel about 
this to everybody that they can talk to.
    I appreciate you coming forward. I appreciate your bravery. 
And we continue to battle for the same things, and that is the 
defense of our First Amendment. Thank you so much.
    And I yield back, Mr. Chairman.
    Chairman Issa. I thank the gentleman. The gentleman's time 
has expired.
    We now go to the gentleman from Missouri for 5 minutes, Mr. 
Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    And this is obviously an issue that provokes strong 
reactions on all sides. And that, unfortunately, can lead to 
overstatement, exaggeration, or even to say disingenuousness. 
It is sad to see the discourse reach such a low point, 
especially considering the respected and esteemed institutions 
that are participating in this discussion.
    And I want us to be able to work together on this and other 
similarly critical issues that we face. I want us to try to 
agree on goals and then try to work together to achieve those 
goals. And I think that is what our constituents hired us to 
do. In fact, I know that is what my constituents from St. Louis 
hired me to do. But the rhetoric and verbal bomb-throwing on 
all sides keeps us from even talking about those goals, much 
less how to achieve them.
    And so I am disappointed. I am disappointed in some who 
suggest that the Catholic Bishops' stance represents something 
sinister, that it is an attempt to deny all women of any faith 
access to any contraception or reproductive health care of any 
kind no matter where they work. And I don't think that is the 
case, and I certainly hope that is not the case. And it is 
unhelpful to advance that argument if we want to work together.
    I am disappointed in those who claim that the 
administration has an agenda: to increase abortions, 
sterilizations, and contraceptive use by Catholics. And the 
facts don't back that up, not in the slightest. And it is not 
only unhelpful, it undermines what I believe to be a legitimate 
argument the Church can make about religious freedom.
    But most of all, I am disappointed in this committee. Once 
again, rather than have a reasoned, equitable, and transparent 
examination of an important issue, we have a politicized and 
unbalanced hearing. Once again, we see an unfair attempt to 
score political points against the President and this 
administration.
    And, you know, I did not support the initial narrow 
exemption that was announced on January 20th. As a Catholic, I 
did not believe it took into account the full extent of 
Catholic health care and social services nor of Catholic social 
teachings. And I am very pleased that the President expanded 
the exemption. The new policy provides the widest possible 
health-care coverage for all Americans, and it allows Catholic 
institutions to continue their faithful work in the service to 
education, health care, and charity.
    And, Mr. Chairman, I urge all sides to continue to work 
toward reaching the goal that I know most Americans share, and 
at least some in this room do as well, and that goal is to 
provide the broadest possible access to health care to all 
Americans while respecting the genuine freedoms that our Nation 
guarantees to everyone. And I strongly urge all sides to 
exercise decency and respect for one another, even when we 
disagree most fervently. We should not sacrifice one set of 
principles in our struggle to uphold another.
    And, at that point, Mr. Chairman, I have no questions, but 
I would like to yield the balance of my time to the gentleman 
from Maryland.
    Mr. Cummings. I thank the gentleman for yielding.
    Bishop Lori, I am so--I am sitting here, and I am trying 
to--first of all, I am going to associate myself with the words 
of the gentleman, Mr. Clay.
    But help me with this. If there is a woman--and, see, I am 
trying to--you mentioned practicality a little earlier. If 
there is a woman who is, say, working for a Catholic entity and 
she comes to you and she says, you know, ``I want 
contraception; it is something that I want''--and I have read 
surveys where it said 98 percent of women, Catholic women, use 
contraception--I am just curious, what do you say to her?
    Bishop Lori. When somebody comes aboard to work for the 
Church to begin with, the teaching is clear, the mission is 
clear, the teaching of the Church in all of its nuance is set 
forth, and the terms of the plan are clear.
    Let's be clear that contraception is available in many 
different ways. Sometimes a couple in that condition, in that 
situation, might access it through a spouse's plan. But 90 
percent of all health insurance plans include it. Plus, there 
is Title X; plus, there are clinics. It can hardly be said that 
this is unavailable. It is available very, very widely.
    The issue here is forcing the Church to provide it directly 
or indirectly in contravention of the Church's teaching. And 
that is what we don't want to do. It is one thing that tax 
dollars pay for it; it is another thing when Church dollars pay 
for it.
    Mr. Cummings. Thank you very much.
    Chairman Issa. We now go to the gentleman from South 
Carolina, Mr. Gowdy, for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    I want to do something that we don't have a chance to do 
very often in Congress, which is actually to apply the facts to 
the law.
    Secretary Sebelius said her mandate, ``strikes the 
appropriate balance between respecting religious freedom and 
increasing access to important preventative services.'' Now, I 
can find the free exercise of religion in the Constitution. You 
don't have to read very far to find that. I can't find the 
constitutional right to free preventative services. So what she 
is seeking to do is to balance something that cannot be taken 
away from you with something that the Constitution doesn't even 
provide to you.
    But I want to do this, I want to go through the law. It is 
a very simple analysis.
    Number one, does this mandate impose a substantial burden 
on the free exercise of religion? Yes or no? Does this mandate 
impose a substantial burden on the free exercise of your 
religious beliefs?
    Bishop Lori. Yes, we believe it does.
    Mr. Gowdy. Reverend Harrison.
    Rev. Harrison. That is why I am here.
    Mr. Gowdy. Dr. Mitchell.
    Mr. C. Ben Mitchell. Yes, sir.
    Mr. Gowdy. Rabbi.
    Rabbi Soloveichik. It imposes a substantial burden on the 
religious freedom and religious beliefs of many Americans.
    Mr. Gowdy. Okay. All right. Check.
    Second part of the analysis: Is there a less intrusive 
means of accomplishing a compelling State interest? Let's take 
them backward. What is the compelling State interest in 
providing free contraception? It is available to 98 percent of 
the people in this country. Heck, there are some cities and 
States that will provide it for free; just show up.
    So the notion that there is a compelling State interest in 
providing what is already available--and then go to the second 
part, is there a less intrusive means of providing that? I have 
not heard a single one of my colleagues say that they are going 
to submit a bill which pays for this themselves. I have not 
heard a single one of my colleagues offer to pay for it 
themselves. They want you to do it.
    Yes, sir?
    Bishop Lori. We would say that it is not a compelling 
governmental interest. If it were, there would be no such thing 
as grandfathered plans. If it were, that these plans that have 
existed until now with exemptions would not have been allowed 
to do so. And so we do not think there is a compelling 
government interest, because there are still, under the current 
law, far too many exceptions for the government to be able to 
make that argument.
    Mr. Gowdy. You are right, Bishop. So even if this 
administration were to rewrite the Constitution, as has been 
known to happen from time to time, to find within the penumbra 
of the Fourth Amendment this right to free--not a right to 
preventative services; our friends on the other side of the 
aisle misapprehend the point--a right to free preventative 
services, it still doesn't pass the less intrusive aspect of 
this constitutional analysis.
    So, with the law out of the way, then we can get to the 
sheer politics of this. I couldn't help but smile when my 
friend from Missouri encouraged us all to not score political 
points. I couldn't help but think, ``Gosh, this is an election 
year. I wonder if I ought to provide free preventative services 
to over half the voting population.'' Huh, I wonder if that is 
what he meant by scoring political points. If you want to do 
it, that is fine. Don't do it through the First Amendment of 
the Constitution.
    I would say this in conclusion, then I want to give time to 
my friend and colleague, Mr. Mick Mulvaney.
    Bishop, would you rather close down your hospitals and your 
schools than to comply with a governmental edict that violates 
your faith?
    Bishop Lori. We are not going to violate our consciences.
    Mr. Gowdy. Reverend Harrison, you have already spoken with 
respect to civil disobedience. I believe you said you would 
sooner go to jail than violate your conscience.
    Rev. Harrison. Yes, I would, clearly.
    Mr. Gowdy. Dr. Mitchell.
    Mr. C. Ben Mitchell. I would like to be in his cell.
    Mr. Gowdy. We will try to work that out.
    Rabbi.
    Rabbi Soloveichik. Freedom of conscience and of religion, 
Congressman, is the first and most sacred of American 
liberties.
    Mr. Gowdy. Dr. Mitchell.
    Mr. Craig Mitchell. This is not the kind of thing that we 
can afford to play with. This is essential to our country.
    Mr. Gowdy. Well, just so everybody understands what is 
going to happen, these guys are either going to go to jail 
because they won't violate their religious beliefs or the 
hospitals and the schools are going to close, which means 
government is going to get bigger because they are going to 
have to fill the void that is left when you guys quit doing it. 
And maybe that is what they wanted all along.
    I apologize, my time is up.
    Chairman Issa. I am afraid you just lost a friend, Mr. 
Gowdy. Your time has expired.
    Mr. Gowdy. Apologies to my friend from South Carolina.
    Chairman Issa. As is appropriate, I now ask unanimous 
consent that the statement and this paper by Martin Luther King 
be placed in the record in which he says, ``There comes a time 
when one must take a position that is neither safe nor politic 
nor popular because conscience tells one it is the right 
thing.''
    With that, we go to the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Thank you.
    You know, I criticized the policy coming out of the 
Department of Health and Human Services because I thought that 
some of the critics, including critics of my own denomination, 
had a point. And I thought they had misstepped, and I urged the 
White House to correct the problem. I believe, like millions of 
Americans, that they did correct the problem.
    And I believe today's hearing is a sham. And I believe--I 
have to assume each of you gentleman came here in good faith, 
but surely it has not escaped your attention that you are being 
used for a political agenda. Maybe you are willingly being 
used, I don't know. I don't know what is in your heart.
    Here you are, being asked to testify about your rights 
being trampled on--an overstatement if there ever was one--
while you are on a panel and your participation on the panel 
makes you complicit in, of course, the trampling of freedom, 
because we were denied, on this side of the aisle, any witness 
who might have a differing point of view.
    Chairman Issa. Will the gentleman yield?
    Mr. Connolly. No, sir, I will not.
    And I think that is shameful. I think it actually 
contradicts exactly what you think you are here to testify 
about. And I think it taints the value of this panel that could 
have been a thoughtful discussion but it is not.
    This is a panel designed, with your conscious participation 
or not, to try one more time to embarrass the President of the 
United States and his administration by overstating an issue 
which is sacred to all Americans, religious freedom. But, of 
course, in order to do it, we have to, in an almost Stalinist-
like fashion, have signs of Democratic icons to rub Democratic 
faces in it, as if those icons would be on the same side of 
this dispute today. But since they are all deceased, it would 
be hard to gainsay that.
    And so I say to you, as a member of this committee who 
actually shared the concerns you say you have last week, that I 
think this is a shameful exercise, and I am very sad you have 
chosen to participate and be used the way you are being used, 
just as you were in the previous questioning, as if people are 
going to jail over this. Shame. Everybody knows that is not 
true. Catholic Hospitals supported the compromise. They are not 
afraid of closing down hospitals in America.
    If we want to have a legitimate debate about, you know, 
where is the right boundary, let's have it. But overstating it 
and making charges that are just outlandish and, frankly, 
beyond the pale serves no purpose other than political 
demagoguery in an election year. And men and women of the 
cloth, it seems to me, ought to run, not walk, away from that 
line.
    I now yield to my colleague from Connecticut, Ms. Rosa 
DeLauro.
    Ms. DeLauro. I thank my colleague for yielding to me.
    I think that one of the pieces of information that hasn't 
been discussed here today at all, quite frankly, is that, in 
fact, there is an exemption for the Catholic Church, other 
houses of worship, for the Catholic Church and the synagogues, 
for mosques, there is an exemption--
    Chairman Issa. If the gentlelady will suspend, the 
gentleman cannot leave the room while yielding to another 
Member. Would you please remain?
    Mr. Connolly. One second.
    Chairman Issa. The gentleman has yielded back his time.
    We now go to the gentleman from Texas, Mr. Farenthold.
    Mr. Cummings. Mr. Chairman? Mr. Chairman, the gentleman is 
standing right there.
    Mr. Connolly. I am right here.
    Chairman Issa. Oh, the gentleman has returned. Is the 
gentleman going to remain, please?
    Mr. Cummings. He was standing right there.
    Ms. DeLauro. Right here, Mr. Chairman.
    Mr. Cummings. Let the lady--
    Chairman Issa. The gentlelady--
    Mr. Cummings. Let the lady talk.
    Chairman Issa. The gentlelady may continue.
    Ms. DeLauro. Thank you. I appreciate that, Mr. Chairman. 
And I also appreciate the opportunity to be here today. And I 
know I am not a member of this committee, so I appreciate that. 
But I also appreciate the opportunity to be able to speak in 
this forum.
    The fact of the matter is that the churches, synagogues, 
mosques, other houses of worship are exempt, as are their 
employees. Let us state the facts on that. And most recently we 
had a Supreme Court decision that upheld the opportunity for 
those houses of worship to be able to hire whomever they want, 
so that the church is exempt, their employees are exempt.
    Understand that what we are talking about here today--and I 
will speak about the Catholic Church as a provider and as an 
employer. And the fact of the matter is, as a provider, nothing 
changes. The conscience clause, all of that is intact. You 
cannot dispense, prescribe, use a contraceptive service if that 
is so your choosing.
    But, in fact, the church is an employer. And as an 
employer, and now particularly under the accommodation that was 
made that there has to provided for people who work for that 
entity to be able to get insurance coverage that includes the 
recommendations of the Institute of Medicine, which is a 
medical independent research body that was asked to come up 
with what are the essential preventive services that women 
would need for health care. And amidst them, amidst them, there 
is contraceptive coverage.
    Chairman Issa. The gentleman's time has expired.
    Ms. DeLauro. Not churches or hospitals--
    Chairman Issa. We now go to the gentleman from Texas, Mr. 
Farenthold.
    Ms. DeLauro. Talk about abridging freedom of speech.
    Mr. Farenthold. Thank you, Mr. Chairman.
    And I understand that this is an issue that everyone is 
incredibly passionate about. It is the First Amendment to the 
Constitution, the one that I think our Founding Fathers 
considered most important because they put it first. And I can 
understand why everybody is passionate and concerned about this 
issue.
    Quite frankly, I believe the Affordable Care and Patient 
Protection Act is unconstitutional to begin with. The attorney 
general of my home State, Texas, along with numerous others, 
have filed suit in the Supreme Court, and I am optimistic that 
the Supreme Court will hold the entire act to be 
unconstitutional.
    But add to this the mandate that the Church provide and pay 
for services that they are opposed to brings it in 
contradiction to the First Amendment, as well. And that is a 
double strike. It makes it, I guess, even more 
unconstitutional, or doubly unconstitutional.
    But I did have a question for Mr. Lori. I wanted to follow 
up with something some Members of the other side asked. I am 
the product of Catholic middle school, Catholic high school, 
and Catholic law school, so I guess I have had 4, 5, 6, 9 years 
of Catholic education. And unless the nuns got it wrong, the 
Catholic Church does not have a problem with the use of 
contraceptives for medical purposes. So I would assume from 
that it wouldn't be morally objectionable to the church to pay 
for those for medical purposes.
    I am not trying to put you on the spot. I am just trying to 
make sure I understand where the Church stands.
    Bishop Lori. That would be my understanding also.
    Mr. Farenthold. And there are numerous organizations, both 
federally and private funding, that make available free or low-
cost contraceptives throughout the country. I am sure you are 
aware of that?
    Bishop Lori. Yes, that is also my understanding.
    Mr. Farenthold. So we have a mandate here that really is a 
lot of much ado about nothing. If it were carefully crafted, 
the chances of somebody not being able to get the care or, for 
that matter, the optional contraceptives that they desire is, 
for all practical purposes, nil?
    Bishop Lori. Those services are very, very widely 
available, and what we are talking about is a very narrow band. 
It is clearly a minority opinion or a minority view, but we 
think it is one that ought to be protected.
    Mr. Farenthold. I think we are at a point where we are 
trampling on the Constitution for no real reason.
    I also had the opportunity this week to meet I guess with 
your friend Bishop Mulvey from Corpus Christi. He sends his 
regards. And, you know, what we kind of talked about is how 
this really is a moral issue. Religious freedom--being told 
what to do is an intrusion on these freedoms. And the issue is 
religious liberty.
    And maybe this is more of a rhetorical question than it is 
an actual question, but I will open it up to the panel. Today 
it is contraceptives; where do we go next? I mean, what are we 
opening the door to when we start trampling on these liberties?
    And, again, I will call it a rhetorical question, but if 
any member of the panel would like to comment, I would welcome 
it.
    Mr. Craig Mitchell. Well, this was a question I asked 
before. Where does it end?
    I think that we are clearly hollowing out the idea of 
religious liberty by going in this direction. And you can--it 
is one of just many--a death of many cuts. And if you can keep 
on finding reasons to reduce it, people will. And so I think 
that there is a real danger here.
    Mr. Farenthold. I think you will find--did you have 
something to add, Your Excellency?
    Bishop Lori. It is at the level of principle. If the Church 
can be dragooned into providing these objectionable services, 
then the door is open to other objectionable services down the 
road. So it is breaching a principle.
    Mr. Farenthold. And I go back to, a lot is accomplished in 
this government one step at a time or incrementally. And we 
need look no further than the fact that you can practically 
smoke nowhere. First, you had to be in a section of the 
restaurant. Then you couldn't be in any section of the 
restaurant. Then you couldn't be in your office building. Then 
you had to be outside. Then you had to be 25 feet from the door 
outside.
    And when you open the door to this, regardless of what you 
feel about cigarettes or not, it is illustrative of how the 
government operates: one step at a time. And I urge us to be 
very cautious as we start to take away what is one of our 
fundamental freedoms.
    I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. This is not something 
probably you anticipated a year ago, to think, ``Gosh, wouldn't 
it be great sometime in 2012 if I could go be on a 
congressional hearing and just get berated publicly? Wouldn't 
that be just so fun?'' So I thank you for being here.
    And for Dr. Mitchell from Southwestern, I am a Southwestern 
graduate. It is an honor to be able to have you here. I did not 
know that you were attending, a Southwestern leader as well. So 
it is an honor that you are here as well and to be able to 
represent an institution that I am also an alumni of.
    I have been fascinated to be able to hear the testimony of 
what this hearing is about. I have heard this hearing is about 
trying to prevent women from getting contraceptives and women's 
health. That is not what this hearing is about. That is a 
twisting off, to try to say that this is about some barbaric 
group trying to limit access of women to health. That is not 
what this hearing is about.
    I had the implication that this hearing is about the fact 
that government is more compassionate than the church, that 
they care more about people than the church does, and that 
there are obvious needs here and the church is so out of step 
with culture that they don't know the issues of medication, and 
so the government is more compassionate.
    I have even heard that this is about whether you will be 
jailed or not. It is an interesting comment to realize that 
there is a fine coming down on your organization of 
multimillions of dollars if you don't behave according to the 
administration's wishes.
    Now, that creates an interesting conversation we might be 
able to have at another moment, in that all of you represent 
nonprofit institutions; is that correct? Do you pay Federal 
taxes? No. None of your institutions, because you are a 
nonprofit institution.
    Do you realize the administration has said publicly 
numerous times that the penalties involved in the President's 
health-care plan are not penalties, they are fines--I am sorry, 
they are not fines, they are taxes. Well, if that is so, my 
recommendation to you--of course, I am not an attorney--if 
these penalties are to be considered taxes, not penalties, and 
you are a nonprofit organization that pays no taxes, perhaps 
these things do not apply to you, then, because you pay no tax.
    Now, if they want to argue in front of the Supreme Court 
that these are penalties, not taxes--which apparently they are 
set up in March to argue that they are taxes and that they have 
the power to tax--then it will be interesting to see how the 
administration splits that hair, as well.
    I have heard today that this is an attack on the 
administration, about religious liberties. Well, I don't agree, 
though there are areas that we could discuss about Hosanna-
Tabor and the administration fighting all the way to the 
Supreme Court to try to be involved in the hiring of ministers, 
which the Supreme Court, in a rare 9-0, disputed the 
administration and said ministers have the ability to be able 
to hire--or churches have the ability to be able to hire 
ministers as they choose. We could discuss how the Army is 
choosing to try to go in and edit the sermons of their 
chaplains.
    But today this hearing is about, can this administration or 
any administration say, ``I know your doctrine, but I have a 
different doctrine, and you will change your doctrine to my 
doctrine or I will fine you?'' That is what today is about. Can 
any administration step into a church and say, ``I disagree 
with your doctrine; you will change it to mine?''
    Now, I have a historical question for that. And, Dr. 
Mitchell, I am going to pick on you because I am a Southwestern 
grad, as well.
    In 1800--this was referenced earlier--Thomas Jefferson 
wrote an interesting letter to Danbury Baptist, actually, and 
made a reference that has been used over and over again about 
the wall of separation between church and state. He was 
assuring Danbury Baptist that the State would not go after the 
church in its doctrines and its teachings.
    Am I correct or incorrect on that?
    Mr. Craig Mitchell. Yes, you are correct.
    Mr. Lankford. Would you like to allude to any of that at 
all, about that particular letter that has been referenced a 
lot?
    Mr. Craig Mitchell. Well, the intent was to protect the 
church from the State.
    Mr. Lankford. From the State. Not protecting the State from 
the church.
    Mr. Craig Mitchell. That is right.
    Mr. Lankford. So, the other Dr. Mitchell, do you want to 
comment on that, as well?
    Mr. C. Ben Mitchell. I would. And I should disclose that I 
am also a Southwestern Seminary alumnus.
    Mr. Lankford. Well, we are loaded here. This may be the 
first time in congressional history that three Southwestern 
grads are in the same room.
    Mr. C. Ben Mitchell. In our offices at the Ethics and 
Religious Liberty Commission of the Southern Baptist 
Convention, there is a portrait that hangs above the fireplace 
of John Leland, who was the Baptist minister who had entree to 
that discussion with the Danbury Baptists and our early 
founders. Religious liberty is a Baptist principle through and 
through, and I am happy to say we have had, historically, a 
contribution to make in that area.
    Mr. Lankford. Was that doctrine intended, again, to--or was 
that letter intended to say to the folks at the Danbury Baptist 
Association, ``We will make sure as a Federal Government we are 
not intruding on your religious rights?''
    Mr. C. Ben Mitchell. Yes, sir, that is absolutely right.
    Mr. Lankford. Any other comments on that before I yield 
back my time?
    With that, thank you, gentlemen, very much for being here. 
I am honored to be able to have your time here and to be able 
to be here to express this on this key issue.
    With that, I yield back.
    Chairman Issa. I thank the gentleman. The gentleman yields 
back.
    We now go to the gentleman from Arizona, Dr. Gosar, for 5 
minutes.
    Mr. Gosar. Thank you very much, Mr. Chairman.
    You know, first of all, I have always been one of personal 
accountability and personal responsibility. So when you go 
trampling on the Constitution, you get the full regards of the 
Constitution. I am tired of politicians and constitutional 
attorneys picking and choosing the language of which they want 
to disdain for the Constitution to show that it upholds.
    We have referenced the letter from the Danbury Baptists, 
and I think it is appropriate that we go through the full 
context so that it is part of the record, and so I would like 
to recite it. This is from a letter of Jefferson to the Danbury 
Baptists on January 1, 1802.
    And he says, ``Gentlemen, the affectionate sentiments of 
esteem approbation which you are so good as to express toward 
me on behalf of the Danbury Baptist Association give me the 
highest satisfaction. My duties dictate a faithful and zealous 
pursuit of the interests of my constituents, and in proportion 
as they are persuaded of my fidelity to those duties, the 
discharge of them becomes more and more pleasing.
    ``Believing with you that religion is a matter which lies 
solely between Man and his God, that he owes account to no 
other for his faith or his worship, that the legitimate powers 
of government reach actions only and not opinions, I 
contemplate with sovereign reverence that act of the whole 
American people which declared that their legislature should 
`make no law respecting an establishment of religion or 
prohibiting the free exercise thereof,' thus building a wall of 
separation between church and State.
    ``Adhering to this expression of the supreme will of the 
Nation in behalf of the rights of conscience, I shall see with 
sincere satisfaction the progress of those sentiments which 
tend to restore to man all his natural rights, convinced he has 
no natural right in opposition to his social duties.
    ``I reciprocate your kind prayers for the protection and 
blessing of the common father and creator of man, and tender 
you for yourselves and your religious association assurances of 
my high respect and esteem. Thomas Jefferson. January 1, 
1802.''
    With all due respect, when the President asked for a 
problem, he is just like any of us, he is a man, he is right 
and he is wrong. He has stepped into this, he has made it a 
problem. And who better than another President, Thomas 
Jefferson, to set the record straight?
    We need to start looking at the full context, not picking 
and choosing the simple words that we want to utilize to 
support ourselves. We need to get back to the doctrine and 
understand the full discourse of how we look at the separation 
of the First Amendment and religious freedom. And I am tired of 
people picking and choosing, because when we look back at 
history, the constitutional scholars who say that they 
represent it do more damage than they do support.
    And, with that, I would like to yield to my good friend 
from South Carolina, Mr. Mulvaney.
    Mr. Mulvaney. I thank my colleague.
    And very briefly I want to try and expand this conversation 
a little bit. We have heard a lot of discussion today about 
Catholic hospitals or Jewish charities, but it strikes me that 
we should extend the conversation into the private sector, as 
well.
    And I would suggest to you, and I ask Reverend Harrison, 
for example, if I am a devote Lutheran businessman and I have 
75 people working for me, am I not as aggrieved as the church 
is if I am forced to offer these particular services to my 
employees?
    Rev. Harrison. I think, in fact, you are, as a matter of 
fact.
    And even as you said that, I can think of a wonderful 
family that has treated its employees like gold for its entire 
existence. Employees love to work at this large organization 
that I am thinking of. And yet these are very devote people who 
absolutely loathe acting against their consciences.
    Let me--at the risk of taking some of your time, Mr. 
Congressman, I really loathe the partisan nature of this 
discussion. Ninety-eight percent of what I do, what the 
Missouri Synod does, is completely bipartisan. We represent a 
large church body. The constituents are in some way evenly 
divided between Democrats and Republican. We do not operate in 
a partisan way.
    I also stand at an alter regularly to administer the 
sacrament. And in the prayers of the church, I pray personally 
for the President, his wellbeing, and the wellbeing of our 
Nation. I personally get on my knees every single morning in my 
office and I pray for the President of this country and this 
government.
    Luther bids us in a Small Catechism defense, ``Speak well 
of him and put the best construction on everything.'' I know 
this is a different game here; this is hardcore politics. I am 
here for one reason. I am here because there is a narrow but 
very significant provision in the HHS provisions that is, I 
believe, very dangerous to religious people with our kind of 
convictions. And I believe it is also dangerous to any 
religious people who have unique convictions. So that is why I 
am here.
    Mr. Mulvaney. Reverend, ordinarily we are very protective 
of our time here. I thank my colleague for yielding it to me. 
And I can assure you that I have never been more pleased to 
yield it to someone else. So thank you, sir, for your comments.
    With that, I yield back.
    Rev. Harrison. My apologies.
    Chairman Issa. We now go to what I believe will be the last 
of the members of the committee, the gentleman from Illinois, 
Mr. Walsh, for 5 minutes.
    Mr. Walsh. Thank you, Mr. Chairman.
    And thank you all for enduring this last couple of hours.
    My friend from Virginia said this hearing is a sham, and he 
and I may agree on that, because for the life of me I don't 
know why you all had to be called up here in front of us. Our 
Founders placed you and your concerns on this issue on a higher 
standing than we all are. So there is a big part of me that 
wants to apologize to each and every one of you for having to 
be here.
    This is not about women. This is not about contraceptives. 
We know--you have said it, we have said it up here--this is 
about religious freedom, this is about religious liberties. We 
could be talking about anyone, a Republican or Democrat who 
doesn't want to serve in a war because of their religious 
preferences. We could be talking about a Muslim hospital that 
doesn't want to serve a particular food in their hospital 
cafeteria because of their deep-seated religious beliefs. So 
let's put that aside.
    Thomas Jefferson was referenced. We all famously know that 
Thomas Jefferson requested three things on his tombstone: the 
father of the University of Virginia, the author of the 
Declaration of Independence, and the author of Virginia's bill 
of establishing religious freedoms. And in that bill, he said, 
``To compel a man to furnish contributions of money for the 
propagation of opinions which he disbelieves is sinful and 
tyrannical.''
    John Garvey, who is the President of the Catholic 
University of America, who I believe will speak in the next 
panel, put it perfectly. He said, Consider these two health 
policies--consider these two insurance policies. Policy A, an 
employer is required to provide its employees health insurance 
that covers birth control. Policy B, an employer is required to 
provide its employees health insurance. The health insurance 
company is required to cover birth control.
    As he says, and it almost made me laugh, I can see where 
someone could disagree with both of those policies or agree 
with both of those policies, but for the life of me I don't 
understand what the difference is between those two policies, 
and I don't know how you can agree with one and disagree with 
another.
    I have a father in Saint Mary's Catholic Church back in 
Woodstock, Illinois, who told me last week that after the 
President's attempt at a compromise, he is even more 
disappointed. As he said, it looks like an accounting gimmick. 
First, it was an insult to our liberty. Now, it is an insult to 
our intellect, as well.
    Did any of you--maybe I missed this earlier on our panel--
support ObamaCare in its beginning, 2 or 3 years ago?
    Bishop Lori. The Catholic Church is on record as supporting 
access to health care since 1919.
    Mr. Walsh. Agreed. Did you support this legislation?
    Bishop Lori. We supported the principle of universal 
access, but we did not support the bill and all of its 
particulars.
    Mr. Walsh. Reverend.
    Rev. Harrison. It is our religious policy, believing there 
is a strict separation between the two kingdoms, the religious 
and the governmental, that our church shouldn't be spouting off 
on every government issue. So we took no official position on--
you guys do a great job of that.
    Mr. Walsh. Okay. Spouting off.
    Dr. Mitchell.
    Mr. C. Ben Mitchell. No, as Baptists, we don't take a 
position as a denomination per se. But no one, either, has 
recommended or commended--
    Mr. Walsh. Rabbi.
    Rabbi Soloveichik. Religious people on both sides of the 
aisle can agree or disagree on larger questions of health care, 
but both should be extremely distressed when the religious 
freedoms of anyone in America is threatened.
    Mr. Walsh. Dr. Mitchell.
    Mr. Craig Mitchell. As the previous Dr. Mitchell said, the 
Southern Baptists don't take official positions on this, but--
    Mr. Walsh. Okay.
    Mr. Craig Mitchell [continuing]. We weren't for it.
    Mr. Walsh. My time is running out. I have two quickies.
    Rabbi, why do you think the President--give me a 20-second 
answer--is pursuing this so vigorously?
    Rabbi Soloveichik. I really--I asked the same question. And 
I just don't understand why he is seemingly so--in this 
situation, the President and the administration just do not 
seem sensitive to the religious concern--
    Mr. Walsh. Okay. Just as my time runs out, let me quickly 
rephrase the question my good friend from South Carolina asked. 
At the end of the day, if it comes down to listening to your 
God and/or listening to your government, where are you going to 
fall?
    Rev. Harrison. Thomas Jefferson, I have his Bible from the 
Smithsonian, the famous Bible he cut all to pieces. And I would 
have something to say against some of the bits he took out, but 
he did leave in Matthew 22. ``They say unto him, Caesar's. Then 
saith he unto them, Render therefore unto Caesar the things 
which are Caesar's and unto God the things that are God's.''
    Mr. Walsh. Is it safe to assume that that is where all of 
you would fall?
    Rabbi Soloveichik. And I would add, Congressman, since you 
mentioned the Virginia Statute of Religious Freedom, of which 
Jefferson was rightly so proud and to which Jews and all 
Americans have a great debt to him for that, I don't remember 
the exact text, but after establishing religious freedom, the 
actual bill that he composed concludes by saying something 
like, ``And if any other legislature does seek to limit this 
freedom, we are hereby stating that they do so in contravention 
of natural right.''
    Mr. Walsh. Thank you.
    Chairman Issa. I thank the gentleman.
    If I could ask our panel, would you remain for just 10 
short additional minutes for the last two Congressmen that we 
had by unanimous consent?
    With that, the gentlelady from Connecticut is recognized 
for 5 minutes.
    Ms. DeLauro. I thank you very much, Mr. Chairman and also 
the ranking member.
    I just want to express my view on the new guideline. I 
think that in releasing national guidelines for preventive 
health coverage by 28 States before them that includes 
contraceptive services but a whole variety of other services as 
well, the administration made a strong and long overdue stand 
on behalf of women's health, and at the same time upholding the 
religious liberty of churches, mosques, synagogues, and related 
institutions.
    Last Friday--and even though, as I said earlier, the 
guidelines exempted churches and other houses of worship, as it 
should--I believe in that exemption--the President provided 
more flexibility to charities, to hospitals, and to other kinds 
of religious organizations.
    Hospitals are not just providers but employers. As 
providers, nothing has changed. They do not have to prescribe, 
dispense, provide for any contraceptive services. As an 
employer, there are kinds of employer regulations on the books 
that faith-based institutions are bound to respect. Suppose 
someone decided not to pay the minimum wage. Would we accept 
that?
    Now, just further, one note, is that the constitutional 
issue, constitutional expert David Boies, who appeared on TV 
last week, said there really isn't a constitutional issue 
involved in this issue. The First Amendment to the Constitution 
prohibits establishment of religion, meaning that you can't 
have the government saying that you have to follow certain 
religious beliefs, and guarantees free exercise. That means 
everyone is free to exercise the religion they choose. There is 
nothing in the Constitution that says that an employer, 
regardless of whether you are a church employer or not, isn't 
subject to the same rules as every other employer.
    I have a particular question that I would like to ask, and 
this is about, actually, contraception as a medical treatment. 
As I was preparing for the hearing today, I was contacted by 
people who wanted the committee and the public to understand 
that contraceptives are often used to treat potentially life-
threatening diseases. Let me just give you a couple of 
examples.
    We heard an account from a woman in Kentucky, and she said, 
``Birth control for me isn't about preventing conception. I 
have to take the pill because endometriosis runs in my family. 
When I was 5, I watched my mother suffer a massive hemorrhage 
because of the disease. My doctor put me on the pill to stave 
off the disease. To me, birth control means preserving my 
fertility and my life.''
    This woman may not be able to have children later if she 
does not take this pill for medical reasons. It is medical 
reasons.
    We heard from a number of doctors. One account from a 
doctor in Chicago: ``My patient is 45 years old. She has four 
children. She suffered a stroke 2 years ago. To prevent future 
strokes, she needs to take a blood thinner. Her condition is 
complicated because she experiences heavy bleeding. An IUD is 
the safest option to reduce that bleeding. Her husband works as 
a facilities engineer at a large Catholic hospital. His 
insurance will not cover contraception for any reason.'' An 
employer's refusal to cover this necessary medication creates a 
hardship for her. It is about $1,000 in the cost for that 
medical device.
    I am going to give you a personal example. I am a survivor 
of ovarian cancer. This March will be 25 years. There are so 
many studies--I am not a doctor, I am not a scientist, but 
there are medical studies today that show--and we can give you 
all the citations--that women who do take the pill have a much 
lower risk of developing ovarian cancer: after 1 year of use, 
10 to 12 percent lower. After 5 years of use, 50 percent lower. 
Over 15,000 American women died because of ovarian cancer just 
last year. I am alive because of the grace of God and because 
of biomedical research.
    And I just have to ask each of you, are you morally opposed 
to allowing women who work in your facilities, many of whom are 
non-religious, non-whatever the denomination--they were not 
hired for a religious purpose. Are you opposed to allowing them 
to take a pill or to get an IUD in cases where their lives 
depend on it and when we know that it could lower the risk of 
ovarian cancer?
    Chairman Issa. The gentleman lady's time has expired, but--
    Ms. DeLauro. I have 25 seconds left, according to my clock 
here.
    Chairman Issa. Actually, you are 29 over.
    Ms. DeLauro. Oh, I am sorry.
    Chairman Issa. No problem.
    But you may answer her question.
    Rev. Harrison. I would like to respond that our health plan 
will, in fact, cover contraceptives used for such health 
reasons.
    And let me also say, Martin Luther said one time, 
``Doctrine is heaven, life is Earth.'' I was an inner-city 
pastor for quite a while. Spent a lot of time in slums all over 
the world. And these ears of this pastor have heard every 
possible situation and malady of life you could ever imagine.
    We have principles that guide us as Lutherans. We know that 
those principles meet real life and the real lives of people 
are hurting, and we accommodate wherever we can. We are not 
rigid kooks. We care about people, and that is our business.
    Ms. DeLauro. And this rule accommodates women's health 
services as well as religious liberty.
    Chairman Issa. I thank the gentlelady.
    Ms. DeLauro. Thank you.
    Chairman Issa. Anyone else who wants to just answer her 
question briefly?
    Bishop.
    Bishop Lori. Sure. Let me just say that people who come to 
work for us, whether it is the diocese or Catholic Charities or 
a university, they are coming to be part of a mission. These 
things are not side businesses; they are part of our mission.
    And, second, our Catholic moral theology, as I have 
indicated, recognizes that the same drug can be used for 
different purposes with different effects, and our plans 
reflect that. So we should be given credit for the nuance and 
the understanding that we have already brought to the table. 
All the more reason for the government not to move in and try 
to force our hand now.
    Chairman Issa. So it is basically true, to the lady's 
question, all of you, to the extent that you are involved in 
health care, would provide health care for the reasons that did 
not go directly against your faith, such as the Bishop said.
    Ms. DeLauro. As this rule does not go against anyone's 
faith. It provides an accommodation--
    Chairman Issa. We now go to the gentleman from South 
Carolina for 5 minutes.
    Mr. Mulvaney. And I thank the chairman and the ranking 
member and the other members of the committee for the 
opportunity.
    I am not a member of this committee, and I do value this 
chance to ask very briefly, follow up on the question I was 
speaking on a few minutes ago, which deals not with the impact 
of this bill, not necessarily just the exemption, but the bill 
on men and women of religious conviction who own and operate 
businesses and have employees.
    And I encourage you gentleman, each of you, to consider 
that and when you leave here today to contemplate that, as 
well. Because that infringement of religious freedoms existed 
before the current discussion about the HHS rule and, even 
assuming a satisfactory resolution of religious exemptions for 
religious organizations, will exist after that resolution.
    Men and women of religious conviction were put in this 
position at the very initial passing of this law, and even if 
religious organizations are ultimately exempted in a way that 
you gentlemen would find acceptable, I would put it to you that 
members of your congregations will still be similarly situated, 
and still be put in the same condition.
    That being said, and finally, I have a request, 
specifically directed to Your Excellency Bishop Lori, but also 
to the rest of you gentlemen as well. There were various 
organizations that I felt were very accurately described today 
by colleagues on the other side as having supported bits and 
pieces or all or part of this legislation when it was 
originally debated several years ago. And I would encourage 
each of you to consider the possibility that using a secular 
Federal Government to help advance religious principles, 
regardless of how admirable they might be--I'm familiar with 
the Catholic social justice teaching and doctrine, but to use 
the Federal Government to accomplish those things may in both 
the short run, as we are learning today, and in the long run be 
unwise. And to paraphrase many politicians, many great thinkers 
from the beginning of this country up to recent times, I would 
suggest to you gentlemen, all, that the Federal Government that 
is big enough to give to you all of the social justice that you 
pursue is also big enough to take from you all of the religious 
freedoms that you have.
    And with that I yield back, and I thank the chairman.
    Chairman Issa. Would the gentleman yield?
    Mr. Mulvaney. Happily.
    Chairman Issa. As we come to a close, I don't want to 
extend the time any further. I just want to sort of give you 
one opportunity, because there was an allegation that we were 
conducting a sham from this side of the dais. I will deal with 
that one in my own way, but your comments on the opportunity 
you have had today, and whether or not the committee has been 
fair to your opportunity to have your views, and whether you 
would do it again if asked to come for a similar hearing.
    Basically, do you think this was a sham relative to your 
side of the dais? Bishop.
    Bishop Lori. Mr. Chairman, I thank you for the opportunity 
to testify.
    I'd just say that I bring to the table a commitment to 
religious freedom and to the church's social teaching that goes 
well beyond the next election cycle. If there is one thing the 
Catholic Church can do, it can sort of think for the long haul. 
We are a long-haul church, and what we recognize is that if the 
principle of religious freedom is breached now, it's not going 
to be around for the long haul. That's why I'm here. That's why 
I got up at 3:15 this morning.
    Chairman Issa. Before anyone else answers, I do have to put 
my plug in. I have no bishops. I'm not a Roman Catholic. My 
sister Peggy, at Siena Heights College in Adrian, Michigan, 
would feel that it was appropriate that you know what a great 
job that Catholic University did in at least getting me to this 
limited position I now hold.
    Anyone else want to comment?
    Mr. C. Ben Mitchell. Mr. Chairman, religious liberty is not 
a partisan political issue, in my view. It is the foundation of 
liberal democracy grounded in human dignity in the image of God 
and humanity. Therefore, I will happily, as the bishop said, 
get up at 3 a.m., if necessary, and defend the principle of 
religious liberty and freedom of conscience before a Republican 
audience, a Democratic audience, or an Independent audience, or 
anyone else. It is who I am. It is my committed belief, and I 
believe it should be protected.
    Chairman Issa. Rabbi.
    Rabbi Soloveichik. Chairman Issa, I thank you for having us 
all here today. The notion that we are here to push a political 
agenda could not be more untrue.
    I would just note, one of the Representatives referred to 
the icons being held up as Democratic icons. I just want to say 
as a religious American, as an American, and as an American 
clergyman, that someone like Martin Luther King, Jr., is not a 
Democratic icon or a Republican icon; he is an American icon, 
and that's because we all as Americans care about liberty and 
equality as the two great pillars of what America is all about.
    You asked, would we come here again? I would certainly come 
here again, but I hope that I don't have to, because--not 
because we haven't enjoyed your hospitality, but because I hope 
that the administration realizes that they have made a mistake, 
and that they return us as a country to the principles of 
liberty that has guided this country for hundreds of years.
    Chairman Issa. Thank you.
    I want to thank all of you. We are going to quickly take a 
recess and set up for the next panel, and many of them are now 
on short fuses. So thank you all. We will be back in about 3 
minutes.
    [Recess.]
    Chairman Issa. We will now hear testimony from our second 
panel of witnesses. And with that, I would note that Professor 
John Garvey is president of Catholic University of America. And 
because we have run quite late, we will be taking his 
testimony, then if there are any specific questions for Mr. 
Garvey, we will take them out of order, then Mr. Garvey will 
remain as long as he can as the other panel go through their 
testimony. This is an accommodation that I hope you all 
understand.
    And our second witness will be introduced by the gentleman 
from North Carolina.
    Mr. McHenry. Thank you, Mr. Chairman.
    Dr. William Thierfelder is the president of Belmont Abbey. 
He is the 20th president of my alma mater, having served in 
that capacity since 2004. He is a licensed psychologist; had a 
distinguished career not only as an NCAA Division I athlete, 
but an Olympian. He and his children live in the suburbs of 
Charlotte in Gastonia, my hometown, and, most importantly, he 
is the husband of--to Mary. And so I'm very proud that he is 
here today, and thank you for the work that you have taken on 
at Belmont Abbey.
    Chairman Issa. There is an advantage to having a detailed 
introduction.
    With that, we recognize also Dr. Oliver, who is president 
of East Texas Baptist University. I'm sure there will be other 
alumni there.
    Dr. Garrett is senior vice president of the academic 
affairs at Oklahoma Christian University, previously mentioned.
    And Dr. Laura Champion is medical director of the Calvin 
College health services.
    And is Barry Lynn here? Barry Lynn was invited by the 
committee; apparently is not here. Would you please remove the 
name?
    And with that, pursuant to the rules of the committee, we 
will swear in our second panel. Would you please rise to take 
the oath, and raise your right hands.
    [Witnesses sworn.]
    Chairman Issa. Let the record indicate all witnesses 
answered in the affirmative.
    Please take your seats, and as previously announced, Mr. 
Garvey, you are up first.

     STATEMENTS OF JOHN H. GARVEY, PRESIDENT, THE CATHOLIC 
   UNIVERSITY OF AMERICA; WILLIAM K. THIERFELDER, PRESIDENT, 
  BELMONT ABBEY COLLEGE; SAMUEL W. ``DUB'' OLIVER, PRESIDENT, 
 EAST TEXAS BAPTIST UNIVERSITY; ALLISON DABBS GARRETT, SENIOR 
    VICE PRESIDENT FOR ACADEMIC AFFAIRS, OKLAHOMA CHRISTIAN 
UNIVERSITY; AND LAURA CHAMPION, M.D., MEDICAL DIRECTOR, CALVIN 
                    COLLEGE HEALTH SERVICES

                  STATEMENT OF JOHN H. GARVEY

    Mr. Garvey. Thank you very much, Mr. Chairman, and thanks 
to the committee for inviting me to speak here today. I am the 
president of Catholic University of America.
    Let me say a couple of words about the January 20th final 
regulation that the Department of Health and Human Services has 
promulgated, and then a word or two about the February 10th 
revision.
    On January 20th, HHS announced a rule that requires most 
health insurance plans to cover with no copay sterilization 
procedures and prescription contraceptions including pills that 
act after fertilization to induce abortions. The rule includes 
a fairly narrow exemption. It doesn't cover colleges and 
universities like my own. It doesn't cover religiously 
affiliated hospitals and health care systems, or religious 
social service organizations like Catholic Charities.
    Consider the effect that this rule has on the Catholic 
University of America, my institution. We teach our students in 
our classes that marriage is a sacrament in which spouses share 
in the creative work of God. We teach that it is wrong for 
couples to close themselves off to the possibility of life. We 
teach that abortion is a grave wrong, and we reinforce these 
messages in the work of student life and in campus ministry, in 
our student organizations, and in the daily interactions of 
faculty and staff with students.
    The rule forces the university to violate its convictions 
in two ways. First, it requires the university to pay for drugs 
and procedures that we view as morally wrong. A few minutes ago 
the Congressman from Illinois referred to a provision in 
Jefferson's bill for religious liberty. Let me quote again what 
Jefferson said. Jefferson said that, ``it was sinful and 
tyrannical to compel a man to pay for the propagation of 
opinions which he disbelieves.'' How much more evil to compel 
financial support for putting those opinions into practice? The 
regulations order Catholic University to become the provider of 
contraceptives, sterilizations and abortions for its students, 
faculty and staff.
    Second, the rule forces us to deny one part of our 
operation what we affirm in another. We teach our students in 
our classes, in our sacraments, and in the activities of 
student life that sterilization, and contraception, and 
abortion are wrong. The rule requires our staff to offer these 
very services to our students as part of our health insurance 
program. It makes hypocrites of us in our moral teaching.
    In response to widespread criticism of the rule, the 
President last week announced a scheme that was designed to 
allay concerns about religious freedom while still providing 
the same services to all women affected by the final rule. The 
proposed solution is this: When religious institutions like 
Catholic University object to including mandated services in 
their health plans, our insurance company will provide them.
    It's hard to see how this revision changes the picture. 
Greg Manchu, an economics professor at Harvard University, 
makes this observation: Ultimately, he said, all insurance 
costs are passed on to the purchaser. So I cannot see how the 
February 10th revision is different in any way from the final 
rule other than using slightly different words to describe it.
    In both cases the Federal Government orders us to buy an 
insurance policy. In both cases the policy must cover mandated 
services. In both cases we pay the bill. The only real change 
is that the insurance company, rather than the university, 
notifies subscribers that we cover contraceptives.
    The administration suggests that there is a difference 
because insurance companies will discover that their costs 
actually go down. Wider contraceptive use will mean fewer 
pregnancies and lower indirect costs like productivity losses. 
If there are no added costs, the implication is, Catholic 
University won't really have to pay for the mandated services.
    What if I called this the shazam theory? It resolves the 
intrusion on religious liberty by making the compelled 
contributions magically disappear. But there are two problems 
with the theory. One, I suspect that the proposed cost savings 
are imaginary and not real. We do know that mandated services 
have a cost. Senators Shaheen and Murray and Boxer have 
estimated the cost of contraceptives alone at $600 per woman 
per year. These costs will certainly be included in the price 
of our insurance policy. The insurance companies haven't 
hesitated in the past to cover the cost of things like gym 
memberships that actually do save money. They haven't done this 
yet with contraceptives. Maybe they haven't yet discovered the 
hidden savings in the administration's shazam theory. But I 
worry that this is a case where politicians have made a bet 
that they cannot with the private market, and the stakes they 
are playing with are our religious freedom.
    I said there were two problems, and the second one is this. 
From a moral point of view, the cost savings don't really 
matter even if they are real. Suppose, just to take an extreme, 
an imaginary example, the administration believably could 
reduce overall health care costs by covering infanticide by 
young mothers who found their children a burden. And suppose 
that HHS devised a plan under which the necessary drugs would 
be charged to Catholic University's account. Would we have no 
moral objection to that plan if the government could show that 
it saved us money? The point is that we shouldn't be forced to 
pay for activities and processes that we think are immoral.
    I think a more likely explanation for the rule is that HHS 
is acting on a political agenda about how women should live 
their sex lives. The February 10th announcement discloses this 
agenda in fairly plain terms. Here is what it says: ``A broader 
exemption,'' the announcement states, ``would lead to more 
employees having to pay out of pocket for contraceptive 
services, thus making it less likely that they would use 
contraceptives, which would undermine the benefits described 
above.'' HHS might wish to increase the rate of abortions and 
sterilizations and contraceptive use by students and employees 
at the Catholic University of America. It has shown a desire to 
conscript the university and its insurer in the service of that 
agenda. But it is our religious belief that these activities 
are wrong, and we think that a decent respect for the principle 
of religious liberty should leave us free to act on our belief.
    Thank you.
    [The prepared statement of Mr. Garvey follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.056
    
    [GRAPHIC] [TIFF OMITTED] T3614.057
    
    [GRAPHIC] [TIFF OMITTED] T3614.058
    
    [GRAPHIC] [TIFF OMITTED] T3614.059
    
    [GRAPHIC] [TIFF OMITTED] T3614.060
    
    [GRAPHIC] [TIFF OMITTED] T3614.061
    
    Chairman Issa. Thank you, and as promised, I will recognize 
myself. I'm only going to take 1 minute.
    Just to review. If you--if you save money by some procedure 
that you find morally wrong within the teaching of your church, 
you still wouldn't do it.
    Mr. Garvey. We certainly wouldn't.
    Chairman Issa. And if the government determines there is 
money savings by this procedure, you, in fact, shouldn't be 
forced to do it on behalf of saving the government money.
    Mr. Garvey. The Catholic Church is not alone in teaching 
and believing that it is wrong to do an immoral act in order to 
save money or achieve some other desirable end.
    Chairman Issa. And the previous panel said, basically, 
Caesar can do it if Caesar wants to; just don't have us do it 
for Caesar. So, let me just ask the question. Since Planned 
Parenthood receives huge amounts of money, contraceptions are 
given out at Federal and State level at no cost to people 
regularly, hasn't government already, under the Secretary's 
auspices, determined that they are giving out contraceptions? 
I'm not going to talk about all of the procedures, but 
contraceptions. They already give it out at government expense 
to people who apply for it in most, if not all, areas. So in 
other words, the Secretary's $600 saves money. She is already 
doing that with government money, isn't she?
    Mr. Garvey. The controversy that we are discussing today is 
sometimes presented as a conflict, or a contest, or a dispute, 
or a weighing of the rights of religious liberty on the one 
hand, and the rights of reproductive freedom on the other hand.
    Chairman Issa. Yeah, but I was--
    Mr. Garvey. Let me emphasize that our objection--we are not 
here objecting to the fact that--I mean, women who attend 
Catholic University are still free and able to purchase 
contraceptives and these other services. The fight is about 
whether we should have to pay for it.
    Chairman Issa. Well, exactly, but you already pay for it 
through your taxes. We all pay for it through out taxes if 
government gives it away. The fact is that government is 
already doing something that this rule is telling you to do, 
even though it is objectionable to your basic tenets of faith; 
is that right?
    Mr. Garvey. I think so.
    Chairman Issa. Thank you.
    Anyone else have questions for our first witness? He is 
going to remain as long as he can.
    Go ahead, Mr. Cummings.
    Mr. Cummings. Just one question. President Garvey, is your 
objective to the payment, or the fact that an employee or 
students are receiving these services at all, or both?
    Mr. Garvey. We are here today because we object to the 
second, not the first. There are other ways of solving this 
problem, and we might very well object to them. For example, 
here is--here is a solution that doesn't interfere with our 
religious liberty. The government itself could provide these 
services to young people and to employees at no cost to either 
us, or the employees, or our insurer. We would object to that 
as well, because we believe as a Catholic university that it is 
part of our concern to attend to the moral formation of our 
students, but that's not an objection about our religious 
liberty.
    Mr. Cummings. Okay. All right.
    I just wanted to enter into the record, Mr. Chairman, a 
list of Catholic schools in 20 different States that currently 
offer some form of health care insurance for contraceptives.
    Chairman Issa. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.062
    
    [GRAPHIC] [TIFF OMITTED] T3614.063
    
    [GRAPHIC] [TIFF OMITTED] T3614.064
    
    [GRAPHIC] [TIFF OMITTED] T3614.065
    
    [GRAPHIC] [TIFF OMITTED] T3614.066
    
    [GRAPHIC] [TIFF OMITTED] T3614.067
    
    Chairman Issa. Mr. Quigley. You had a quick question.
    Mr. Quigley. Sure. In the previous panel, Doctor, the 
question was, there is also legislation that we are discussing 
that would take this exemption to all private-sector employees 
as well. Would you--do you support that? I mean, do you believe 
that the private--if an employer of a large corporation, the 
owner of a large corporation or a small one, has the same moral 
objections that you do, do you think that we should be able to 
force them to provide contraception?
    Mr. Garvey. First of all, Congressman, I appreciate the 
promotion. I'm not a real doctor. I'm a lawyer.
    Mr. Quigley. I'm sorry. I can't--I can't see the signs from 
here. I apologize.
    Mr. Garvey. Would I take the same position with respect to 
private institutions' or private employers' religious 
objections? Yes, I would. That would leave us in no worse 
position than we are before the passage of the regulation, and 
I think that private individuals and not just churches and 
religious institutions have rights of religious freedom.
    Mr. Quigley. So, the question comes, how far do you take 
that? To those other people's--we represent people of all 
faiths. Many disagree with this, and they believe that 
contraception is perfectly okay. At what point do you lose 
control over them that--you know, besides perhaps an assistant 
professor's wife that is employed? What part of the bargain is 
there for all manners of university toward this end? Never 
mind--never mind in the private sector. How far do you go with 
your beliefs influencing millions of other women?
    Mr. Garvey. That is a--that's a really important question, 
Congressman. And let me suggest that this body has provided the 
perfect answer to that question. When you passed the Religious 
Freedom Restoration Act, you said that rights to religious 
freedom should not be indefeasible; that there are some 
occasions when they have to yield. But what the government has 
to show in order to defeat a claim of religious liberty is that 
the government has a compelling interest in doing what it's 
doing, and that they are employing the least restrictive 
alternative to interfere with the religious freedom. And the 
Religious Freedom Restoration Act that I'm referring to applies 
to private employers no less than religious institutions.
    Mr. Quigley. But in the end someone has to make that 
choice.
    Mr. Garvey. Yes, they do. Congress has made that choice for 
us.
    Mr. Quigley. And I understand, but we make these choices 
all the time, and some of them are difficult. I mean, some of 
them are obvious. I have the example of this Louisiana justice 
who refused to marry interracial couples because, as he said, I 
found out I can't be a justice of the peace and have a 
conscience. That was his belief, his heartfelt religious 
belief, however horribly misguided.
    We said today a minority even of one matters, and we can't 
trample their religious beliefs, you know. Where do we draw the 
line with someone like this? Where do we draw the line with 
others whose faith is just as important to them, Christian 
Scientists and others who don't believe--and other groups that 
don't believe in transfusions, you know? If they have a health 
care clinic, or a hospital, or other faith--it just seems so 
out of sync for us to imagine that that would be okay. But if 
you follow the same stream of thought, there is really not that 
much difference from what you are professing today; projecting 
your faith, which I deeply appreciate and respect, on others, 
millions of women who have some right to make those choices 
that don't actually work in the church.
    Mr. Garvey. Let me just say one more time, Congressman, 
that we are not trying to impose our beliefs on our employees 
or our students. The question that we are discussing is whether 
the university should have to pay for activities that it views 
as immoral.
    Chairman Issa. Thank you. And it is going to be a full 5 
minutes for Members later.
    Do you have something briefly? Please, go ahead. The 
gentleman is recognized.
    Mr. McHenry. I, like the chairman, I actually have just a 
couple of briefs questions.
    Mr. Garvey, what's the name of the institution where you 
serve as president?
    Mr. Garvey. The Catholic University of America.
    Mr. McHenry. And what church are you affiliated with?
    Mr. Garvey. The Catholic Church.
    Mr. McHenry. Okay. And when employees seek employment from 
your institution, are they aware that you are affiliated with 
the Catholic Church?
    Mr. Garvey. Yes, they are. As part of the--as part of the 
hiring process in the first place, before somebody is hired, we 
have a discussion about the mission of the university. As part 
of the intake of new employees in the human resources 
department, we give them a statement of the university's 
mission, and they need to check off that they have--that they 
have received it and actually support the mission of the 
university.
    Mr. McHenry. And you adhere to the tenets of the Catholic 
Church?
    Mr. Garvey. Yes.
    Mr. McHenry. Okay. So my point here, Mr. Chairman, is a 
very simple one; that individuals seeking employment from the 
Catholic University of America go in understanding the tenets 
of the church, and, therefore, the adherence that the 
institution must, you know, follow, and the tenets the 
institution must follow, and so if they don't like that, if 
they choose to go somewhere else regardless of their faith, 
they have that free will to do that.
    And so with that, I yield back.
    Chairman Issa. I think the gentleman--I would gather that 
the rules of the Catholic Church are not new or unknown to 
others, and I think you said that very well.
    With that, we will continue on with our witnesses.
    Doctor.

              STATEMENT OF WILLIAM K. THIERFELDER

    Mr. Thierfelder. Yes. Members of the committee----
    Chairman Issa. Did you get the mic?
    Mr. Thierfelder. Thank you. Sorry about that.
    Chairman Issa, Ranking Member Cummings, members of the 
committee, my name is Dr. Bill Thierfelder. I am the president 
of Belmont Abbey College, and I greatly appreciate you taking 
the time to listen to my really grave concerns about this 
health thing and service mandate.
    Maybe to better understand who we are and why this issue of 
religious liberty is so important to us, let me just begin with 
the first sentence of our vision statement, which says: Belmont 
Abbey College finds its center in Jesus Christ. Our mission is 
to educate students in the liberal arts and sciences so that in 
all things God may be glorified. In this endeavor we are guided 
by the Catholic intellectual tradition and the Benedictine 
spirit of prayer and learning. Emphasizing Benedictine 
hospitality, we welcome a diverse body of students, and we 
provide them with an education that will enable them to lead 
lives of integrity, to succeed professionally, to become 
responsible citizens, and to be a blessing to themselves and 
others.
    Our Benedictine tradition, which is guided by the rule of 
St. Benedict, which is really a scripturally based guide for 
how to live in community with one another, chapter 53 of that 
guide is on the welcoming of guests. We welcome each guest in 
persona Christi, as Christ, and we do that regardless of 
someone's faith or background. We say, come on in. We love you. 
That's who we are.
    If you have never seen our campus, I, first of all, would 
invite you all to come. And I would love to have you over, and 
have a cup of coffee, and get to know you better. But if you 
have been to our campus, it's beautiful. You will see the red 
brick, Gothic-structured buildings that are there. And when 
those monks first arrived there almost 136 years ago, there was 
nothing on that property but two shacks with holes in the 
roofs. Those monks literally dug up the red clay, formed them 
into bricks, dried them in the sun, and placed those bricks 
there over 130 years ago. So this integration of our faith and 
the mission of the college, is even more visible when you just 
see the buildings, the layout of the campus itself.
    When you drive up the main drive, we have a basilica, which 
is our church. By the way, some of that funding came from St. 
Katharine Drexel. That church is actually connected to the 
monastery where we have the monks that live at Belmont Abbey. 
Connected to the monastery is actually the main administration 
building where my office is. So to demonstrate here that our 
integration, the sense of who we are as Catholic, and our 
mission as a college can't be separated. It's essential to who 
we are.
    And now our struggle for religious liberty really began in 
earnest about 4 years ago when we were investigated for 
discrimination by the EEOC because we did not provide abortion, 
voluntary sterilization and contraceptives in our health care 
plan. When the mandate was announced, we had a heightened 
sensitivity to this issue because we viewed it as really 
another tactic, in this case maybe an extreme tactic, to coerce 
us into providing services that we find morally objectionable.
    Abbot Placid Solari is the head of the monastic community. 
He is also the chancellor of Belmont Abbey College. He and I 
meet regularly. We speak all the time about matters of the 
college, and so when this came up, we obviously discussed the 
mandate when it first came out in August. And really at his 
urging and leadership we both agreed that the best course was 
to take a defensive action by filing a lawsuit against the 
Federal Government, which was no, you know, small thing for a 
little place like Belmont Abbey College to do, but we thought 
that was what we needed to do at that time based on our 
experience.
    We presented the idea to the board of trustees, who 
unanimously approved the action, and with the help of the 
Becket Fund for Religious Liberty, we filed a lawsuit against 
the Department of Health and Human Services. The response of 
Kathleen Sebelius was somewhat bewildering to us. We could not 
figure out what a year extension had to do with the issue that 
we were faced with. Basically no amount of time would make the 
morally objectionable mandate somehow acceptable to us.
    Then, most recently, the President held a press 
conversation to offer what I believe was a fatally flawed 
compromise. The reason I say this is that the President does 
not have the right or the authority to take away someone's 
religious freedom. And therefore, when talking about or 
offering a compromise, I don't understand how he can give back 
something that he had no right to take in the first place.
    So in this particular case, we specifically do object to 
being coerced into providing contraception, sterilization, and 
abortion-inducing drugs into our health care plan. But make no 
mistake, as important as those are to us, the underlying 
principle here is about our religious liberty. I believe you 
will discover that there are tens of millions, if not more, of 
Americans of all backgrounds and all faiths who are thinking 
just like we are, and I believe that they will not budge an 
inch on this issue.
    I think there can be no compromise when it comes to our 
right to religious freedom and right to conscience, and so I'm 
here today to ask for your help. This is an issue worth dying 
for, and many have. Many have made the ultimate sacrifice in 
order to preserve this right. So please ensure that every 
American's right of conscience and religious freedom is fully 
protected.
    Thank you for considering my plea, and God bless you and 
all of your good work.
    Chairman Issa. Thank you.
    [The prepared statement of Mr. Thierfelder follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.068
    
    [GRAPHIC] [TIFF OMITTED] T3614.069
    
    [GRAPHIC] [TIFF OMITTED] T3614.070
    
    [GRAPHIC] [TIFF OMITTED] T3614.071
    
    Chairman Issa. Dr. Oliver.

             STATEMENT OF SAMUEL W. ``DUB'' OLIVER

    Mr. Oliver. Good afternoon, Chairman Issa, and Ranking 
Member Cummings. I appreciate your invitation to share my 
concerns about the serious threat to our religious liberty. My 
name the Dub Oliver, and I serve as the president of East Texas 
Baptist University, a Christ-centered university founded in 
1912.
    I would like to raise four main points during my testimony 
today. First, East Texas Baptist University has a religious 
objection to this mandate, and this mandate violates our 
constitutional rights. Baptists in America, by virtue of our 
history, are particularly sensitive to coercive government 
actions that infringe upon our religious liberty. America's 
first Baptist leader Roger Williams had to flee Massachusetts 
and found a colony in Providence, RI, because his religious 
beliefs were not tolerated.
    But it is not just about us. Baptists are alarmed whenever 
any religious group's rights are threatened. As the famous 
Baptist preacher George W. Truett once said: ``A Baptist would 
rise at midnight to plead for absolute religious liberty for 
his Catholic neighbor, for his Jewish neighbor, and for 
everybody else.''
    I would be testifying here even if this mandate only 
affected my Catholic neighbors, but I must point out that this 
is not just a Catholic issue. While many Christians do not 
share the Catholic beliefs against contraception, there is wide 
agreement that abortion is wrong. And we believe, based on the 
Bible, that life begins at conception. The administration's 
mandate covers emergency contraceptives such as Plan B, and 
Ella, which even this administration admits interfere with the 
human embryo. Our faith and the most recent science tells us 
that these drugs cause abortions, but under the 
administration's mandate, my university will be required to buy 
insurance so that our employees can obtain these drugs for 
free, as if there is no difference from these drugs and 
penicillin. We believe that is wrong.
    Second, we are offended that this administration says that 
we aren't religious enough to have our religious beliefs 
respected. Last Friday the administration gave final approval 
to a rule that includes the narrowest definition of a religious 
organization ever to appear in Federal law. ETBU does not 
qualify because we teach and serve non-Christians. We accept 
students of all faiths and students of no faith. The President 
has now promised that he will someday propose another 
regulation that will protect groups that the government says 
aren't religious enough for an exemption, but are religious 
enough for some accommodations.
    Why is the government creating different classes of 
religious groups and assigning each group different rights? 
That is not the government's job. The First Amendment is 
designed precisely to stop the government from this sort of 
picking and choosing.
    Third, this is not about women's health; this is about 
whether the government can get away with the trampling on the 
rights of religious organizations. It is ridiculous to claim 
that organizations like mine don't care about women's health. 
As far as I'm aware, no religious group objects to most of the 
preventative services in the mandate. In fact, we already cover 
preventative services, including contraceptives, under our 
employee health plan. We simply object to a few drugs which the 
government calls contraceptives because we believe they cause 
abortion.
    Additionally, I have heard it suggested that this mandate 
is necessary to increase access to contraception. The President 
said last Friday that close to 99 percent of women use 
contraception. I don't know if that number is true, but surely 
if the President is quoting this number, he knows there is no 
problem with access.
    The issue is not about women's health, it's about religious 
liberty. It is about whether government will force religious 
people and organizations to do something they believe is wrong. 
Everyone here wants women to have access to quality health 
care. What we are asking is that our religious views be 
respected.
    To close, perhaps the most frightening aspect of this 
entire episode for ETBU is that we have no idea where this road 
will end. Today the administration is trying to force us to 
provide our employees with abortion-causing drugs. What's next? 
If the government can force Catholic monks to dispense birth 
control, what can't the government do? If the government can 
decide that ETBU is not religious enough to have the right to 
religious liberty, what can't the government do? If this 
administration can just decide that religious beliefs are less 
important than its chosen policy goals, what can't it do?
    These questions are alarming, and that is why people all 
across the spectrum are joining together out of concern that 
this mandate threatens to erode one of our most precious 
rights, our religious liberty, guaranteed to us by the First 
Amendment. I urge this committee and Congress to ensure 
religious liberty for those of us at East Texas Baptist 
University and for all Americans.
    Chairman Issa. I thank you.
    [The prepared statement of Mr. Oliver follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.072
    
    [GRAPHIC] [TIFF OMITTED] T3614.073
    
    [GRAPHIC] [TIFF OMITTED] T3614.074
    
    [GRAPHIC] [TIFF OMITTED] T3614.075
    
    Chairman Issa. Dr. Garrett.

               STATEMENT OF ALLISON DABBS GARRETT

    Ms. Garrett. Chairman Issa and members of the committee, my 
name is Allison Garrett, and I'm the senior vice president for 
academic affairs at Oklahoma Christian University. I'm here 
today because of my support for religious liberty. I believe in 
the rights of institutions like Oklahoma Christian to decline 
to include in their health care plan items or services that are 
contrary to their religious convictions.
    Oklahoma Christian University is affiliated with the 
churches of Christ. As a university affiliated with this group 
of Protestant churches, we believe strongly in our right to 
practice our faith without interference from the government. 
While we believe that every person is to be in subjection to 
the governing authorities, we respectfully ask that you not 
force Oklahoma Christian to choose between following our 
sincerely held religious beliefs or violating Federal law.
    We oppose the administration's employer mandate requiring 
that all health insurance plans cover abortion-causing drugs 
for four reasons. First, covering abortion-causing drugs is 
objectionable to many employers and plan participants. We have 
no concerns about allowing our plan to cover contraception. 
Rather, our concerns deal with the coverage of abortion-
inducing drugs. The government should not force institutions 
like Oklahoma Christian to offer a health plan that covers 
abortifacients like Plan B and Ella. While our views differs 
from those of our Catholic friends regarding what our plans 
should cover, our views are exactly the same on whether the 
government should be able to require individuals or 
institutions to violate their religious beliefs. The answer to 
that is no.
    Second, the exemption is too narrow. As drafted, the 
exemption applies only to churches, synagogues and mosques. It 
is clear that it would not apply to religious institutions like 
Oklahoma Christian University and hundreds of similar religious 
colleges, universities, and other organizations. The exemption 
requires that an organization have the inculcation of religious 
values as its purpose. We teach our students not just to be 
proficient as engineers, or historians, or writers, but to 
approach their disciplines from a Christian world view. This is 
one of the reasons that I chose to leave a corporate career to 
work in Christian higher education. We incorporate our faith in 
everything we do at Oklahoma Christian, from daily chapel, to 
prayer before intramural athletic events, to service activities 
around the world, yet the exemption does not apply to us.
    The exemption's language is also too narrow because it 
applies only to the group health plan offered by religious 
institution to its employees. Universities typically offer a 
plan to students as well. The student plan is offered as a 
service to students who are no longer covered by their parents' 
health insurance plans.
    Third, reasonable alternatives to the employer mandate 
exist. Nothing about the administration's rule takes away 
women's rights to obtain contraceptives or abortifacients. This 
debate is not about whether women have the right to obtain 
these drugs; rather, this debate is about whether those who 
believe that contraceptives or abortion-inducing drugs that 
violate their convictions must be paid for by them. There is a 
vast difference between the right to make a purchase for 
oneself and requiring someone else to pay for it.
    Fourth, the President's announcement does not present a 
workable solution. The assurance of the administration that it 
would work with religious organizations that sponsor self-
funded plans in the coming days to reach a compromise is too 
little assurance on too great a matter. The President's 
announcement does nothing to alleviate the concerns of 
institutions sponsoring self-funded plans. In addition, the 
employer must still communicate with the insurance company 
regarding who is covered, applicable dates of coverage, and 
similar matters. In other words, the employer's involvement in 
arranging coverage of objectionable drugs is inescapable.
    Forcing employers to cooperate in offering drugs or 
services that they believe are morally wrong leaves these 
employers in the same moral quagmire as the original 
regulations. We ask that the administration and the Congress 
overturn these regulations because they infringe on our 
religious liberty.
    Thank you.
    Chairman Issa. Thank you.
    [The prepared statement of Ms. Garrett follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.076
    
    [GRAPHIC] [TIFF OMITTED] T3614.077
    
    [GRAPHIC] [TIFF OMITTED] T3614.078
    
    [GRAPHIC] [TIFF OMITTED] T3614.079
    
    Chairman Issa. Dr. Champion.

                  STATEMENT OF LAURA CHAMPION

    Dr. Champion. Good afternoon, Chairman Issa and the other 
members of this committee. Thank you for the mic. I appreciate 
your invitation to share my concerns about the contraceptive 
mandate.
    My name is Dr. Laura Champion, and I am the medical 
director and a practicing physician for health services at 
Calvin College, a private 4-year Christian college in Grand 
Rapids, Michigan. I graduated from the University of Washington 
School of Medicine in 1996, and I'm board certified in family 
medicine.
    Today I want to share my concerns with you as a person who 
has the responsibility to negotiate providing student insurance 
coverage and caring for students clinically. We are an 
institution whose religious character and mission is central to 
everything we are and everything we do. In order to understand 
our religious objection, you need to understand that we take 
seriously our faith commitments, including our holistic student 
health services.
    Since 1876, the Christian liberal arts college--this 
Christian liberal arts college in Michigan has built a sterling 
reputation for academic excellence, consistently ranked in the 
U.S. News and World Report as a top liberal arts college. It is 
one of only four colleges in the Nation to receive a Senator 
Paul Simon Award for Campus Internationalization.
    Calvin is fortunate to have a fully staffed health services 
department to serve the medical needs of our student body. We 
require that each student have health insurance to attend our 
school. We offer an affordable option for those students who 
enroll underinsured.
    Great care is taken in crafting a student health plan to 
ensure that it reflects the values and beliefs of Calvin 
College and the Christian Reform Church. This student health 
plan covers all preventative care at 100 percent, according to 
the medical definition of ``preventative care.'' We do not 
cover Ella or Plan B.
    In health services, our health services clinicians write 
prescriptions that include female hormone contraception for 
varying reasons, including the prevention of pregnancy. 
However, abortion-causing drugs are not prescribed, nor are 
they covered in our health plan. These agents are profoundly 
inconsistent with the belief system of our college and our 
religion. Requiring coverage of abortion-causing drugs is a 
direct violation to the spiritual and behavioral standards that 
Calvin College expects of ourselves and our students. It forces 
Calvin College to add these drugs to the formulary for our 
students, and it would violate our religious liberty.
    To teach one set of values and beliefs and then provide 
abortion-causing agents for students would lack integrity. We 
challenge our students to live out the values they believe. Our 
intent and purpose is that our entire faculty, staff, and 
students are living examples of believers trying to follow in 
the footsteps of Jesus Christ. We must ensure that our 
practices follow our belief.
    Now, even when Americans hold vastly different views in the 
sanctity of life, this mandate raises a point that should be 
examined by all: Does this country value religious freedom or 
not? Further, the mandate elevates contraception and abortive 
drugs to the level of preventative health care. They are not. 
Plan B, and Ella, should not be considered equivalent to cancer 
screening or vaccinations. Pregnancy is not a disease. This is 
a premise that I reject both religiously and medically.
    The recent White House accommodation purports that the 
President has the legal authority to recognize or deny 
religious liberty. As Christians, however, we believe that 
these rights come from God. And as U.S. citizens, we believe 
our Constitution affirms and guarantees religious liberties. 
There is a limit to what the government can do to compel us or 
not to do. In the particular matters of faith and conscience, 
it is in the best interest of all Americans of every 
ideological stripe that this limit, this line not be crossed.
    This is not about politics. This is not about 
contraception. This is not about depriving women of health 
care. Rather, this is personal. This is about my daily life as 
a physician, a Christian, and as the medical director. Will I 
be able to practice medicine within my belief? Will Calvin 
College be able to continue its historic tradition of living 
out faith as it teaches? The government that is of the people, 
by the people, and for the people should not force people to 
violate their conscience.
    Thank you, Chairman.
    Chairman Issa. Thank you.
    [The prepared statement of Dr. Champion follows:]

    [GRAPHIC] [TIFF OMITTED] T3614.080
    
    [GRAPHIC] [TIFF OMITTED] T3614.081
    
    [GRAPHIC] [TIFF OMITTED] T3614.082
    
    [GRAPHIC] [TIFF OMITTED] T3614.083
    
    Chairman Issa. I will recognize myself. And although--Mr. 
Garvey, you are a Ph.D.; is that right?
    Mr. Garvey. I wish I were, no. But I'm just--I'm a lawyer. 
So I have a J.D., but not a Ph.D. I didn't write a 
dissertation.
    Chairman Issa. Oh, my goodness, and we were telling people 
to treat you well here.
    Let me go through this very quickly, and I know you have 
heard I mean no disrespect on the first panel, so I will 
preface with that same thing. Jesus didn't practice here in the 
United States. He practiced in the Holy Lands. And Mother 
Teresa, although she visited, she didn't practice here in the 
United States. But as I understand correctly as to each of your 
institutions, if Jesus came with his disciples to the United 
States and paid any stipend whatsoever to his otherwise 
volunteers, he--because he administered to people who were, I 
guess, not Jewish, and there was no Christianity per se, and he 
didn't require that they embrace his view of everything in 
order to be healed or to be in any way administered to, he 
wouldn't qualify; he wouldn't qualify for this exemption, would 
he? Or, more importantly, Mother Teresa. She dealt with lepers. 
She wouldn't be qualified under this rule for an exemption 
because it certainly wasn't a church activity, even though it 
was compassion at its highest level.
    So let me reverse the question now that I have made the--
gone into ground perhaps beyond my training. If I understand 
correctly, each of the institutions you attend, if you fire 
everyone who is not of your faith and dismiss every student not 
of your faith, you would qualify for the exemption, wouldn't 
you? If you cloister yourselves only in one faith, closing off 
the opportunity to provide for all, you would qualify, wouldn't 
you?
    Mr. Garvey. No. I'm really sorry to say, but the exemption 
is even narrower than that.
    Chairman Issa. Oh, so basically--and so basically even if 
it is only your faith, if you are only teaching your faith, 
even if you are only working with people of your faith, and 
even if you only have in attendance people of your faith, this 
exemption is narrower than that?
    Mr. Garvey. That's right. It is narrower than that.
    There are two additional provisions. One is that our 
purpose has to be catechizing or inculcating precepts of our 
faith, and we do things besides that at our universities. The 
final and more important one is that we have to be one of those 
institutions, few in number, that are exempt under tax law from 
filing a Form 990, and that only applies to churches and 
synagogues, mosques, and religious orders.
    Chairman Issa. So I just want to understand, and the 
ranking member, I hope, wants to understand, so it's only the 
narrow definition of a church, or a mosque, or a temple defined 
specifically as a place of worship that's exempt; otherwise, 
it's not exempt----
    Mr. Garvey. Religious orders, priests and nuns.
    Chairman Issa. The convent would qualify.
    Mr. Garvey. And their integrated auxiliaries. It's a--it's 
fairly narrow. You have--you have the right idea.
    Chairman Issa. So I was raised in two separate faiths. My 
parents agreed that we would suffer twice, and it served me 
well, but my father was an orthodox Christian, and my mother a 
Mormon. So, you know, on Saturdays, we would go to the 
teachings of the faith for Mormons. That wouldn't qualify, 
because that wasn't actually a church service, but they were 
teaching us.
    At what point do we cross out of it? I just want to 
understand, have they limited the definition of religion to be 
only inside the sanctuary of the church itself? Is that 
essentially what we have?
    Mr. Garvey. Maybe the larger and more important point, as 
Bishop Lori was saying in this morning's first panel, one of 
the unfortunate things about the narrow definition of religion 
is that it seems to confine religion to something that happens 
in church when you are on your knees, and to ignore what all of 
our Christian and other religious institutions think are 
important.
    But let me just stick with Christian institutions. The 
living out of the beatitudes to feed the hungry, to give drinks 
to the thirsty, to clothe the naked, to visit the sick, those 
are things that are not considered religious activities, but 
they are the reason that most of our health care and social 
service organizations exist. And then to teach and spread the 
gospel to all nations is what our universities do.
    Chairman Issa. Well, now you came here as experts, 
physician and experts in the field, and that's why we invited 
you here. But let me ask just one sort of conjecture, or ask 
you to stretch a little bit.
    Ministers, priests, rabbis, clerics serve in our U.S. 
military for purposes of religious outreach. If I understand 
correctly, we are sort of saying, well, because it is not--
their activity would not be limited to just inside a church, 
but rather they counsel, they advise, they bring people solace, 
in fact, they go to the hospital and visit people as they are 
dealing with the wounds of war, this definition is designed to 
be sort of ``that doesn't count.'' That's not religion in this 
definition.
    Not related specifically to the medical procedures that our 
minority has talked about so endlessly, isn't this definition 
one that would begin to erode the very fundamental question of 
what is religious activity in America, and what is religious 
freedom?
    Ms. Garrett. There's no question of that. The Federal 
Government obviously has a great deal of experience in writing 
exemptions for religious activity. Unfortunately, this is the 
very narrowest definition that we have seen. And all of our 
organizations wrote to Health and Human Services when these 
regulations were proposed, letting them know either 
individually or through organizations with which we were 
affiliated about our grave concerns over this exceedingly 
narrow definition.
    Chairman Issa. Thank you.
    Mr. Cummings, I might hope that you could get some women 
onto your panel here to ask questions now that we have women 
they were asking for on the first panel.
    Mr. Cummings. Dr. Garrett, let me ask you, what did that--
you said you all wrote--what did you say? In other words, you 
wanted women--you heard Ms. DeLauro talk about her health 
issue, 25-year survivor of cancer. What did you all say with 
regard to trying to strike a balance that satisfies you?
    Ms. Garrett. We, through an organization, Council for 
Christian Colleges and Universities, with which Oklahoma 
Christian is affiliated, wrote both to Health and Human 
Services and then to the White House regarding our concerns 
about the exceedingly narrow definition, and also about the 
fact that these proposed regulations cover not only 
contraceptives, but also abortion-inducing drugs, and, of 
course, we wrote about our grave concerns over that.
    Mr. Cummings. And if someone wanted to have a--needed 
contraceptives, how do you--how do you deal with that then, I 
mean, if they wanted insurance with contraceptives in it; in 
other words, that the contraceptives were covered?
    Ms. Garrett. Well, at our institution we offer 
contraceptive coverage.
    Mr. Cummings. And so--so you had no problem with that?
    Ms. Garrett. Not with contraceptives. Our issue with 
respect to what is covered is with the abortion-inducing drugs 
like Plan B and Ella.
    Mr. Cummings. Doctor, you look like you wanted to say 
something. Did you? You were squirming a little bit.
    Mr. Thierfelder. Well, I----
    Mr. Cummings. I'm trying to understand exactly what the 
concern here is with the administration's policy. I understand 
that you do not want to pay for a service that you have moral 
objections to but you are not being asked to pay for.
    Studies show time and time again that expanding access to 
contraception is either cost neutral or saves money. According 
to National Business Group on Health, a nonprofit organization 
representing large employers on health policy issues, the cost 
of adding contraceptive coverage to a health plan is more than 
made up for in the expected cost savings. Likewise, when the 
Federal Government added prescription contraceptives to the 
Federal Employees Health Benefits Program, it found that this 
caused no increase in the government's premium costs. Actuaries 
that have studied this issue have concluded that providing 
contraception is cost neutral.
    Additionally, the administration's accommodation allows 
employees to go directly to the outside insurance company and 
avoid any interaction with the religious school or hospital 
itself. Under the accommodation, none of the institutions you 
represent would be required to provide coverage precisely 
because of the administration's respect for your religious 
beliefs. Why is the accommodation not acceptable?
    Mr. Thierfelder. Because I don't see it as being any 
different than the original mandate. In other words, we still 
have a contract with the health care plan, health insurer. The 
plan we have right now is that we can carve those out and say 
we don't provide those services; however, with this new plan, 
we would be forced to have an insurance provider that we would 
have to provide those services to our employees. You are saying 
we don't have to pay for it, but somebody is going to pay for 
it, and being that it is our insurance plan and our provider, 
we would be forced to pay them our premiums. They are going to 
then, supposedly for free, provide these services to our 
employees, and--but I don't see the difference between the two. 
In both cases our insurance provider would be covering it 
whether the mandate was the original one or we have this new 
exemption. RPTS COCHRAN DCMN HERZFELD [1:35 p.m.]
    Mr. Cummings. And if you did not see it in the premium, you 
still would feel you are paying for it; is that it?
    Mr. Thierfelder. Yes.
    Mr. Cummings. Dr. Oliver.
    Mr. Oliver. I would say additionally, Mr. Cummings, that 
many of us, like my institution, have self-funded plans so we 
are the direct provider. In that case there is no insurance 
company that can absorb that cost. It is directly paid by us. 
And as I mentioned in my testimony, we provide preventative 
health services for women, including contraceptives. We are 
opposed to abortifacients, including Plan B and Ella, which are 
required by this mandate.
    And I would further say in regard to the accommodation, 
with all due respect to the administration, they said that 
there was an accommodation, but the rule is exactly as it was 
published on August 1, 2011. Nothing is changed. There is just 
a promise that something will change in the future.
    Ms. Garrett. I would like to add one other wrinkle to this, 
and that is for all these employers, they will be required to 
be involved in some manner, because they must provide a list of 
who is covered as well as the applicable dates of coverage to 
the insurance company. So the involvement of the employers in 
assuring that women have access to the contraceptive and 
abortifacient coverage is inescapable.
    Mr. Cummings. Dr. Champion.
    Dr. Champion. I understand that when you are asking if we 
are no longer required to pay for it, if it takes it out of our 
clear conscience. And because I am specifically charged with 
the duty of designing and signing my name to the student health 
care plan at Calvin College, when you force me--when a mandate 
forces me to add in Ella and Plan B as part of our package, 
especially as a preventative package which would be 100 percent 
coverage, so we are responsible for managing that cost, those--
that my signature is completely in discord with my belief 
system. So even if the insurance company can promise that they 
are not going to increase our premium by adding this expensive 
medication to the plan, you are still asking me to breach my 
religious liberty.
    Mr. Cummings. Thank you very much.
    Mr. McHenry [presiding]. I thank the ranking member, and I 
recognize myself for 5 minutes.
    Dr. Thierfelder, thank you for being here today. I 
certainly appreciate your leadership of my favorite 
institution, my alma mater, Belmont Abbey, and I appreciate 
your leadership in these tough times for the institution and 
what you have taken the institution through, as well as the 
monks and Abbot Placid as well. So just a few basic questions 
just so we have this on the record.
    You are affiliated with a Benedictine institution.
    Mr. Thierfelder. A Benedictine monastery, Belmont Abbey, 
yes.
    Mr. McHenry. And as such, who is the decisionmaker about 
the tenets of the faith?
    Mr. Thierfelder. Well, the Abbot Placid as chancellor 
ensures that we are solid in terms of our mission. If you look 
at our articles of incorporation, the actual members of Belmont 
Abbey College, Inc., are the professed monks of Belmont Abbey.
    Mr. McHenry. Okay. So truly when you describe the campus 
with the monastery at the heart of it, that is the incorporated 
nature of it as well?
    Mr. Thierfelder. Absolutely. It is central to who we are. 
In other words, the college is their apostolate. They came 
here. They are living out their vocation through this 
apostolate called Belmont Abbey College.
    Mr. McHenry. Okay. And since your founding, you have 
educated and helped and assisted non-Catholics?
    Mr. Thierfelder. I haven't been here the whole time, but, 
yes, that is what the monks have always done extraordinarily 
well. They have always reached out. We are in Gaston County, 
and for those who don't know Gaston County, North Carolina, 
there is a high rate of unemployment, there is a great deal of 
illiteracy and so forth. We provide, I think, an invaluable 
service to our community. And our adult degree program is 70 
percent women. And if you looked at our total enrollment of the 
College of Belmont Abbey College, you may think because we are 
a Catholic College, we must be all Catholics there. Maybe about 
40 percent of all of our students are Catholic if you include 
the adult degree program.
    Mr. McHenry. But you are a Catholic institution?
    Mr. Thierfelder. Absolutely. And that is the whole point, 
and that is why this is so devastating to us because our 
mission to reach out. And as I said in my remarks, we welcome 
everybody as Christ. It is like, come on in, we love you. And 
so for us then to have to turn around and say somehow we can't 
welcome you in or you can't be a part of our community is just 
averse to who we are.
    Mr. McHenry. So, in essence, you are there as a result of 
the monks and the mission of the monks.
    Mr. Thierfelder. This was a call. I was not in higher 
education. I was in the private sector. I was in business. I 
was in sports medicine, sports law, and sports medicine and so 
forth. I came here, and so did my wife and my family, because 
we really believe we were called to be at this college, and 
that is why we are here is because of that commitment. And I 
came because there was a Benedictine monastery that had a 
college.
    Mr. McHenry. Okay. So basically what happens if this rule 
is put through? You are faced with a choice of either paying a 
$2,000 fine per employee----
    Mr. Thierfelder. Well, roughly right now for us the cost of 
this would maybe be about $300,000 a year that we would have to 
pay.
    Mr. McHenry. Okay. And so you would either have to pay the 
fine or act counter to your faith.
    Mr. Thierfelder. Which we can't do. I mean, we just will 
not violate our religious beliefs. So we will have to find a 
way, depending on what happens, to get through this. But one of 
them will not be in any way sacrificing our moral convictions.
    Mr. McHenry. So pay the $300,000 fine or simply close down 
the college?
    Mr. Thierfelder. Well, you hope it would never come to that 
extreme. My hope is that there would be intermediate steps. The 
unfortunate part would be if it came down to somehow limiting 
health insurance coverage or not being able to provide it in 
the same kind of way, I mean, that would be a terrible, 
terrible thing to do. I hope we would never come to that.
    I am confident that we won't come to that, because I think 
hearings like this are made to maybe make these things better 
known and have a discussion. And obviously there may not be a 
lot of discussion in here today, but I am sure people will be 
following this, as I followed it, and my hope is that people 
will see the truth in this and realize that we need to do 
something about this.
    Mr. McHenry. Okay. So just for the record, how political 
are the monks on campus, and how political has Belmont Abbey 
been in its 130-year tradition?
    Mr. Thierfelder. Not political at all. I mean, if you know 
Benedictine monks, they are very quiet, humble men that live 
and pray together; that that is not what their--their interests 
and their life is not about politics.
    Mr. McHenry. So you have just been called to action based 
on the actions of this administration and with the EEOC and now 
with the HHS mandate?
    Mr. Thierfelder. This is really--as I said, I respect what 
the ranking member, Congressman Cummings, had said. This 
shouldn't be adversarial. We are not trying to get anybody. We 
are not trying to enforce our beliefs on anybody. However, our 
beliefs are really important to us, and so all we are asking is 
that we are not coerced into violating our religious liberty.
    Mr. McHenry. Thank you, Dr. Thierfelder.
    Dr. Champion, you're the only medical doctor on this panel. 
So the President said if you like the health care plan you 
have, you can keep it. What do you say to that?
    Dr. Champion. Are you referring to the video we saw in the 
earlier panel?
    Mr. McHenry. Yes.
    Dr. Champion. Right. If I was sitting in that audience, I 
would have been applauding the President for his vision. But 
when we mandate our Christian colleges and institutions to 
include abortive-causing drugs into their plan, and they have 
to answer to a higher calling and choose to no longer carry 
that student health plan, then inevitably we are limiting 
health care to students by closing down those very campuswide 
health services that were previously providing excellent care 
to their students, and now the student no longer can pick her 
favorite doctor, which goes against both promises he made on 
that video.
    Mr. McHenry. Thank you.
    My time has expired. Mr. Amash is recognized for 5 minutes.
    Mr. Amash. Thank you, Mr. Chairman.
    I would like to thank all the witnesses for testifying 
today, but I would especially like to welcome Dr. Champion, who 
is here from Grand Rapids, Michigan, in my district, and from 
Calvin College, which is my wife's alma mater.
    Dr. Champion. You married well.
    Mr. Amash. Most of my friends went to Calvin College as 
well.
    Dr. Champion, can you give us an example about how you make 
decisions about the student health care plans at Calvin College 
and how the mandate will affect your current plan?
    Dr. Champion. Yes. So when I came to Calvin College this 
summer, I analyzed the student plan that was there. I learned 
that we charge $15 for every visit. We have phenomenal state-
of-the-art physicians doing evidence-based care, yet Calvin 
chooses to subsidize their care by limiting the cost, even 
though we have a student plan that we do bill at 100 percent 
when they come in for preventative care. This is because we 
really emphasize the value of being able to instill and educate 
and train.
    When I analyzed the current plan, it showed that if she 
needed to come in, for instance, for a sexually transmitted 
disease evaluation, we had to charge her $10 for a gyn exam, $5 
for a wet mount, and pretty soon the conversation for an 
underinsured student who didn't choose our plan would end up 
needing to be taken about the money relationship to the cost of 
care. So I redirected that fee in the next design plan to 
incorporate all of that in and redirect the visit toward the 
clinician's experience-guided evidence and not a discussion 
about cost. So by changing the plan in those very specific 
ways, I am able to be a good steward of the limited plan we can 
offer them.
    When I learned that we have to add abortative agents and 
expand the coverage to include surgical sterilization, I am 
aware that it substantially raises the premium because it does 
raise the risk, even if a 20- or 21-year-old student never 
requests a tubal ligation or vasectomy, because we have to add 
it into our plan.
    So there are financial reasons for me to be a good steward 
of the plan, but more importantly there are severe 
contradictions to my personal religious beliefs by adding Ella 
and Plan B into the plan.
    Mr. Amash. And you are the only medical doctor on the 
panel, so could you elaborate on why you are opposed to having 
birth control and abortifacients listed as preventative 
services?
    Dr. Champion. Right. Well, thank you for asking that, 
because this is really important to me.
    Preventative care defined by physicians has to do with 
anticipating future care by analyzing their past history. So 
you are asked your social history, your medical history, what 
age you are. We use your age to determine what your risk is. So 
a 50-year-old's risk for heart disease or colon cancer will 
help us help them determine which preventative care screening 
they need.
    When it comes to pregnancy, since it is not a disease, we 
are now treating a concern for the patient, which we actually 
move into a visit called diagnostic care. So the diagnosis is 
contraception counseling. We often will do it at our physical 
as a courtesy to her because she is so healthy, we don't want 
to make her come back. But it is actually not a preventative 
care service.
    Outside of that, Plan B and Ella are not preventative at 
all, because they are actually a result of behavior where she 
is purposely taking the medication to limit her risk for 
sustaining a pregnancy that may have started a day or 5 before 
taking the pill.
    Furthermore, when you talk about preventative care in a 
young woman, the U.S. Federal Government did give us new 
recommendations in December 2010. They did it under the CDC, 
and they asked physicians to step outside of whatever their 
Christian or other values are and to start speaking to patients 
about preventative care when it comes to STDs. And they have 
required or strongly recommended physicians to now ask patients 
to limit the number of lifetime partners and delay the onset of 
intimacy.
    Those guidelines from the Federal Government are well 
within preventative care measures, and I am happy to abide by 
them because they do follow my principles, but they are also 
scientifically based and show that you can minimize STDs by 
giving this recommendation preventatively.
    Mr. Amash. Does the President's so-called compromise make 
the mandate any less restrictive on your ability to freely 
exercise religious and conscientious beliefs?
    Dr. Champion. When the President spoke on Friday, I had a 
glimmer of hope that there was going to be an accommodation 
that perhaps broadened his definition. But he really doesn't 
have the right to decide the definition of when it is against 
my conscience. But what turned out to be in the written 
statement was no different than what he had presented us on 
August 1st of last year.
    Mr. Amash. Thanks so much.
    Mr. Lankford [presiding]. Thank you.
    With that, I yield to Mr. Murphy 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman.
    Mr. Chairman, I know that the chairman of the full 
committee is not here right now to answer this question, but I 
appreciate the witnesses' patience today. It has been a long 
day for both the committee, the staff and the witnesses. But we 
have been going round and round on this question of what the 
scope of this hearing is today and whether or not it is 
appropriate to have women who have been affected by their 
inability to get birth control, have been affected by their 
inability to get a full range of reproductive rights to have 
their voices here today. And I think the minority, Democrats on 
this committee, have tried every means possible to try to get 
that voice represented here today, and obviously we were 
astonished to find not a single female on the first panel.
    So, Mr. Chairman, I know you are not ultimately making the 
decisions, that you are sitting in right now for Mr. Issa, but 
there might be another way around this. We are having a hearing 
today that effectively limits the ability of women to present 
their case on why they deserve to have access to the full range 
of reproductive health care if we can't have somebody like 
Sandra Fluke testify today about her medical condition and why 
access to contraception is so critical to her health, if we are 
now approaching the last minutes of this hearing without the 
ability to hear the other side of this debate.
    There are two sides. I admit that there is a very important 
question about religious freedom, but is also a very important 
question about women's health care, and we have been told 
repeatedly today by Chairman Issa and others that this is not 
the time, this is not the day to debate that second question of 
the appropriateness of the rule granting women access to the 
contraception no matter where they work.
    Maybe there is one last way out of this, which is to 
schedule a second hearing, to have a second hearing that would 
allow us to focus on the question of whether or not we are 
jeopardizing women's health care by not having a strong rule in 
place to give them access to preventative health care services 
and reproductive health care services regardless of where they 
work.
    So I will pose the question to you, Mr. Chairman. Do you 
think that the majority would entertain the notion of convening 
a second hearing? I understand we probably might not even get a 
witness at that hearing. Maybe we would get one, maybe we would 
get two witnesses. But do you think that the majority would 
entertain the idea of convening a second hearing to focus on 
this question of the appropriate level of coverage----
    Mr. McHenry. Will the gentleman yield?
    Mr. Murphy. Certainly I would yield.
    Mr. McHenry. I would be happy to engage in this. But the 
title of today's hearing is ``Lines Crossed: Separation of 
Church and State. Has the Obama Administration Trampled on 
Freedom of Religion and Freedom of Conscience?''
    That was the question posed today about this hearing, not a 
question about your access or anyone's access to 
contraceptions. That is a completely different subject. When 
the chairman--I am sure the chairman would be happy to have the 
conversation with you about future hearings and getting your 
input on that.
    But I don't think there is any movement afoot in Congress 
to ban contraception. That is not what this is about. It is 
about forcing religious institutions with deeply held moral 
convictions to do something that is counter to their faith.
    And with that, since I have taken so much time, I would ask 
unanimous consent for 30 additional seconds for the gentleman.
    Mr. Lankford. Without objection.
    Mr. Murphy. Thank you very much, Mr. McHenry.
    I think once you have waded into this debate and 
selectively chosen to only talk about one side of it, which is 
the ability of a religion to decide whether or not they provide 
a basic range of health care benefits to their employees at a 
Catholic hospital or at a religious school, I think you have to 
talk about the second piece of the debate.
    I don't think you can choose as a committee, I don't think 
we should choose, to only discuss one side of the debate. We 
thought that that conversation should have happened today. We 
thought that at least one witness should have told the 
perspective of a woman struggling to get access to reproductive 
health care.
    But having failed in that effort, I think that we should 
have a second hearing. I know that we will have the deck 
stacked against us again, and I appreciate the gentleman for 
offering the fact that a discussion could certainly take place 
in the future. I think it would be incredibly important to this 
debate and to this committee to hear from women, to hear from 
women that are struggling with this problem on a daily basis. 
And if that can't happen today, then, Mr. Chairman, I would 
submit it should happen at a hearing in the future, hopefully 
within the next several weeks.
    Thank you, Mr. Chairman.
    Mr. McHenry. Mr. Chairman, a point of clarification. There 
are two individuals that are female on the panel here now, and 
I just want to make sure the record reflects such.
    Mr. Murphy. I think, Mr. McHenry, that is duly noted. But 
we have had nine witnesses. Two of the nine have been female. I 
don't think that accurately represents the debate that is 
happening in the public when you are talking about an issue 
relevant to women's health care. To have two of nine witnesses 
be females, I think, is offensive to the dialog that is 
happening in the public, and I think that we can remedy that if 
we come back and do this a second time on the issue specific to 
the health care concerns of the millions of women, the 99 
percent of women, in this country who have used or do use 
contraception.
    Mr. Lankford. With that, the gentleman's time has expired.
    I would be remiss if I didn't recognize, as I recognize 
myself for the next 5 minutes of questioning time, to be able 
to comment on that as well, Mr. Murphy.
    The topic today is on religious freedom. The issue that 
came up with this that the President stepped into the middle of 
was an issue of religious faith. This is not an issue of 
limiting, though I am quite aware that the media and that my 
friends on the Democrat side of the aisle are trying to make 
this into an issue to make conservatives look like they are 
barbarians at the gate trying to take away women's reproductive 
health. That is not the issue. That has been widely accepted. 
There are contraceptives available for free all over the 
country in many locations. Contraceptives are covered in most 
of the health plans in America.
    The confusing thing to the administration and to some 
individuals, and not saying Mr. Murphy is this way, is that 
people that have deep religious faith, their faith extends 
beyond the walls of the church. And to define you can have your 
religion as long as it is within the church building completely 
violates the principle of James 1:27, that true religion is 
this; that we watch out for the orphans and widows in their 
distress, and that we keep ourselves from being polluted by the 
world. That is a basic tenet of Christian faith.
    Mr. Murphy. Will the gentleman yield?
    Mr. Lankford. Let me finish, and I will try to yield you 
some time.
    To be able to say you can practice your faith in this 
building here, but if you extend out to taking care of the 
orphans and the widows in their distress, we are going to reach 
in as a government and define for you how you practice your 
religion. As I mentioned earlier in my earlier comments, the 
essence of this is can this administration or any future 
administration step into a church or church-based institution 
and say, I know your doctrine; I have a different doctrine; you 
will give in to my doctrine, or I will fine you? That is what 
occurred.
    Now, I understand the topic deals with something very 
controversial, but the essence of this conversation is can the 
Federal Government step into a religious institution and 
redefine their doctrine for them. The real issue is who defines 
the doctrine and religious teachings and religious practice of 
the church.
    I ask for unanimous consent for 30 seconds to give you an 
opportunity, and then I will finish up my questions.
    Mr. Murphy. Thank you very much, Mr. Chairman.
    Just to your first point, which is that contraception is 
widely available, and thus we don't need to have that 
perspective here and we don't need to have a second hearing, 
well, I don't think a bunch of guys, a bunch of men, on this 
committee should be making the decision as to whether 
contraception is available. And frankly, if you had allowed for 
Sandra Fluke to testify here today, she would have told you it 
was not available to her, that it came at considerable 
financial burden to purchase it on her own.
    So, again, I think we are getting to the root of this 
problem is that to have a woman's perspective, to have a health 
care consumer's perspective would be a lot more useful than for 
a bunch of males----
    Mr. Lankford. With that, I reclaim reclaim my time. And let 
me just mention this one thing to you as well on that. It has 
been interesting to hear the conversation about there should 
have been more women on the panel, and the folks that mostly 
said that are now gone when women are on the panel. There was a 
conversation there should have been some physicians on the 
panel. Now that there is a physician on the panel, most of the 
folks that raised that issue are now gone and not participating 
in the conversation. So I understand that.
    The issue gets to the core still: Can the Federal 
Government reach into a church or religious institution and 
define for them their doctrine? There is nothing in currently 
how this is being practiced from not continuing to press 
forward. Let me give you a good example of that.
    ``The Secretary shall make these decisions'' opens it up 
that within a year or two to say, currently we are forcing all 
these different providers to provide abortifacients, 
contraceptions and sterilizations for free. Under the guise of 
full range of reproductive rights, there is nothing to stop the 
Secretary from stepping in 2 years from now and saying, now all 
institutions will cover abortions, the procedure, for free.
    There is nothing in this that restrains that, because it is 
not the Federal Government paying for it. So you'd say, well, 
the Hyde Amendment would prevent it. No, this is stepping in 
and saying those insurance companies will provide it for free. 
So we will step in between the contract between a religious 
institution and the insurance company that they have contracted 
with and say, we will redefine the contract for you, because I 
know you are religious, and you don't know enough to know this 
is right, but we are going to tell you this is the right thing 
to do, and here is your new faith. Your new faith is you cover 
these things because it is the right thing to do. Your new 
faith will be that you will cover abortions in some future day 
because that is the right thing to do to give the full range of 
reproductive health.
    You could say that is some strange conspiracy, but quite 
frankly, we just watched the Catholic bishops lose a contract 
for taking care of human trafficking after they had 
tremendously high scores for one reason: They would not 
encourage abortions. Nothing covered abortions for them. They 
would not say to the people they were taking care of, there is 
a place to go get an abortion. And because they won't do that, 
they lost the contract.
    This is a religious issue, and it is one of these things 
that I understand when you are with your own party, you look at 
that administration and want to help protect him and deflect 
the issues. Long term this has serious consequences regardless 
of who is the President at some future day; what is the role of 
the church in that.
    With that I would be very honored to thank you for coming 
and sharing of your own time and your own backgrounds and 
submitting your statements and doing that. My time has expired.
    Mr. Davis is recognized for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman, and I also 
want to thank the witnesses for being here and being a part of 
this discussion.
    Since Ms. Fluke was not given the opportunity to testify, I 
am going to read what her testimony would have been. She is a 
third-year student at Georgetown Law School that we requested. 
Here is what she would have said had she been here.
    ``A year ago, my friend from law school had to have her 
ovary surgically removed as a result of Georgetown's refusal to 
cover contraceptives. My friend choose Georgetown Law because 
of its commitment to public service, its location and a 
generous scholarship the school had awarded her. She wasn't 
aware that Georgetown's student health insurance doesn't cover 
birth control, but she is gay, so it wasn't a big concern.
    ``During law school, my friend was diagnosed with a 
syndrome that causes painful cysts to grow on one's ovaries. 
The treatment for the syndrome is birth control, which can 
successfully hinder the growth of cysts. When she was first 
diagnosed, it seem routine. The doctor wrote a prescription for 
birth control. Knowing of Georgetown's policy not to cover 
birth control for anything but medical conditions, the doctor 
wrote `for non contraceptive purposes' on the prescription, and 
off my friend went to the pharmacy. But she was turned down 
because Georgetown's insurance carrier assumed my friend wanted 
the medication to prevent unwanted pregnancy.
    ``She worked with her doctor's office to navigate the 
university's process to get coverage, but no matter what she 
did, she was denied coverage of her much-needed medication. My 
friend's prescription for birth control cost over $100 a month 
at her local pharmacy. She paid out of pocket for several 
months, but she was soon unable to afford the high cost of the 
medication. She had to stop taking it.
    ``In my friend's final year at Georgetown, she began having 
sharp pains in her abdomen. It was so painful, she woke up 
thinking she had been shot. When all the tests were completed, 
she learned that she had a plum-sized complex cyst growing on 
her ovary. The doctors had to remove her entire ovary because 
the cyst was just too complex. It had grown from the size of a 
plum to roughly that of a tennis ball. Had she been able to 
take birth control, the cyst would likely not have grown so 
rapidly or become so complex. Birth control could have made all 
the difference from preventing the loss of my friend's ovary.
    ``A year passed, but the complications from the removal of 
my friend's ovary are far from over. While we are here this 
morning, she is at a doctor's appointment set to determine if 
the removal of her ovary has forced her body into early 
menopause. She is having weight gain, night sweats, hot flashes 
and other symptoms of menopause. And my friend is only 32. If 
she is in early menopause, no fertility specialist in the world 
will be able to help her have children of her own.''
    This is a heart-wrenching story, and I am sorry we could 
not hear directly what this witness would have said. I think 
this is part of the complexity of the issue, and I would like 
to ask unanimous consent that the statement be entered into the 
record.
    Chairman Issa [presiding]. Without objection, so ordered.
    Mr. Cummings. And I yield back.
    Chairman Issa. I want to thank all our witnesses today. You 
have been very generous. All of you were here for the first 
panel and the second panel, and I appreciate your contribution 
to our better understanding of religious freedom, first from 
the clergy standpoint and now from the people so close to the 
administering of other services on behalf of religious 
organizations.
    Thank you. We stand adjourned.
    [Whereupon, at 2:05 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3614.084

[GRAPHIC] [TIFF OMITTED] T3614.085

[GRAPHIC] [TIFF OMITTED] T3614.086

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
